<html>
<title> - Department of Defense Appropriations for Fiscal Year 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
                   DEPARTMENT OF DEFENSE APPROPRIATIONS 
                           FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Murkowski, Blunt, Daines, Moran, 
Durbin, Leahy, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                       National Guard and Reserve

STATEMENT OF GENERAL FRANK J. GRASS, CHIEF, NATIONAL 
            GUARD BUREAU


               opening statement of senator thad cochran


    Senator Cochran. The Subcommittee on Defense Appropriations 
of the United States Senate will come to order.
    Our hearing this morning will review the budget request for 
the National Guard and Reserve for fiscal year 2016.
    We are very pleased to welcome the Chief of the National 
Guard, General Frank Grass; the Director of the Air National 
Guard, Lieutenant General Stanley Clarke; the Director of the 
Army National Guard, Major General Timothy Kadavy; Chief of the 
Army Reserve, Lieutenant General Jeffrey Talley; Chief of the 
Naval Reserve, Vice Admiral Robin Braun; Chief of the Air Force 
Reserve, Lieutenant General James Jackson; and Marine Forces 
Reserve Commander, Lieutenant General Richard Mills.
    The Guard and Reserve provide vital support to our homeland 
defense and Overseas Contingency Operations. They are integral 
in maintaining our national security interests.
    Since 2001, the Reserve components have evolved from a 
purely strategic force in Reserve to a strategic and 
operational Reserve. In this role, they maintain a high state 
of readiness in the event they are called to duty.
    Funding for the Guard and Reserve, which is contained 
within the budget request of the Army, Navy, Air Force, and 
Marines, totals $46.7 billion for fiscal year 2016. The request 
is $1.7 billion more than the current level of spending. 
Despite this modest increase, the future readiness of the Guard 
and Reserve remains in jeopardy. The uncertainty of the fiscal 
environment and the evolving requirements of mobilized 
guardsmen and reservists at home and abroad continue to 
challenge all of us.


                           prepared statement


    In times of fiscal and global uncertainty, we must keep the 
needs of the total force in mind.
    The men and women who serve in the Guard and Reserve have 
done an outstanding job of answering the call while managing 
civilian careers in many cases. I look forward to hearing about 
their successes and challenges from today's distinguished panel 
of witnesses.
    [The statement follows:]
              Prepared Statement of Chairman Thad Cochran
    The subcommittee will come to order. Our hearing will review the 
budget requests for the National Guard and Reserves for fiscal year 
2016. We are pleased to welcome: Chief of the National Guard, General 
Frank Grass; Director of the Air National Guard, Lieutenant General 
Stanley Clarke; Director of the Army National Guard, Major General 
Timothy Kadavy; Chief of the Army Reserve, Lieutenant General Jeffrey 
Talley; Chief of the Navy Reserve, Vice Admiral Robin Braun; Chief of 
the Air Force Reserve, Lieutenant General James Jackson; and Marine 
Forces Reserve Commander, Lieutenant General Richard Mills.
    The Guard and Reserve provide vital support to our homeland defense 
and in overseas contingency operations; they are integral in 
maintaining our national security interests. Since 2001, the Reserve 
Components have evolved from a purely strategic force in reserve, to a 
strategic and operational reserve. In this role, they must maintain a 
higher state of readiness in the event they are called to duty.
    Funding for the Guard and Reserve, which is contained within the 
budget requests of the Army, Navy, Air Force and Marines, totals $46.7 
billion for fiscal year 2016. The request is $1.7 billion more than the 
current level.
    Despite this modest increase, the future readiness of the Guard and 
Reserve remains in jeopardy. The uncertainty of the fiscal environment 
and the evolving requirements for mobilized Guardsmen and Reservists at 
home and abroad continue to challenge all of us.
    In times of fiscal and global uncertainty, we must keep the needs 
of the total force in mind. The men and women who serve in the Guard 
and Reserve have done an outstanding job of answering the call while 
managing civilian careers. I look forward to hearing about their 
successes and challenges from today's distinguished panel of witnesses. 
Your full statements will be included in the record.
    I am pleased to yield to the distinguished Vice Chairman, Senator 
Durbin.

    Senator Cochran. Your full statements will be included in 
the record, and I'm pleased to yield to our distinguished 
chairman, Senator Durbin, my good friend, for any comments he 
might have at this point.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, thanks a lot. I apologize for 
being a few minutes late. In the interest of time, I am going 
to ask my opening statement be made part of the record, so we 
have plenty of time with the witnesses.
    Senator Cochran. Without objection, it is so ordered.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
to our hearing to discuss the fiscal year 2016 budget for the National 
Guard and Reserve.
    Just like their active duty counterparts, we owe our Guardsmen and 
Reservists a special debt of gratitude. Our citizen-soldiers continue 
to distinguish themselves as an integral part of our national defense, 
deploying seamlessly around the globe at the high operational tempos of 
the post 9/11 years.
    The National Guard also plans a critical leadership role in their 
communities and State, responding when called upon to help with natural 
disasters and other unforeseen events.
    In Illinois, our Guard and Reserve units do everything from 
providing senior leadership transportation and mid-air refueling, to 
repairing jet engines and supporting combat air operations, serving 
from all corners of the State. We can't thank them enough for their 
tireless efforts.
    We must figure out the best way to leverage the strengths the Guard 
and Reserve bring to the fight post-Iraq and Afghanistan and in an era 
of declining budgets.
    This is the task that Congress gave to the National Commission on 
the Future of the Army last year. It is important for us to fully 
understand the dynamics of the current debates around force structure 
and end strength--most notably discussed as part of the Army Aviation 
Restructure Initiative--as the Commission begins its work. I look 
forward to advancing that conversation today.
    I also hope to learn more about the Guard and Reserve role in our 
Cyber defense operations. The ever-changing nature of the technological 
threats we face makes it essential that we maximize our Guard and 
Reserve Cyber capabilities efficiently and effectively in the weeks, 
months and years ahead.
    We look forward to hearing your thoughts on all of these issues. 
Thank you for your testimony this morning and for your service to our 
country.

    Senator Cochran. Well, you may proceed in the following 
order, I am told: General Frank Grass, Lieutenant General 
Stanley Clarke III, Major General Timothy J. Kadavy, Lieutenant 
General Jeffrey W. Talley, Vice Admiral Robin Braun, Lieutenant 
General James Jackson, and Lieutenant General Richard P. Mills.
    General Grass, you may proceed.

              SUMMARY STATEMENT OF GENERAL FRANK J. GRASS

    General Grass. Chairman Cochran, Vice Chairman Durbin, 
distinguished members of the subcommittee, it is a pleasure to 
be here today to represent the more than 455,000 men and women 
of the National Guard, and the families, communities, and 
employers who support them.
    I understand that we are very pressed for time today, due 
to the upcoming joint session of Congress, so I will keep my 
comments very brief.
    I would be remiss, though, if I didn't mention the great 
work by the Maryland National Guard Army and Air 2000 that 
rolled out Monday night and Tuesday to support the first 
responders in Maryland. So I salute them this morning.
    I know this committee is keenly aware of the challenging 
fiscal and security environment facing the Nation. With this 
turbulence, I am concerned that, under sequestration, the 
Nation will have its smallest National Guard since the end of 
the Korean War, despite the American population roughly 
doubling in this time.

                           PREPARED STATEMENT

    This same force is needed to respond to the needs of the 
Governors at a time the Army and Air Force is drawing down and 
will rely more heavily on an operational Reserve to accomplish 
combatant command missions. Continued modest investment in 
training, manning, and equipping will maintain the readiness of 
your National Guard as a combat Reserve of the Army and Air 
Force.
    We are tremendously appreciative of this committee's 
support to the Guard, and I look forward to your questions.
    [The statement follows:]
              Prepared Statement of General Frank J. Grass
                            opening remarks
    In this time of uncertainty where national and global security 
challenges are intertwined with fiscal constraints, the National Guard 
stands ready to meet these challenges and open a new chapter in its 
long and proud history. This new chapter begins with a National Guard 
that is accessible, responsive, and capable.
    A strategic transition is underway--a necessary transition driven 
by constrained resources after over 13 years of sustained combat 
operations. While we must deal realistically with budget limits and a 
volatile global landscape, we must always ensure that we are ready to 
do the three things we do extraordinarily well: fight America's wars, 
respond in the homeland, and build partnerships.
                          fight america's wars
    Since 9/11, the Army National Guard and Air National Guard have met 
every deployment requirement assigned to them, with the broadest 
mission sets possible. From Brigade Combat Teams conducting 
counterinsurgency operations and Combat Aviation Brigade deployments, 
to expeditionary Wings operating around the world, as well as non-
standard units such as Agribusiness Development Teams, we have worked 
seamlessly with our active component counterparts. With nearly 770,000 
individual overseas mobilizations, the National Guard has proven, time 
and time again, that we are and will remain ready if properly 
resourced.
    Our ability to meet all contingencies at home and abroad while 
enabling security around the world is no small task. For more than a 
decade of combat, our Guardsmen have fought alongside our active 
component counterparts with distinction and valor. Their capabilities 
are a testament to the years of training and investment America has put 
into the National Guard to be a vital part of the on-demand force for 
the Nation. Our Guard has gained the trust of the American people. This 
trust was earned through hard work and sacrifice of our Soldiers and 
Airmen.
                       responding in the homeland
    The National Guard has a special role as the original homeland 
security and defense force. Using our unique array of authorities, we 
respond to the needs of the Nation and the States. The National Guard 
is positioned in nearly 3,000 communities to provide an immediate 
response to local, State, and national emergencies as well as ongoing 
domestic missions. Close ties with the States and local communities 
enable the National Guard to play a significant role in domestic 
emergencies.
    Whether responding to natural disasters such as severe storms, 
wildfires, and hurricanes or man-made threats to the homeland, the 
National Guard is the first military force to reach the scene, working 
hand-in-hand with State and local leaders and emergency personnel when 
called by the governor.
               building global and domestic partnerships
    The National Guard also strengthens and sustains partnerships on a 
daily basis. One of our greatest strengths is our close cooperation, 
built on trust, with our local, State, Federal, and global partners. 
Programs such as the State Partnership Program (SPP), pairing 
individual U.S. States with partner nations has paid huge dividends in 
establishing long-term security and personal relationships. These 
enduring partnerships stand as some of the strongest security 
partnerships in the world. For a small cost to our taxpayers, the SPP 
delivers strategic benefits by providing training, sharing military and 
homeland defense expertise, and encouraging partner nations to 
participate in coalition operations. Beyond budget pressures, SPP has 
contributed to the U.S. efforts to counter anticipated and 
unanticipated global threats as they emerge and has fostered personal 
relationships with defense leaders around the world.
    These partnerships and personal relationships in strategic regions 
around the world have proven invaluable. Whether conducting co-
deployments with state partners on coalition operations or foreign 
defense leaders reaching out directly to state partners during 
contingencies or times of crises, the strategic impact of the SPP has 
been remarkable.
    With the ongoing success of the SPP, we look forward to expanding 
the program beyond the current 74 countries. The National Guard will 
continue to collaborate closely with the Department of Defense, 
combatant commands, and the Department of State in addressing future 
challenges, and maintaining the goodwill we have established with our 
partner nations.
                    proven and cost-effective force
    The Department of Defense faces tough decisions in this time of 
limited budgets and must rethink its strategies and make decisions on 
how to balance readiness with force capacity. The National Guard is a 
proven option that allows for rapid, cost-effective and seamless 
expansion of active component forces. This scalability preserves 
capability and capacity rather than forcing the Nation to choose 
between them. As the military draws down, the advantages of the 
National Guard become obvious. We stand as a hedge during this time of 
uncertainty and provide reversibility when needed in the future. The 
National Guard provides this capability while saving the Nation 
significantly on personnel costs--costs that can be reinvested for 
modernization and readiness.
    I am confident in the National Guard's ability to meet the Nation's 
demands in wartime and peacetime, at home and abroad. However, 
retaining all of the advantages of today's National Guard into the 
future requires maintaining the readiness of the National Guard. This 
is accomplished through operational use, relevant training, and 
continued investment in modernization and recapitalization. Preserving 
a fully operational Army and Air National Guard is imperative to meet 
the future challenges our Nation faces.
    As the combat reserve of the Army, we must ensure that our Army 
National Guard maintains a balanced force that is organized to conduct 
the full spectrum of missions and has the level of support to maintain 
base line levels of readiness. To maintain these levels of readiness 
the National Guard must conduct dynamic training, such as Combat 
Training Center rotations and exercises. We must also employ units to 
achieve the necessary operational experience and leadership 
development. This includes predictable, rotational deployments that 
enable us to maintain the combat tested proficiency we have gained over 
the past decade.
    The Air National Guard, Air Force Reserve, and U.S. Air Force 
continue to work together to create the Total Air Force capable of 
meeting our domestic and global security requirements, both today and 
in the future. The Air National Guard's part of the Total Force plan 
includes hosting active component Airmen in active associate 
organizations to help build the Total Force experience base. It also 
includes transitioning units to a broader range of high-priority 
missions in Intelligence, Surveillance, and Reconnaissance (ISR) such 
as Remotely Piloted Aircraft (RPA) as well as cyber missions.
    Choosing to resource the National Guard leverages the tremendous 
value that the Guard provides America, with a force ready at a moment's 
notice for domestic missions and proven, capable Soldiers and Airmen 
for overseas combat operations. When not activated, this immense 
capacity comes at about one-third the fully burdened and life-cycle 
costs, per capita on average, of an active component service member.
                            closing remarks
    The foundation of the National Guard is our people--its units, 
families, communities, and employers. It has been our families and 
communities that have sustained us over the past decade of multiple 
deployments and sacrifices. We must continue to keep faith with our 
force, our families, and our neighbors. We will honor our fallen 
patriots and wounded warriors by supporting their families and helping 
them reintegrate into their communities.
    The National Guard will strive to continue to foster positive 
environments that are free from abuse, harassment, and discrimination 
and develop resilient Guardsmen and families. We must ensure that we 
are moving in the right direction. The Nation's investment in 
developing healthy Guardsmen and families through a wide array of 
resourced, accessible, and effective programs is greatly appreciated.
    Our Nation will undoubtedly face significant domestic, global, and 
fiscal challenges in the future. The National Guard will strive to meet 
these challenges by providing our Nation an accessible, responsive, 
capable, ready, and affordable force. We will continue to bring needed 
capabilities to both the Nation and to communities through our unique 
array of State and Federal authorities. The National Guard is woven 
into the fabric of our Nation through communities everywhere, ready and 
willing to transform from civilians to Guardsmen on a moment's notice.
    I want to thank this Committee for your continued support of our 
Citizen-Soldiers and Airmen. I look forward to your questions.

STATEMENT OF LIEUTENANT GENERAL STANLEY E. CLARKE III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Clarke. Good morning. On the 10th of April, 19 days 
ago, Alaska Air National Guard members saved the lives of three 
climbers in the hills and mountains of Alaska in austere 
conditions. We had hurricane force winds, whiteout conditions. 
I imagine the temperatures were subfreezing. They did this with 
the dual-purpose equipment that you all have authorized for us 
to do the homeland mission and the overseas mission, the 
warfighting mission.
    On that same day, we performed nearly 100 percent of the 
air defense mission over the United States. On that same day, 
we had fighter squadrons deployed to Japan, Korea, Europe, and 
Kuwait, fighting the ISIS (Islamic State of Iraq and Syria) 
threat. We also, on the same day, had members of the air 
mobility community deployed around the group on every 
continent, with the exception of Antarctica. It just got too 
cold to stay there, because we do that mission, too--and agile 
combat support and cyber and ISR (intelligence, surveillance, 
and reconnaissance).

                           PREPARED STATEMENT

    The heartbeat of the operational Reserve beats in the chest 
of the Air National Guard. I wanted to let you know that behind 
that are a lot of civilian employers and family members, and I 
am proud of all of them.
    I look forward to your questions.
    [The statement follows:]
     Prepared Statement of Lieutenant General Stanley E. Clarke III
    During a period of continued fiscal uncertainty, this past year 
demonstrated the Air National Guard's value to the Nation. The men and 
women of the Air National Guard overcame the pressures of starting the 
fiscal year under the cloud of civilian furloughs and government 
shutdowns while continuing to meet the demands of Overseas Contingency 
Operations. Continuing a process that began in fiscal year 2013, 
several units have transitioned into new mission areas such as cyber 
and remotely piloted aircraft while many others will undergo 
conversions over the next couple of years. We must prepare our force to 
meet the challenges of a complex and new world. Our Air Force needs a 
strong and ready Air National Guard.
    This presentation provides an overview of the past year, focusing 
primarily on the Air National Guard's contribution to the national 
defense strategy, followed by a look into the future, including areas 
where we solicit your continued support.
    The National Guard, including the Air National Guard, is unique in 
its contribution to the three pillars of the defense strategy--Protect 
the Homeland, Project Power and Win Decisively, and Build Security 
Globally. The inherent characteristics of the National Guard are 
foundational for its responsibilities to local, State, territorial, and 
Federal authorities. Its cost-effective citizen Airmen and Soldier 
construct, underpin the unique qualities the National Guard brings to 
the table with its Balanced Strategy--A Proven Choice for the Warfight, 
A First Choice for Homeland Operations, and An Enduring Choice for 
Security Cooperation and Building Partnerships.
               the air national guard--always on mission
A Proven Choice for the Warfight
    National Guard Airmen have participated in every American conflict 
since the Mexican border emergency of 1916, but when the Guard members 
of the Nevada Air National Guard's 152nd Tactical Reconnaissance Group 
deployed to Shaikh Isa Ba in August 1990 to support Operation DESERT 
SHIELD, little did they know they were on the vanguard of redefining 
the Air National Guard and its contribution to 24 years of continuous 
combat operations. Since then, the Air National Guard has evolved from 
a strategic reserve, called upon primarily during national emergencies, 
to an essential partner in the Total Air Force. Today's Air National 
Guard, in addition to providing a reserve surge capacity, contributes 
daily to the U.S. Air Force commitment to Global Vigilance, Global 
Reach, and Global Power in all five core missions: Air & Space 
Superiority; Intelligence, Surveillance, & Reconnaissance; Rapid Global 
Mobility; Global Strike, and Command & Control.
    Last year Air National Guard men and women filled nearly 11,000 
Combatant Commander requests for support. Additionally, Guard Airmen 
defended the skies over our homeland and supported their deployed 
brethren through U.S.-based ``reach-back'' capabilities including 
remotely piloted aircraft operations and intelligence analysis. Air 
Guard contribution to Overseas Contingency Operations peaked in March 
2003 at 24,301, and the men and women of your Air National Guard 
continue to respond to the country's security requirements. There were 
5,413 Guard Airmen on mobilization orders in December 2014, 65 percent 
as volunteers.
    Throughout our history, Guard Airmen have volunteered for routine 
or non-emergency missions augmenting the Regular Air Force in 
performing daily operational missions. In 2011, Congress enacted a new 
mobilization authority, 10USC12304b, authorizing the Secretary of 
Defense to mobilize reserve forces for other than war or national 
emergency. This new mobilization authority provides ``predictability'' 
to our Guard Airmen, their families, and employers. It also 
``guarantees'' the Reserve Components will be there--where ever 
``there'' may be--when needed. Guard Airmen left on their first 
10USC12304b non-contingency deployment in January 2015. They will be 
augmenting the U.S. Air Force by providing forward presence and 
assurance to the nation's security partners.
    The men and women of your Air National Guard recognize the ``New 
Normal.'' They understand that being in the Guard is no longer just 
training for the next big war. It means defending American interests 
both at home and overseas, 365 days a year. It means regularly leaving 
home, family, and civilian jobs behind for the frontlines of America's 
defenses.
A First Choice for Homeland Operations
    When not helping to provide ``forward defense,'' Air Guard members 
are manning the last line of defense here at home; what we call 
``Domestic Operations.'' I put Air Guard Domestic Operations into three 
broad categories:
  --First, the things we do every day to defend the homeland;
  --Second, protection of life and property; and
  --Third, preparing for the unthinkable.
    As is well publicized, the Air National Guard is the primary U.S. 
force provider to NORAD for the defense of U.S. airspace. Air Guard 
units man 15 of the 16 fighter alert sites around the continental U.S. 
and Hawaii, as well as command and control facilities, and many aerial 
refueling alert sites. Today there are about 950 Guard Airmen 
supporting Aerospace Control Alert (ACA) operations.
    In addition to the ACA mission, the Guard Airmen support law 
enforcement agencies in Counter Drug Operations and Southwest Border 
Protection Operations--Primarily with Intelligence, Surveillance and 
Reconnaissance and logistics support. The numbers vary daily, but there 
are about 300 Guard Airmen supporting the U.S. Drug Enforcement Agency 
and another 10 to 20 assisting the U.S. Customs and Border Protection 
Service along the southwest border.
    Air National Guard Domestic Operations includes protecting life and 
property. When a governor or the President ``calls out the Guard'' it 
is not just the Army Guard. At the end of 2014, there were 88 Guard 
Airmen in State Active Duty status helping with winter storm recovery 
in New York and Massachusetts, including civil engineers, security 
forces, civil response liaison personnel, and command & control. There 
are 27 ANG members on Hawaiian State Active Duty supporting the Puna 
Lava Flow response.
    Specially equipped C-130 units frequently augment the U.S. Forest 
Service and local responders in fighting forest fires. Last year, ANG 
Modular
    Aerial Fire Fighting units dropped approximately 2.273 million 
pounds of fire retardant on U.S. wildfires. Last summer, an MQ-1 
Predator from the California Air National Guard demonstrated the dual-
use flexibility of the Air Guard by providing enhanced situational 
awareness to fire fighters battling the Rim Fire.
    Air National Guard Search and Rescue units in Alaska, California, 
and New York provide around-the-clock coverage for domestic joint 
military operations. They augment U.S. Coast Guard and other search and 
rescue operations. They were credited with many dramatic ``saves'' last 
year, including the rescue of a sick 1-year-old girl and her family 
from their disabled sailboat off the Mexican coast last March.
    The third category of Domestic Operations is preparing for the 
unthinkable. More than 70 percent of Defense Department's chemical, 
biological, radiological, nuclear (CBRN) response capability resides in 
the National Guard. The Guard provides Joint Army and Air teams that 
respond to potential CBRN incidents to determine the agent and assess 
the hazard, conduct search and rescue operations, decontaminate 
personnel and equipment, and provide emergency medical support. For 
example, in January and February 2014, 274 Guard Airmen of the 130 
Airlift Wing, West Virginia Air National Guard, assisted with water 
distribution and health & wellness checks following the chemical 
contamination of Elk River.
    At the core of the National Guard's Domestic Operations 
capabilities are relationships--long and enduring relationships. When a 
disaster strikes is not the time to be introducing yourself to the 
local police and fire chiefs, or the State disaster response 
coordinator, the Regional FEMA Director, or their local Red Cross 
coordinator. Because a core strength of the National Guard is its 
assignment stability, it is likely that local Guard leadership not only 
knows the local civic leaders and first responders, but went to school 
with them, and have participated in numerous local disaster response 
exercises together.
    What makes the National Guard uniquely effective in providing 
support to civil authorities is its 378-year history of volunteering to 
protect and defend their communities--defending their local communities 
is in the Guards' DNA--and so is relationship building within these 
communities.
An Enduring Choice for Security Cooperation and Building Partnerships
    The men and women of our Air National Guard also contribute to the 
third pillar of the national defense strategy--Building Security 
Globally. Over the past 20 years, the National Guard has evolved into 
an in-demand, low cost, high impact security cooperation partner of 
choice for the Department of Defense with participation in such 
activities as the State Partnership Program, Foreign Military Sales 
training, and training exercises that assist in shaping our 
international environment and build partner capacity. Furthermore, the 
National Guard extends security cooperation at home via partnerships 
with both Department of Defense (DOD) and non-DOD organizations and 
agencies such as the Federal Aviation Agency, U.S. Customs & Border 
Protection, Immigration and Customs Enforcement, and State and local 
first responders.
    Air Guard units in Missouri, Rhode Island, Arizona, and Mississippi 
invested over 2\1/4\ million man-days training foreign air force 
personnel to fly and maintain C-130s, F-16s, and C-17s, and teaching 
Advanced Airlift Tactics to C-160 crews. Guard Airmen traveled to 21 
countries last year conducting military training and assisting our 
defense partners in other ways. For example, Utah and Arizona Air Guard 
members conducted in-country Helmet Mounted Cueing System training with 
the Moroccan Air Force, Guard KC-135 units provided air refueling 
support for NATO AWACS training, and Wyoming C-130 crews support 
Italian Army parachute training--to name just a few.
    Guard Airmen are integral to the National Guard State Partnership 
Program. The State Partnership Program is an innovative, low-cost, 
small footprint DOD security cooperation program administered by the 
National Guard. The program pairs state National Guard units with the 
armed forces of partner countries in a cooperative, mutually beneficial 
relationship. While managed by the National Guard Bureau, Partnership 
Program activities must meet DOD, COCOM, and State Department 
objectives for the partner countries. These activities are as varied as 
the partner countries.
    Members of the Vermont Air National Guard, Explosive Ordnance 
Disposal (EOD) unit, trained the Senegalese military in landmine 
detection and removal--a particularly pertinent problem in Senegal. 
Guard Airmen then taught the Senegal Ministry of Defense how to setup 
and run their own landmine detection and removal training program.
    Air Guard members have helped partner countries setup 
noncommissioned officer (NCO) academies, improve their airport security 
and airbase operations, evaluate their cyber defenses, and improve 
their medical services and emergency medical team capabilities. Last 
July, West Virginia Guard members spent 6 days helping the Peruvian 
government prepare an emergency humanitarian response plan and 
exercise--a core competency of the National Guard.
    There are two critical components to the State Partnership Program. 
The first is oversight--cooperative involvement of the partner states, 
the Department of Defense, the Department of State, the regional 
COCOMs, and State National Guard leadership. These events are well 
planned and well-coordinated to meet the objectives of the numerous 
constituencies involved.
    Second, the foundation of the program is enduring relationships. In 
the same way that the National Guard uses its stable personnel policies 
to build relationships within its local communities, the Guard builds 
enduring relationships, military-to-military and military-to-civilian 
relationships with its State Partnership Program partners. To quote 
General Rodriguez, U.S. AFRICOM Commander, ``We have eight states that 
are in the State Partnership Program. They perform a great role in 
building relationships as well as building capacity of our partners.''
                   sustaining the air national guard
    The men and women of our Air National Guard have accomplished great 
things since 1990 and Operation DESERT SHIELD. Their transformation 
from a Cold War era strategic reserve to a 21st century force capable 
of maintaining a long-term rotational combat operations tempo has been 
unprecedented and would not have been possible without the support of 
the Air Force and Congress. We must ensure this capability is not lost; 
we must not condemn the next generation of Airmen to relearn the 
lessons of past post-war drawdowns. We must sustain the Air National 
Guard capabilities within the National Guard's Balanced Strategy 
through the dedicated efforts of each Guard Airmen in concert with the 
U.S. Air Force, the Department of Defense, and Congress. I have three 
priorities for sustaining the gains we have made and for ensuring the 
Air National Guard continues to meet the needs of the Nation:
  --Supporting our Guard Airmen, their families, and their employers;
  --Seamless integration within the Total Air Force; and
  --Preparing for and bridging the gap to recapitalization.
Personnel
    The fiscal year 2016 President's Budget includes an increase in Air 
Guard end-strength from 105,000 to 105,500 or in budget terms, from 
$3,118,700 to $3,222,500. The increase will help with the beddown and 
standardization of new, priority missions including cyber, 
intelligence, and remotely piloted aircraft (RPA).
    Our Airmen are our most valuable and treasured assets upon which 
our success depends. Our Airmen, together with their families and 
employers, remain our first priority, especially in these times of 
uncertainty and change.
    Sexual Assault Prevention and Response Program (SAPR). Every sexual 
assault incident taints our Core Values and destroys unit morale--it 
must be eliminated. The Air National Guard's SAPR Program is composed 
of five parts: prevention, advocacy, investigation, accountability, and 
assessment.
  --Prevention. Acknowledging the problem and educating everyone in the 
        organization of the problem is the first step. In January 2010, 
        the Air Force launched an extensive education program to ensure 
        every Airman understands the problem and knows what is expected 
        of him or her as Air National Guard professionals.
  --Advocacy. In January 2013, the Air National Guard implemented a 
        Special Victim's Counsel Program. This Program provides advice 
        to victims on the investigative and military justice processes, 
        victims' rights protections, and empowers victims by removing 
        barriers to their full participation in the military justice 
        process.
  --Investigation. The National Guard has opened an Office of Complex 
        Investigations composed of Guard members with previous criminal 
        investigation training and special sexual assault investigation 
        training, to step-in when local law enforcement agencies 
        decline to investigate. In addition, the Air Force Office of 
        Special Investigation (AFOSI) is charged with investigating all 
        sexual assaults that occur in a Federal or Title 10 status 
        regardless of the severity of the allegations. For incidents 
        that occur in non-Federalized duty status, Air Guard commanders 
        must report the assault to the local law enforcement agency.
  --Accountability. Last July, the Air Force established minimum 
        administrative discharge procedures for any Airman (officer or 
        enlisted) who commits or attempts to commit a sexual assault or 
        engages in an unprofessional relationship while serving in 
        positions of special trust, e.g., recruiters, commanders, or 
        training officers and non-commissioned officers.
  --Assessment. The Department of Defense has established common 
        metrics and reporting procedures to collect and track 
        statistics on sexual assault. These tools will provide the 
        feedback necessary for early identification of adverse trends 
        and areas for additional action.
    Suicide Prevention.--The Air National Guard continues to struggle 
with the tragedy of suicide within its ranks. In 2014, the Air Guard 
experienced 14 suicides for a rate of 13.3 per 100,000, down from a 
high of 17.6 per 100,000 in 2010, but still well above our ultimate 
goal of zero. There is tangible evidence that the addition of Wing 
Directors of Psychological Health in 2010 and implementation of the Air 
Force Suicide Prevention Program have had positive impacts; however, 
our team of medical personnel, chaplains, Airmen & Family Readiness 
Program Managers, safety personnel, Transition Assistance Advisors, and 
Military OneSource counselors, together with Air Guard supervisors and 
leaders at all levels, continue to address this important issue.
    Our Directors of Psychological Health Program continues to evolve 
based on post-deployment experiences and current events. In 2010, to 
quickly implement the nation-wide program we moved out with a 
contractor-based program. We quickly learned that this program would 
not fully meet the needs of our Airmen. The contractor-based program 
was cumbersome, inflexible, suffered from high turnover and lacked 
consistency of mental health capabilities. After analyzing a number of 
options, we moved forward with converting from a contract-based program 
to civilian Federal government employees. Not only does this provide 
the best to our Guard Airmen, in the end, it will save approximately 
$8-million annually. We expect to have the full program implemented in 
the next couple of months.
Facilities & Equipment
    The Air National Guard has a history innovatively operating and 
maintaining legacy equipment dating back to the end of World War II. 
That history includes creative improvements that permitted seamless 
integration with the next generation of systems. For example, in the 
1960s a Guard aeronautical engineer hung two surplus J-47 jet engines 
on a piston engine driven KC-97 permitting the legacy aerial refueling 
tanker to refuel the Air Force's modern jet fighters. The modification 
improved the reliability and safety of the old aircraft.
    The Guard supports the Air Force's policy of replacing its older 
4th generation fleet with modern 5th generation aircraft to meet the 
potential threat from near-peer competitors, but we know that while 
awaiting recapitalization, the Air Guard needs to ensure its fleet of 
legacy systems remain safe and interoperable. The average of the Air 
Guard's aircraft fleet is 25.7 years with the oldest approaching 50 
years and the end of their Certified Service Life. Without 
modifications these aircraft may become unsafe and unreliable before 
being recapitalized. The Air Guard's aircraft require avionics upgrades 
to comply with new air traffic control requirements and to ensure their 
systems remain compatible with the latest command and control 
architectures, and is included in the fiscal year 2016 budget request. 
The seamless integration of Air Guard equipment into the Total Air 
Force proved its value during the last 24 years of combat operations.
    Military Construction (MILCON) Projects.--The Air National Guard 
budget proposal for fiscal year 2016 includes $138,700,000 for military 
construction projects. The Air Guard gave priority to MILCON projects 
supporting new missions and Air Force directed mission re-alignments; 
in fact, nearly all the major MILCON projects in the fiscal year 2016 
budget, $78.6 million, support new missions. While this policy has 
caused increased risk to current missions, the Air Guard is working to 
address functional space deficiencies by consolidating functions and 
recapitalizing aging infrastructure, especially those with safety 
deficiencies.
    National Guard & Reserve Equipment Account (NGREA).--The Air 
National Guard fiscal year 2015 NGREA funding strategy directed 70 
percent towards modernization projects on legacy major weapon systems, 
90 percent of which are dual-use capable, and 30 percent towards 
improving domestic response capabilities. In fiscal year 2016, the Air 
National Guard seeks to update the communications suite, avionics, and 
defensive system on our F-15s and F-16s ($57.8 million); upgrade the 
tactical data link, avionics and communications on the C-130Hs and KC-
135s ($25.4 million); purchase aircraft support, flight line, and back-
shop logistics equipment ($32.8 million); and a number of smaller 
items.
                               conclusion
    Managing a declining budget is one of the most challenging things 
the Department of Defense ever does. For the U.S. Air Force, it comes 
down to making difficult decisions between capability, capacity, 
readiness, and modernization. The Total Air Force decided to take 
increased risk in the near-term to ensure its future warfighting 
capability by choosing to invest in new more capable equipment rather 
than upgrading its older systems. This decision, while agreed to, 
create challenges for the Air National Guard primarily in the area of 
near-term risk management, because much of the older or legacy systems 
are operated by the Air Guard, and we share the responsibility to 
ensure that the Total Air Force can meet today's defense commitments 
while waiting for tomorrow's capabilities.

    Senator Cochran. Thank you, General Clarke.
    General Kadavy.
STATEMENT OF MAJOR GENERAL TIMOTHY J. KADAVY, DIRECTOR, 
            ARMY NATIONAL GUARD
    General Kadavy. Thank you, sir. Chairman Cochran, Vice 
Chairman Durbin, distinguished members of the subcommittee, 
it's my honor to appear before you today.
    I'd just like to take an opportunity to note the Nation's 
opportunity to see the investment that they've made in 
operational Reserve just based on what the Maryland Army 
National Guard has done in the last 48 hours, a very quick and 
professional response in support of their local law enforcement 
and local communities.
    Our soldiers' well-being is my top priority. I thank 
Congress for supporting our behavioral health, suicide 
prevention, sexual assault prevention, and other critical 
soldier programs. I also want to thank Congress for NGREA 
(National Guard and Reserve Equipment Account) and other areas 
where you have made our Army National Guard your priority.
    As a critical component of the total Army, the Army Guard 
is a powerful hedge against uncertainty in an unpredictable and 
dangerous world. I urge you to maintain the Guard as a capable 
and ready force that can perform our essential dual missions 
both here at home and abroad.
    The President's fiscal year 2016 budget request presents 
less risk than we faced in fiscal year 2015, but some readiness 
concerns remain. I'll just elaborate on a few.
    Our medical readiness is beginning to trend downward due to 
risk we accepted in 2015. Second, the budget provides for an 
Army National Guard end-strength at 342,000, which is 8,200 
less than our current authorization. This may lengthen response 
time for domestic emergencies and leave fewer forces for 
overseas missions.
    The budget does increase our training funds, which are 
essential for leadership development and maintaining an Army 
Guard as an operational force. Aside from the two combat 
training center rotations, the majority of our force is limited 
to individual crew and squad level proficiency training.

                           PREPARED STATEMENT

    The Army National Guard, fourth and finally, cannot replace 
all of its aging facilities with military construction, so we 
must preserve existing infrastructure with facility 
sustainment, restoration, and modernization funds. The budget 
will fund most of our critical repairs.
    I'm proud to represent the Army National Guard here today, 
and I look forward to your questions.
    Thank you, Chairman.
    [The statement follows:]
       Prepared Statement of Lieutenant General Timothy J. Kadavy
                              introduction
    Chairman Cochran, Ranking Member Durbin, and other distinguished 
members of the subcommittee; I am honored to testify before you and 
represent the Soldiers of the Army National Guard.
    I would like to express my gratitude for the continued support that 
this committee and Congress as a whole have provided to the Army 
National Guard. As the active Army, Army Reserve and Army National 
Guard trained and deployed shoulder-to-shoulder over the past 13 years 
of war in Iraq and Afghanistan, Congress consistently provided the 
resources for the Total Army to remain the most formidable and capable 
land force in the world. As a result, the Army Guard has fully 
transitioned from a Cold War-era strategic reserve to a combat-
seasoned, full-spectrum operational force.
    With regard to the Army Guard's recent contributions to our 
national defense, the numbers speak for themselves. Since September 11, 
2001, Army Guard Soldiers have completed more than 535,000 individual 
mobilizations in support of Federal missions, with 364,871 individual 
Soldiers mobilizing to Iraq and Afghanistan during that period. The 
Guard mobilized 25,236 Soldiers for service around the world in fiscal 
year 2014, and today we have more than 5,500 Soldiers mobilized in the 
United States and overseas.
    At home, the Army National Guard remains the military's primary 
domestic responder. There were 45 major disaster declarations in 30 
States and territories in 2014. In fiscal year 2014, Army Guard 
Soldiers served nearly 700,000 duty days under the command of the 
Nation's governors, assisting our fellow citizens during domestic 
emergencies and aiding Federal authorities in other critical areas such 
as counterdrug efforts and security along our Southwest border. At home 
and abroad, the Army Guard is and will remain an indispensable force.
      the president's fiscal year 2016 army national guard budget
    The combination of the budget caps included in the Budget Control 
Act of 2011 and the Bipartisan Budget Act of 2013 required Army Guard 
leadership to make hard choices in the face of a resource constrained 
environment. The President's fiscal year 2016 budget increases funding 
levels in both Operations and Maintenance (OMNG) and National Guard 
Personnel, Army (NGPA) accounts compared to fiscal year 2015. 
Additionally, the Army Guard end-strength is planned to be further 
reduced by 8,200 Soldiers to 342,000, although this decline is 5,700 
less than was planned last fiscal year.
    The Army Guard has and always will respond to the call. However, 
reduced funding in fiscal year 2015 is making it more challenging to 
maintain acceptable levels of readiness. We thank Congress for 
providing additional appropriations for two Combat Training Center 
rotations in fiscal year 2015. The fiscal year 2016 President's Budget 
is a step toward improvement, but we remain concerned that readiness 
levels are at risk in future years.
    The fiscal year 2016 Budget provides the Army Guard a $542 million 
increase in Operations and Maintenance funding and a $298 million 
increase in Personnel (pay and allowances) funding in fiscal year 2016. 
We also want to thank Congress for adding $24 million to our Funeral 
Burial Honors account in fiscal year 2015. This ensured that we 
continue recognizing those who have served.
    National Guard Military Construction (MCNG) funding for fiscal year 
2016 is requested at $63 million more than the fiscal year 2015 enacted 
level. The fiscal year 2016 Budget request funds only the most critical 
facility construction needs. This forces the Army Guard to delay the 
replacement of our aging infrastructure. To preserve existing 
facilities, the Army Guard relies on Facilities Sustainment, 
Restoration and Modernization (FSRM) funding. FSRM is increased in the 
President's Budget for fiscal year 2016, which helps the Army Guard to 
make essential repairs. However, many of our facilities are not 
modernized.
    Overall, the President's fiscal year 2016 Budget provides the Army 
Guard with $534 million over BCA levels. Defense and Army leaders have 
emphatically stated that funding at BCA levels would present an 
unacceptable risk in readiness. The Army questions whether they will be 
able to support the 2012 Defense Strategic Guidance under BCA. 
Sequestration-level funding would degrade our ability to recover from 
the cuts sustained in fiscal year 2015.
    The President's fiscal year 2016 Budget request includes manageable 
risks. For example, our readiness for global and domestic missions will 
likely be reduced as medical and dental readiness begin to drop. 
Changes in force structure and end strength will incur costs to retrain 
Soldiers to serve in different types of units and different career 
fields. We refer to this as ``personnel turbulence.'' The extent of 
personnel turbulence and the associated costs are difficult to predict 
across the 54 States and Territories. Managing personnel turbulence 
within the fiscal year 2016 Budget request will likely be challenging.
    Full Time Manning is critical to the Army Guard's ability to 
maintain Foundational Readiness. Foundational Readiness is our ability 
to perform the mandatory personnel, administrative, maintenance, and 
supply functions as directed by Title 10 and Title 32, United States 
Code and, Department of Defense policy. It is important to note that 
the Army Guard did not experience wartime growth in Full-Time Manning. 
Our Full-Time Manning has always focused on readiness, not mobilization 
functions or large scale collective training events.
    The Army Guard faces potential changes in end strength and force 
structure in the near term. These changes will incur additional costs 
to re-train Soldiers, re-station units, move equipment, and modify 
existing facilities.
                fiscal year 2016 budget focus: equipping
    Since 2001, the Army Guard has received significant investments in 
equipment acquisition and modernization. Of the total quantity of Army 
Guard equipment authorized, 90 percent is on-hand. Fortunately, this 
equipment is modernized and fully interoperable with the rest of the 
Army. Our Equipment on Hand (EOH) for Modified Table of Organization 
and Equipment units is currently at 91 percent, which is good news. 
Critical Dual-Use (CDU) equipment is used for domestic responses and 
war fighting missions. We are pleased to report that CDU equipment is 
92 percent on hand.
    Despite our impressive EOH levels, sustaining aging equipment 
coupled with reductions in funding across the board, including 
reductions in Operating Tempo (OPTEMPO) and Depot Maintenance, funding, 
will result in a gradual decay in readiness. A reduction in depot 
maintenance funding forces us to defer critical depot overhauls, which 
reduces fleet operational readiness rates for vehicles and equipment.
                fiscal year 2016 budget focus: training
    The fiscal year 2016 Budget buys back some skills training, 
supports increased professional military education opportunities and 
provides additional funds for pilot training. Although the fiscal year 
2016 Budget request does not buy back the entire Initial Entry Training 
(IET) backlog from fiscal year 2015, the IET funding increase in the 
fiscal year 2016 request is still beneficial. The fiscal year 2016 
funding request, in conjunction with last year's congressional 
increase, begins to restore Duty Military Occupational Specialty 
Qualified (DMOSQ) rates near 85 percent. Educational requirements are 
prerequisites for the advancement and promotion of deserving Army Guard 
officers and Soldiers. Therefore, it is essential to fully fund the 
training budget request.
    Constrained Army Guard funding reduces opportunities for unit 
training. Collective training is critical for leader development and 
unit cohesiveness, which can quickly erode without comprehensive unit-
training events. Funding for Special Training increased in the fiscal 
year 2016 request, but it remains below fiscal year 2014 obligations. 
This funding will support pay and allowances for two CTC rotations and 
enabler missions. Most units will only be able to train to Individual/
Crew/Squad-level proficiency.
              fiscal year 2016 budget focus: installations
    As a community-based force, the Army Guard has facilities in nearly 
2,600 communities, making it the most dispersed military component of 
any service. In many towns and cities these facilities are the only 
military presence, with the Guard serving as the most visible link 
between hometown America and the Nation's Armed Services. These 
readiness centers, maintenance shops and training centers serve as pre-
mobilization platforms during times of war and power projection 
platforms during civil support operations in communities.
    Army Guard facilities depend upon the military construction program 
(MILCON), the FSRM program, and the Base Operations Support (BOS) 
program. Funding for these programs dropped significantly over the last 
several years, which lessened our ability to replace aging 
infrastructure and preserve existing facilities. Our facilities do not 
meet current capacity requirements and they are deteriorating at a rate 
where most will be in ``poor'' condition by 2020 and in ``failing'' 
condition by 2027. The fiscal year 2016 President's Budget increases 
funding for Army Guard MILCON FSRM and BOS, which is helpful. The 
fiscal year 2016 Budget funds the FSRM program at 80 percent of the DOD 
Facility Sustainment Model and it funds the BOS program at an amount 
consistent with the past 3 years of average BOS obligations.
 fiscal year 2016 budget focus: sexual harassment/assault response and 
                               prevention
    Sexual assault is a crime. Reduction of sexual assault in our ranks 
is a top priority of senior leaders across the Army Guard. As of 
February 2015, the Army Guard assigned 97 full time Sexual Assault 
Response Coordinators and Victim Advocates Coordinators. In addition to 
full-time support personnel, the Army Guard has trained more than 3,000 
collateral duty Sexual Assault Response Coordinators and Victim 
Advocates at the brigade and battalion level. Further, the Office of 
Complex Investigations continues to provide Adjutants General 
specialized Federal investigatory resources for cases involving sexual 
assault. The fiscal year 2016 Budget sustains support for the Sexual 
Harassment/Assault Response Program (SHARP).
           fiscal year 2016 budget focus: suicide prevention
    The Army Guard lost 76 Soldiers to suicide in calendar year 2014. 
This represents a one-third reduction from 2013. While no one factor 
can be pinpointed as the cause of this decrease, the Army Guard has 
implemented many efforts to improve the health of its force, including 
hiring additional support personnel, coordinating closely with the 
community, and conducting relevant training. The Army Guard will 
continue to layer efforts to provide care to its Soldiers, Civilians, 
and Families at every level.
    Although our unit leaders may only see the majority of their 
Soldiers during a single drill weekend each month, they are overcoming 
the challenges of leading geographically dispersed part-time Soldiers. 
By reducing the stigma associated with asking for help, leaders are 
making a difference. The number of reported suicide interventions 
increased by 27 percent from 2013 to 2014. Though a challenging goal, 
we strive to prevent all suicides. Every Soldier is a treasured asset 
to the Army Guard.
    In 2014, the Army Guard executed a national contract to provide a 
Suicide Prevention Program Manager in every State. The Army Guard 
increased the number of personnel trained to intervene in a suicidal 
situation by 116 percent in fiscal year 2014. In fiscal year 2015 The 
Army Guard will provide training to 259 Applied Suicide Intervention 
Skills Training program trainers, who will in turn train approximately 
9,600 additional gatekeepers. Additionally, Army Guard behavioral 
health counselors provided informal behavioral health consultations to 
more than 37,000 Soldiers and family members. The Army Guard will 
continue to make suicide prevention and behavioral health a top 
priority. The fiscal year 2016 Budget sustains support for the suicide 
prevention program.
        fiscal year 2016 budget focus: recruitment and retention
    Fiscal year 2015 has been one of the most challenging years in 
recent memory for Army Guard recruiting and retention. In the first 
quarter the Army Guard achieved 88.6 percent of the enlisted recruiting 
mission, recruiting 9,995 of 11,278 required Soldiers. From fiscal year 
2014 to fiscal year 2015, the Army Guard recruiting budget dropped by 
nearly $20 million. Continued recruiting performance at this level has 
the potential to put the Army Guard between 5,000 and 6,000 below 
fiscal year 2015 authorized end strength. The fiscal year 2016 Budget 
restores $4.2 million for recruiting and retention.
            fiscal year 2016 budget focus: medical readiness
    Thanks to dedicated attention to this issue by Congress and Guard 
leaders at every level, the Army Guard's medical readiness dramatically 
improved from a fully medically ready percentage of 22 percent in 
fiscal year 2007 to 86 percent in 2014.
    However, given the resource constraints the organization continues 
to experience we expect that medical readiness will decline. It does 
not take long for medical readiness to drop dramatically. After medical 
readiness drops, the Army Guard will have to invest more funding and 
time to regain it. The Army Guard can only send medically qualified 
Soldiers to training and on missions. Therefore, a deficit in medical 
readiness equates to a deficit in overall Army Guard capability.
                            closing remarks
    After more than a dozen years as an operational force, the Army 
Guard is at a pivotal moment in its history. The fiscal year 2015 
Budget is forcing the Army Guard to function at funding levels lower 
than fiscal year 2014. Today's force has experienced a substantial 
increase in personnel turbulence, reductions in facilities readiness, 
and reduced training opportunities, among other effects. The 
President's fiscal year 2016 Budget begins to put the Army Guard back 
on the path toward higher readiness.
    Should the Army National Guard return to sequestration-level 
funding, the resource reductions will have an immediate, severe impact 
on Army National Guard readiness and our ability to respond at home and 
abroad. This would also result in additional reductions to end 
strength.
    We will work with our Department leaders and Congress to find 
creative solutions to our formidable fiscal and national defense 
challenges. I thank you for your continued support for the Army 
National Guard and I look forward to your questions.

    Senator Cochran. Thank you.
    General Talley.
STATEMENT OF LIEUTENANT GENERAL JEFFREY W. TALLEY, 
            CHIEF, ARMY RESERVE
    General Talley. Chairman Cochran, Vice Chairman Durbin, 
distinguished members of the committee, I certainly want to 
start by echoing my appreciation for the great work of the 
National Guard as they help reinforce first responders in 
Maryland.
    As we celebrate the 107th birthday of the United States 
Army Reserve, it's an honor to represent their soldiers, 
civilians, and families. And on their behalf, I thank the 
committee for your steadfast support you've consistently 
provided, in particular for the $60 million you provided for 
the procurement of Humvee ambulances in fiscal year 2015. I 
look forward to your continued support as we go forward into 
the future.
    Mr. Chairman, the decision some years ago to place the 
majority of the Army's combat support and combat service 
support capabilities in the Army Reserve committed the Nation 
to maintaining the Army Reserve as an operational force. When 
sustained unified land operations are required, the Army as a 
service integrates and synchronizes all of America's military 
services. But they can only do so with the support of the 
United States Army Reserve, which provides most of the Army's 
critical technical enablers.
    Currently, our annual demand signal from the Army to meet 
contingent and combat requirements is about 27,000 soldiers. 
These are forces that must be maintained at the highest level 
of readiness.
    Unfortunately, the current model of 39 base-funded training 
days per year produces only a strategic nonoperational force. 
It's not sufficient to train, equip, and maintain the Army 
Reserve to meet mission requirements.
    In the past, readiness beyond that strategic level was 
purchased with overseas contingency dollars, but that 
flexibility, as we all know, no longer exists. Thus, the base 
budgets must reflect funding consistent with requirements.
    Readiness must be balanced with modernization and end-
strength. And if that balance is lost, our ability to support 
the Army and fulfill the Nation's national or global security 
requirements is at risk.
    We face such a dilemma today. Sequestration and budget 
uncertainties have created a requirements-resource mismatch, 
and they threaten our ability to support the Army and the 
Nation.
    Three areas of funding are essential to our readiness. The 
first is our annual training and OPTEMPO, operational tempo, 
accounts. Cuts to these accounts limit our ability to conduct 
individual, leader, and collective training.
    The second is equipping and modernization. Today, the Army 
Reserve comprises 20 percent of the total Army, yet our share 
of the Army's equipping budget is less than 3 percent, which 
leaves little room for modernization and reduces 
interoperability within the force.
    And the third is our full-time manning. Currently, only 76 
percent of the authorized requirements are filled, which 
jeopardize our ability to execute missions.

                           PREPARED STATEMENT

    Mr. Chairman, in closing, the Army Reserve is uniquely 
postured to support the Army and the Nation, but we can only 
maintain that capability when properly resourced. To sustain 
our current readiness levels, we need the committee's continued 
funding support.
    Mr. Chairman, I thank you and the committee, and I look 
forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Jeffrey W. Talley
                           executive summary
    The United States Army Reserve is the Army's flexible, tailorable, 
and accessible Warrior-Citizen Federal force that provides life-saving 
and life-sustaining capabilities to the Nation. For more than 14 
consecutive years of war, community-based Army Reserve Soldiers have 
brought skills honed in the civilian sector to contingency and Theater 
Security Cooperation missions across the globe. Today, as captured in 
Army Reserve at a Glance (http://www.usar.army.mil/ourstory), these 
same Citizen-Soldiers bring enhanced skills and significant economic 
impact to the regions, States, districts, and communities where they 
live and work.\1\ A communication outreach and resource tool, Army 
Reserve at a Glance informs internal and external audiences of the Army 
Reserve's history, current roles, missions, programs, and the unique 
capabilities inherently available in today's Army Reserve.
---------------------------------------------------------------------------
    \1\ Analysis of the 2014 Army Reserve Economic Impact by state was 
conducted by George Mason University's Center for Regional Analysis 
using data provided by the U.S. Department of Commerce, Bureau of 
Economic Analysis.
---------------------------------------------------------------------------
    Organized as the only component of the Army that is also a single 
command, the Army Reserve is integrated into and directly supports 
every Army Service Component Command (ASCC) and Combatant Command 
(CCMD), with a ``footprint'' that includes 50 States, five territories, 
the District of Columbia, and more than 30 countries. Our ``Plan, 
Prepare, Provide'' readiness and force generation model allows us to 
stay an operational and accessible force. The Plan portion of the model 
includes the regional alignment of Army Reserve Units to ASCCs and 
CCMDs. Part of this alignment includes the forward-stationing of full-
time staffing organized into Army Reserve Engagement Cells (ARECs) and 
Teams (ARETs). Prepare is how the Army Reserve trains its Soldiers, 
Leaders and Units as part of the Total Force. Provide is the actual 
deployment of dual-use Army Reserve Soldiers, Leaders and Units in 
support of requirements at home (Defense Support of Civil Authorities) 
and abroad.
    The Army Reserve represents most of the Army's critical military 
enabling capabilities (medical, logistical, transportation, full-
spectrum engineering, civil affairs, legal, and chemical). Our Citizen-
Soldiers stay sharp in these technical fields through the conduct of 
tough, realistic, mission-focused training and their employment in the 
private sector. The Army Reserve enhances these skills through its 
Private Public Partnership (P3) program. P3 fosters partnerships with 
for-profit, not-for-profit, and academic organizations to advance the 
training of Individuals, Leaders, and Units. In sum, everything we do 
is focused on improving and sustaining readiness.
    The 2015 Army Reserve Posture Statement outlines Army Reserve 
roles, commitments, accomplishments, challenges, and requirements to 
Congress. It also informs Congress of the resources and legislative 
authorities the Army Reserve needs to remain an operational reserve.
    Our specific concerns, as they appear in the document, include:
  --Maintaining the Army Reserve as an operational force;
  --Continuing to implement Army Total Force Policy;
  --Finding additional fiscal efficiencies;
  --Reducing or eliminating the negative effects imposed by 
        sequestration levels in the Budget Control Act;
  --Ensuring Army Reserve end-strength drops no lower than 195,000 
        Soldiers in 2017;
  --Preserve Army Reserve Active Guard and Reserve end-strength;
  --Improving Army Reserve readiness;
  --Preparing for future challenges (Force 2025 & Beyond, Army Reserve 
        2025 Vision and Strategy);
  --Ensuring equal representation from all three components on the Army 
        Commission;
  --Fully funding the Army Reserve to maintain its operational edge;
  --Receiving support for training man-days and Operational Tempo 
        (OPTEMPO) budget request;;
  --Supporting equipment modernization funding requests for unique 
        enabling capabilities resident in the Army Reserve;
  --Supporting the Army Reserve's base procurement budget and 
        sustainment, restoration, modernization (SRM) and base 
        operations (BASOPS) funding;
  --Maintaining the Army Reserve Network;
  --Support funding request for antiterrorism and physical security 
        efforts;
  --Fully implementing the Army Reserve Readiness model;
  --Expanding the Private, Public, Partnership program;
  --Maximizing the ``Soldier for Life'' program and the ``Continuum of 
        Service'' efforts;
  --Capitalizing on the redesigned Transition Assistance Program (TAP) 
        to seamlessly and successfully transition Army Reserve Soldiers 
        to civilian life;
  --Fully funding medical and dental readiness, suicide prevention, 
        sexual harassment assault and response prevention, and family 
        programs;
  --Fully staffing all Army Reserve Engagement Cells and Teams;
  --Continually improving Family programs, suicide prevention efforts, 
        and sexual assault prevention programs;
  --Strengthening the Army Reserve Ambassador (ARA) program;
  --Expanding our Cyber capabilities;
  --Focusing on our two critical roles--the operational Federal reserve 
        of the Army and a domestic emergency and disaster relief force 
        for the Nation;
  --Refining and improving our Defense Support of Civil Authorities and 
        Immediate Response Authority processes and procedures;
  --Developing new ways to capitalize on our highly educated force;
  --Increasing resiliency within the force;
  --Supporting the Army's effort to enable the Joint Force to ``Win in 
        a Complex World'';
  --Remaining the life-saving, life-sustaining Citizen-Soldier force 
        for the Nation.
    We thank you for this opportunity to testify before Congress. With 
the continued support of the President, Congress, the Army, and the 
American people, I am confident the Army Reserve will continue to do 
its part to help protect and defend the Nation at home and abroad, now 
and for the foreseeable future.
                              introduction
Consistent Engagement
    Consistently engaged since September 11, 2001, more than 280,000 
Army Reserve Soldiers have mobilized and seamlessly integrated into the 
Total Army and the Joint Force.\2\ A steady need for essential enabling 
capabilities and civilian skills the Army Reserve provides have 
resulted in an operational Army Reserve that is fundamental to the 
continued success of the Total Army and the Joint Force. Today, 
approximately 16,058 Soldiers serve in direct support of Army Service 
Component Commands (ASCC) and Combatant Commands (CCMD) across the 
globe, including nearly 2,600 Soldiers in Afghanistan, 3,000 in the 
United States, 2,200 in Kuwait, 1,100 in Cuba, 150 in Qatar, and 200 in 
Djibouti.\3\
---------------------------------------------------------------------------
    \2\ USARC G-3/5 via HQDA system ``MDIS'' Mobilization Deployment 
Information System, 17 October 2014. 280,631 since September 11, 2001. 
This number includes Soldiers at mobilization and demobilization sites, 
as well as those with Boots on Ground.
    \3\ USARC G-3/5, 8 January 2014. 16,058 AR Soldiers were on duty in 
support of ASCC/CCMDS, to include: 2,596 AR Soldiers in Afghanistan, 
2,923 in the United States, 2,138 in Kuwait, 1057 in Cuba, 143 in 
Qatar, and 174 in Djibouti. Again, this number includes Soldiers at 
mobilization and demobilization sites, as well as those with Boots on 
Ground.
---------------------------------------------------------------------------
Purposeful Design
    Purposefully designed to enable forces, the Army Reserve integrated 
seamlessly into the Total Force, providing trained, ready, and equipped 
Soldiers as well as cohesive Units to meet the Nation's requirements at 
home and abroad.\4\ In doing so, the Army Reserve fulfilled General 
Creighton Abrams' vision of a Total Army fighting as one operational 
force alongside our Joint and international partners with predictable 
and sustainable capabilities.\5\
---------------------------------------------------------------------------
    \4\ Coker, Kathryn Roe, The Indispensable Force: The Post-Cold War 
Operational Army Reserve, 19902010, Office of Army Reserve History, 
United States Army Reserve Command, Fort Bragg, North Carolina, p. 47-
55.
    \5\ Carafano, James Jay. Total Force Policy and the Abrams 
Doctrine: Unfulfilled Promise, Uncertain Future, Foreign Policy 
Research Institute, February 2005; database available online at: 
https://www.fpri.org. ``The Abrams Doctrine is widely interpreted as an 
expression of General Creighton Abrams' determination to maintain a 
clear linkage between the employment of the Army and the engagement of 
public support for military operations. Abrams, according to the 
doctrine, established this bond by creating a force structure that 
integrated Reserve and Active Components so closely as to make them 
inextricable, ensuring after Vietnam that presidents would never be 
able to again send the Army to war without the Reserves and the 
commitment of the American people.''
---------------------------------------------------------------------------
Proven, Cost-Effective Partner
    Today, the Army Reserve is a combat-tested and integral element of 
the most decisive and lethal land force in the world today. Whether 
performing combat missions and contingency operations, or saving lives 
and protecting property at home, our expeditionary formations continue 
to offer versatile, available, and effective capabilities to the Nation 
at reduced cost to the American taxpayer--a win for the Army and the 
Nation.
Fiscal Constraints
    Tight fiscal constraints imposed by sequestration levels in the 
Budget Control Act would make it difficult, if not impossible, for the 
Army Reserve to remain ready, responsive, and flexible enough to meet 
all of its requirements in support of the Nation's security needs.
End-Strength Reductions
    The 2015 National Defense Authorization Act (NDAA) sets the Army 
Reserve end-strength objective (ESO) at 202,000--a reduction of 3,000 
Soldiers from its previous end-strength objective of 205,000.\6\ The 
current Army Reserve end-strength is now 197,830--a shortage of 4,170 
Soldiers.\7\ The Army Reserve initiated Operation FULL COURT PRESS on 
July 11, 2014 to address this problem. Specifically, this initiative 
aims to increase accessions, reduce controllable Soldier losses (i.e., 
attrition), implement procedures to proactively expedite resolution of 
suspension of favorable actions, increase promotion to Sergeant and 
Staff Sergeant (historically critical rank shortages in the Army 
Reserve), and improve Soldier sponsorship and Soldier care. While still 
in its infancy, this effort has already borne fruit in non-prior 
service enlisted accessions and active component to reserve component 
enlisted and officer accessions.\8\ The Army Reserve continues to seek 
innovative solutions to meet our current ESO.
---------------------------------------------------------------------------
    \6\ 2014 National Defense Authorization Act.
    \7\ G1, Office of the Chief of the Army Reserve, 16 JAN 2015.
    \8\ Ibid. The AR experienced a net gain of 2,392 Soldiers during 
fiscal year 2015 (we ended fiscal year 2014 at 195,438).
---------------------------------------------------------------------------
    In the meantime, the Army Reserve concurs with the Army's positions 
on strategy, end-strength, and risk. For example, the Army asserts that 
the ``underlying assumptions of our defense strategy'' are being 
tested, and at projected force levels (Total Army end strength of 
980,000 Soldiers by fiscal year 2017), ``we are already on the edge of 
our ability to meet the current strategy and our capacity to respond to 
the unknown is now in question.'' \9\ ESO reductions below those set 
forth in the President's Budget will decrease operational flexibility 
and increase risk to unacceptable levels.\10\
---------------------------------------------------------------------------
    \9\ Final Coordinating Draft (FCD), 2015 Army Posture Statement, 
Executive Summary, 15 JAN 2015.
    \10\ Ibid, p.1.
---------------------------------------------------------------------------
    Only time will validate or invalidate the Army's assumptions. In 
the meantime, it is safe to say that the world we face today has become 
increasingly volatile and dangerously unpredictable. Even as the U.S. 
winds down its presence in Afghanistan, the Army finds itself returning 
to Iraq and the broader Middle East to confront emerging challenges. 
The Islamic State of Iraq and the Levant threatens the security and 
stability of Iraq, Syria, and the entire Middle East. Continued 
regional instability, violent extremism, the proliferation of weapons 
of mass destruction, and other factors foreshadow a complex global 
security environment.
    Given increasing global instability, we strongly agree with the 
Army's recommendation to not let Army Reserve ESO drop lower than 
195,000 Soldiers. If sequestration-level funding is implemented in 
fiscal year 2016, the Army Reserve ESO will drop to 195,000 Soldiers by 
fiscal year 2017 before bottoming out at 185,000 Soldiers in fiscal 
year 2019.\11\ Reducing the Army Reserve below 195,000 Soldiers 
increases risk and threatens our ability to meet our mission--to 
provide trained, equipped, and ready Soldiers and cohesive units to 
meet the Nation's requirements, at home and abroad.
---------------------------------------------------------------------------
    \11\ Department of Defense Authorization of Appropriations for 
fiscal year 2015 and the Future Years Defense Program, APRIL 8, 2014, 
U.S. Senate, Committee on Armed Services, Washington, DC. Opening 
Statement of Senator Carl Levin, Chairman.
---------------------------------------------------------------------------
    Maintaining Army Reserve end-strength at 195,000 Soldiers is 
crucial for a number of additional reasons. First, as the Army reduces 
in size, the need for Army Reserve enabling capabilities to support 
contingency operations will increase. An increased demand for Army 
Reserve capabilities will challenge our ability to sustain an 
operational reserve by putting greater strain on existing rotational 
forces. Second, reductions in uniformed personnel in the Army Reserve 
degrade our ability to meet the requirements of ASCCs and CCMDs for 
technical enabling capabilities at a time when the demand for Army 
Reserve enabling capabilities is increasing. The Army Reserve was 
initially tasked with providing 14 units consisting of approximately 
900 Soldiers to support the first rotation of Operation UNITED 
ASSISTANCE--the Ebola relief mission in Western Africa.\12\ While only 
two Army Reserve Units and several individual Army Reserve Soldiers (a 
total of 19 Soldiers) mobilized for OUA, un-forecast requirements like 
this one exemplify this point. Third, while by no means the solution to 
resolving critical shortages in the Army Reserve ranks (Sergeant to 
Sergeant First Class, Captains, and Majors) Army Reserve end-strength 
reductions eliminate some of the Army Reserve's capacity to absorb 
Soldiers separated from the active component into its ranks--a loss for 
all concerned.\13\ Allowing an ESO of 185,000 Soldiers to take effect 
only exacerbates each of these concerns.
---------------------------------------------------------------------------
    \12\ Office, Chief of the Army Reserve (FWD), G-3/5/7.
    \13\ Caolionn O'Connell, Jennie W. Wenger, Michael L. Hansen, 
Measuring and Retaining the U.S. Army's Deployment Experience, Rand 
Corporation, 2014, p. 1.
---------------------------------------------------------------------------
    In addition to these uniformed end-strength reductions, the Army 
Reserve must take similar reductions to its Full Time Support (FTS) 
that consists of our Military Technicians (MILTECHs) and Department of 
the Army Civilians (DACs) (approximately 11 percent).\14\ From fiscal 
year 2015 to fiscal year 2016, our civilian FTS personnel will reduce 
from 11,590 to 10,761 across the board. MILTECHs and DACs play vital 
roles in the Army Reserve. MILTECHs perform multiple, critically 
important administrative, training, and logistical functions in Army 
Reserve units that directly impact readiness.\15\ DACs are an 
``integral part of [the] United States Army and support all facets of 
the Army mission which frees Soldiers to perform innately military 
functions.'' \16\ DACs also ``possess critical skills which assure 
continuity of operations for all components.'' \17\
---------------------------------------------------------------------------
    \14\ 2015 Army Reserve Component Submission to Congress: An 
Addendum to the Army Posture Statement. There is disagreement among the 
three components how to define FTS. The USAR definition includes AGRs, 
MILTECHS, DACs and Title XI Soldiers (AC/RC) as part of FTS. Army PA&E 
and the Army National Guard only include AGRs and MILTECHs. The 11 
percent reduction reflects the USAR method of FTS computation. If the 
Army and ARNG method were used for FTS (only AGRs and MILTECHS), the 
Army Reserve's FTS reduction would be 2 percent (25,251 (16,261 AGRs + 
8,990 MILTECHs)--500 positions = 24,751).'' There were no changes to 
Title XI (76) or AGR (16,261) authorizations in the Army Reserve for 
fiscal year 2015.
    \15\ U.S. CODE Sec. 10216--MILITARY TECHNICIANS (DUAL STATUS). A 
MILTECH ``is assigned to a civilian position as a technician in the 
organizing, administering, instructing, or training of the Selected 
Reserve or in the maintenance and repair of supplies or equipment 
issued to the Selected Reserve or the armed forces.''
    \16\ The Official Homepage of United States Army Civilian 
Personnel. Database available online at: http://cpol.army.mil.
    \17\ Ibid.
---------------------------------------------------------------------------
Readiness
    Maintaining readiness in the Army Reserve is a unique challenge. 
The number of Army Reserve Soldiers considered non-deployable is one 
factor negatively impacting readiness. In fiscal year 2014, the USAR 
had 44,507 Soldiers considered non-available for reasons outlined in 
Army Regulation 220-1, Unit Status Reporting (e.g., initial entry 
training, medical issues, medical non-availability, pending 
administrative or legal discharge, separation, officer transition, non-
participation, or restrictions on the use or possession of weapons and 
ammunition under the Lautenberg Amendment).\18\ 10,575 of these non-
available Soldiers were Unsatisfactory Participants (UNSATS).\19\ 
UNSATs, for a variety of reasons, are Soldiers that are not actively 
participating in Army Reserve Units or activities, as required. To 
continue providing responsive support to the Army and the Joint Force, 
the Army Reserve must focus all of its efforts on decreasing the number 
of non-available Soldiers in its formations.\20\ We are doing this in a 
variety of ways.
---------------------------------------------------------------------------
    \18\ 2014 Army Reserve Component Submission to Congress, p. 5. 
``Sections 517 and 521 of the National Defense Authorization Act (NDAA) 
1994 require the information presented in this submission. ``
    \19\ G1, USARC, November, 2014. For that reporting period, this 
equates to 5.98 percent of the AR's current assigned strength of 
176,987.
    \20\ Carafano, Total Force Policy and the Abrams Doctrine, Foreign 
Policy Research Institute, February 2005; database available online at: 
https://www.fpri.org. ``Whether Abrams actually intended to father a 
doctrine or if his efforts created a unique extra-Constitutional 
constraint on presidential power is open to debate. The Army rooted its 
force structure policies in the Total Force Concept initiated by 
Secretary of Defense Melvin Laird. Attempting to address the imbalance 
between budgets and strategy, Laird saw the Total Force as a means to 
provide sufficient troops for the Nation's security needs without the 
costly burden of maintaining a large standing-army. Furthermore, while 
Laird's new defense policies and Abrams' initiatives proved adequate 
for maintaining a large standing-force, they were never equal to the 
task of sustaining readiness and modernization and, in fact, 
implementing the Total Force Concept contributed to chronic 
unpreparedness in the Army's Reserve Components.''
---------------------------------------------------------------------------
    For example, the Army Reserve is working hard to recover 
Unsatisfactory Participants and maintain an UNSAT rate of less than 5 
percent (10,100 Soldiers based on the fiscal year 2015 NDAA AR ESO of 
202,000). To do so, the Army Reserve Personnel Department (G1) 
developed a system to track UNSATs and update the Deputy Commanding 
General monthly on the progress of the recovery effort. The tracking 
system allows Army Reserve senior leaders to monitor major subordinate 
commands (MSCs) progress and MSC Commanders to gauge their subordinate 
Commanders progress as well. Additionally, the Army Reserve mandated 
that all requests for duty in the Individual Ready Reserve (IRR) and 
involuntary reassignment by a soldier not satisfactorily participating 
in the Army Reserve must now include a memorandum from an O-5 or above 
documenting all attempts made to recover the Soldier. The request will 
not be processed without this additional memorandum. This action 
ensures the unit has done everything possible to recover the Soldier 
before they are discharged or transferred to the IRR. While these 
efforts to improve readiness can be made with no additional resources 
or additional legislative authorities, improvements to Soldier health, 
operational activities, and equipment acquisition and modernization do 
carry a cost. The Army Reserve must be appropriately funded and fully 
authorized to maintain its operational edge or it could revert to a 
strategic force.
Maintaining End-strength and Readiness
    Maintaining end-strength and readiness are not simple tasks. They 
are, in fact, extremely complex problems, with many factors at many 
levels affecting both equations. While the Army Reserve acknowledges 
its responsibility for maintaining its end-strength objective and 
ensuring the overall readiness of the Soldiers in its formations, and 
is taking steps to address both of these issues, sequestration-level 
funding would compromise our ability to maintain readiness. If the Army 
Reserve is not properly resourced at the President's Budget levels, the 
overall risk could significantly increase and negatively impact our 
ability to quickly provide needed technical capabilities to the Total 
Army and the Joint Force.
Force 2025 & Beyond
    To prepare for future challenges, the Army Reserve fully supports 
and seeks to participate in Total Army efforts for balancing force 
structure and readiness, while modernizing the Total Army as part of 
Force 2025 and Beyond--a strategic objective of mine. To support the 
Army's efforts to rebalance and modernize the Total Army, I recently 
approved a Terms of Reference (TOR) that will guide our participation 
in Force 2025 and Beyond. This document, along with the Army Operating 
Concept, will aid in the development of the Army Reserve 2025 Vision 
and Strategy.
National Commission on the Future of the Army
    The 2015 National Defense Authorization Act established the 
National Commission on the Future of the Army (NCFA).\21\ The 
Commission is charged with two duties. The first duty is to complete a 
comprehensive study of Army structure, and policy assumptions related 
to the size and force mixture of the Army.\22\ The second duty is to 
study the transfer of certain aircraft (AH-64 Apache Helicopters) from 
the Army National Guard to the regular Army.\23\ The product of the 
first duty will enable the Commission to make ``an assessment of the 
size and force mixture of the active component of the Army and the 
reserve components of the Army . . . and make recommendations on the 
modifications, if any, of the structure of the Army related to current 
and anticipated mission requirements for the Army at acceptable levels 
of national risk and in a manner consistent with available resources 
and anticipated future resources.'' \24\
---------------------------------------------------------------------------
    \21\ The Carl Levin and Howard P. `Buck' McKeon National Defense 
Authorization Act for fiscal year 2015, TITLE XVII--NATIONAL COMMISSION 
ON THE FUTURE OF THE ARMY, p. 944, Rules Committee Print 113--58, House 
Amendment to the Text of S. 1847. Database available online at: http://
armedservices.house.gov.
    \22\ Ibid, p. 947-948.
    \23\ Ibid, p. 950-951.
    \24\ Ibid, p. 948.
---------------------------------------------------------------------------
    To accomplish these duties, the NDAA states that the Commission 
requires certain expertise.\25\ Specifically, it calls for 
consideration [for membership] to be given to ``individuals with 
expertise in national and international security policy and strategy, 
military forces capability, force structure design, organization, and 
employment, and reserve forces policy'' when making appointments to the 
commission.\26\ To produce the best result for the Nation every effort 
must be made to ensure sufficient subject matter expertise from all 
three components are resident on the NCFA.\27\
---------------------------------------------------------------------------
    \25\ Ibid, p. 946.
    \26\ Ibid, p. 946-947.
    \27\ National Commission on the Structure of the Air Force, Report 
to the President and Congress of the United States, January 30, 2014.
---------------------------------------------------------------------------
    We see the Commission as a strategic opportunity to do the 
following:
  --Communicate a winning vision for the future of the Army in the face 
        of complex fiscal constraints and an uncertain global security 
        environment.
  --Explain the importance of all three components' capabilities that 
        support the Total Army and Joint Force.
  --Outline a way ahead for developing, planning, programming, and 
        resourcing the Army of the future.
          significant army reserve challenges and requirements
Training Requirements
    The Army's decision to increase the duration of their Combat 
Training Center rotations by 4 days to train Decisive Action tasks 
places a strain on the Army Reserve's ability to produce ready 
units.\28\ Army Total Force Policy (ATFP) was not a resource decision. 
Many new training events the Army Reserve is integrating into are 
longer than the traditional period of Annual Training--14 days plus 1 
day travel. To meet ATFP and Total Army Training Integration (TATI) 
goals, the Army Reserve must sacrifice readiness in lower-tiered units.
---------------------------------------------------------------------------
    \28\ 2015 Army Posture Statement Initial Draft, 25 1300 November 
2014, p. 11.
---------------------------------------------------------------------------
Equipping
    Despite gaining some improvements in Army Reserve equipping,\29\ 
budget reductions under sequestration will further widen modernization 
gaps within unique enabling capabilities that are resident primarily in 
the Army Reserve.\30\
---------------------------------------------------------------------------
    \29\ U.S. Army Reserve Command. During fiscal year 2014, the Army 
Reserve equipment on-hand posture improved from 86 percent in fiscal 
year 2013 to 87 percent in fiscal year 2014 with equipment considered 
modern improving from 66 percent in fiscal year 2013 to 76 percent in 
fiscal year 2014. During fiscal year 2014, we received $957 million in 
new equipment and divested obsolete equipment valued at $427 million. 
The equipment on-hand posture for Critical Dual Use items to support 
Homeland Defense (HD) and Defense Support of Civil Authorities (DSCA) 
currently stands at 89 percent filled (no change from fiscal year 
2013).
    \30\ Fiscal Year 2015 National Guard and Reserve Equipment Report 
(NGRER).
---------------------------------------------------------------------------
    The Army Reserve provides 92 percent of the bulk petroleum assets 
to the Joint Force in a non-permissive environment and enables the Army 
to fulfill duties as the executive agent for theater petroleum 
distribution. Retaining un-modernized, legacy petroleum platforms 
without a longterm investment strategy is an example of an ``at-risk'' 
capability which potentially widens interoperability gaps between the 
Army Reserve and the Total Army and Joint Force. This equipment 
includes: fuel tankers, fuel system supply points, storage, and 
tactical pipelines, many of which are approaching or exceeding their 
economic useful life without a bridging strategy for modernization.
    The Army Reserve has 45 percent of the Total Army inventory of 
Echelons Above Brigade bridging assets, including 51 percent of the 
Army's Assault Bridge capability. The Joint Assault Bridge is projected 
to replace the Armored Vehicle Launched Bridge, which currently 
averages 38 years of age, by fiscal year 2027. This is another at-risk 
capability for interoperability with the Total Army and Joint Force.
    The Light Tactical Vehicle fleet is another example of risk to 
interoperability with the Total Army and Joint Force. The High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) will remain in the Army Reserve 
inventory indefinitely without scheduled modernization. The Army 
Reserve will not start fielding the Joint Light Tactical Vehicle (JLTV) 
until fiscal year 2022, and Army Reserve Units will not complete 
fielding the JLTV until fiscal year 2038.\31\ The JLTV will close a 
capability gap between the HMMWV and the Mine Resistant Ambush 
Protected (MRAP) family of vehicles.\32\
---------------------------------------------------------------------------
    \31\ Long-Range Investment Requirements Analysis (LIRA) illustrated 
HMMWV fleet modernization. JLTV does not completely replace the HMMWV 
(only about 60 percent); there will still be a mix (UAH/MRAP/JLTV).
    \32\ HQDA G-8, Army Equipment Program in Support of President's 
Budget, May 2014.
---------------------------------------------------------------------------
    Equipment fielded to these formations must be the most modern to 
achieve interoperability for critical capabilities supporting the Total 
Army and Joint Force. The Army Reserve continues to operate with 
equipment shortfalls, and is the least equipped and modernized Army 
component. We appreciate the concern Congress has expressed over the 
fielding and modernization of Army Reserve equipment. If left 
unchecked, however, program procurement delays and the restructuring of 
requirements as a result of budget reductions will further widen 
modernization gaps and impede our interoperability with the Joint 
Force.
Equipment Procurement Funding
    New procurement funding for the Army Reserve represented 4.9 
percent of the Army's base procurement budget in fiscal year 2015; 
however, in fiscal year 2016 it represents less than 3 percent of the 
Army's base procurement budget. As a result, the Army Reserve 
consistently trails the Total Army in modernization and equipment on-
hand, thus creating compatibility risk.\33\ The presence of 
incompatible equipment in Army Reserve formations reduces the Army 
Reserve's ability to work shoulder to shoulder with other Army 
components to provide needed capabilities to the Army and the Nation.
---------------------------------------------------------------------------
    \33\ Calculated by using the base P-1 and P-1R data across the 
three components.
---------------------------------------------------------------------------
Base Realignment and Closure (BRAC)
    The Army Reserve would benefit from another round of Base 
Realignment and Closure (BRAC). Another BRAC would advance our efforts 
to consolidate units into new, state-of-the-art facilities that support 
or improve operational readiness rates, recruiting, and retention.
Army Reserve Network
    The Army Reserve Network provides institutional service 
capabilities for the entire command and hosts nearly every business 
process required to operate.\34\ It provides geographically dispersed 
leaders timely information to make informed decisions in order to 
exercise Mission Command of USAR Soldiers and Units dispersed between 
more than 1,100 Reserve Centers.\35\ The Army Reserve Network is 
reliable, secure, standards based and agile. It provides access to the 
point of need. The Army Reserve Network is mandated by public law and 
is responsible for ensuring that the Army Reserve continues to provide 
enhanced capabilities to support the Total Army and the Joint Force in 
an era of fiscal uncertainty.
---------------------------------------------------------------------------
    \34\ AR 25-1 (Chapter 2, Roles and Responsibilities) describes the 
Office, Chief of the Army Reserve responsibilities for the AR network. 
The AR Net is a separate logical network. This means that it shares or 
runs on commercial transport. The AR was the first to do this, the NG 
followed a year later and the AC is currently undergoing transformation 
to follow suit.
    \35\ Army Reserve Installation Management Directorate (ARIMD). 
Although the number changes monthly as new centers are built and old 
ones are disposed of, the Army Reserve currently has a presence in 1042 
centers worldwide. The Army Reserve owns 942 Reserve Centers, and are 
tenants in 150 more (owned by Army, Army National Guard, U.S. Navy 
Reserve, U.S. Air Force Reserve, and the U.S. Air Force National 
Guard). Additionally, the USAR owns three Installations: Fort Buchanan, 
PR, Fort McCoy, WI, and Fort Hunter Liggett, CA, and two Reserve Forces 
Training Areas: Camp Parks, CA, and Fort Devens, MA. The USAR does not 
own Fort Dix, as it is a sub installation of Joint Base McGuire/Dix/
Lakehurst and is totally owned by the Air Force.
---------------------------------------------------------------------------
Force Protection
    Current funding levels for Antiterrorism and Physical Security 
increases risk to the Army Reserve Protection Program (ARPP) and may 
jeopardize the broader Army Reserve mission. The ARPP is designed to 
protect people, information, property and facilities, in all locations 
and situations. ARPP policy and standards guide off-installation units 
and facilities toward improved protection while enhancing efforts to 
prevent or mitigate threats. It is designed to fill a niche where Army 
Reserve facilities, personnel, and information are primarily located 
off the installation and are inextricably linked with the civilian 
community. Critical Army Reserve Units, representing significant 
percentages of important capabilities for the Total Army, are more 
vulnerable from a host of threats because of their location off 
military installations. Protecting stand-alone units against 
unpredictable terrorist or criminal attack presents complex challenges. 
In most cases it requires thoughtful action beyond prescriptive 
instruction. ARPP Leaders continue to refine policy, procedure, and 
guidance for subordinate organizations and to develop courses of action 
for mitigating the detrimental effects of our budget-constrained 
environment. The Army Reserve is committed to implementing effective 
measures to deter, detect, prevent, defeat, and mitigate threats, and 
our leaders strive to identify and provide enhancements in operational 
procedures or programmatic resourcing to protect the Soldiers, 
Civilians and Family Members of the Army Reserve. Force Protection 
funding levels introduce risk for the protection of assets by 
challenging the Army Reserve's ability to protect its personnel and 
equipment against criminal, insider, and terrorist threats.
Army Reserve Way Ahead--Focus on Improving Readiness
    The Army's role as the most highly trained and professional land 
force in the world is to defend the United States and its interests at 
home and abroad by providing expeditionary and decisive land power to 
the Joint Force and the Combatant Commands (CCMD). It does this through 
a concept known as Prevent, Shape and Win: Prevent conflict--with a 
credible force with sufficient capacity, readiness, and modernization; 
Shape the international environment--to enable friends and contain 
enemies; and be ready to Win decisively and dominantly--so as not to 
pay the price in American lives.\36\
---------------------------------------------------------------------------
    \36\ Army website, article by CSA ``Prevent, Shape, Win,'' December 
12, 2011.
---------------------------------------------------------------------------
    Recently, the Army published a new operational concept--Win in a 
Complex World--that articulates Army Reserve capabilities that support 
Total Force requirements. Consistent with United States Government, and 
Department of Defense (DOD) policy, and Joint Doctrine, it adds three 
core competencies that the Army Reserve is uniquely postured to 
support: shaping the security environment, setting the theater, and 
enabling cyber operations.\37\
---------------------------------------------------------------------------
    \37\ TRADOC Pamphlet 525-3-1, The U.S. Army Operating Concept, Win 
in a Complex World, 2020-2040, 7 Oct 2014, p. vi.
---------------------------------------------------------------------------
    To support both concepts, the Army Reserve will do four things: 
work diligently to improve its readiness posture; remain engaged in 
operational activities; continue to improve our equipment acquisition 
and modernization levels; and increase our cyber capabilities.
Readiness Posture
    The Army Reserve will focus on improving readiness through four 
related lines of effort: ``Plan, Prepare, Provide,'' ``Private Public 
Partnership (P3),'' ``Continuum of Service,'' and continued 
improvements to the health of the force.
Army Reserve Readiness Model: Plan, Prepare, Provide (PPP)
    Our ``Plan, Prepare, Provide'' readiness model allows the Army 
Reserve to remain an operational force.
    ``Plan'' refers to the regional alignment of Army Reserve forces 
with ASCCs and Geographic CCMDs. Part of this alignment includes the 
forward positioning of staff organized into Army Reserve Engagement 
Cells (ARECs) and Teams (ARETs).
    ``Prepare'' is how the Army Reserve trains its Soldiers, Leaders, 
and Units as part of the Total Force. Utilizing a progressive approach, 
Army Reserve Soldiers and Units participate in individual and leader 
development events culminating in collective unit training exercises. 
The result is trained and accessible units ready to meet ASCC and CCMD 
mission requirements.
    ``Provide'' is the actual deployment of Army Reserve Soldiers, 
Leaders, and Units in support of requirements at home (Defense Support 
of Civil Authorities) and abroad.
    First implemented in support of the U.S. Army Pacific, PPP has 
proven effective, and is gaining traction elsewhere.\38\ It ensures the 
Army Reserve is able to provide trained and ready forces for ASCCs, 
CCDMs, and the Total Force when needed across the range of 
conflict.\39\ This is particularly true in the case of Operation United 
Assistance, the mission to coordinate logistics, training and 
engineering support to the U.S. Agency for International Development 
(USAID) to help contain the spread of the Ebola virus in West Africa, 
where access to clean water is critical.\40\ Although not needed for 
the U.S. Government response, the Army Reserve was prepared to support 
this effort by providing significant water treatment and water 
purification capabilities to the African continent.
---------------------------------------------------------------------------
    \38\ General Vincent Brooks, Regional Alignment of Forces Panel, 
AUSA Annual Conference, 15 October 2014.
    \39\ Joint Publication 3-0, Joint Operations, 11 August 2011, p. I-
5.
    \40\ Dynamics and Control of Ebola Virus Transmission in 
Montserrado, Liberia a Mathematical Modeling Analysis, The Lancet 
Infectious Diseases.
---------------------------------------------------------------------------
Private, Public Partnership (P3)
    Private, Public Partnership (P3) is an effort that combines private 
sector capabilities with U.S. Code Title 10 training and the Army 
Training Strategy to enhance individual, leader, and unit readiness in 
the Army Reserve.\41\ This collaboration is conducted at little or no 
cost to the taxpayer. P3 provides the private sector with the highly 
skilled and educated employees that businesses need to succeed in a 
competitive marketplace in return for opportunities that enhance the 
skills of our Soldiers and the operational readiness of the Army 
Reserve. It does this by merging the best of Army training with 
civilian professional development to expand the skills and core 
competencies of Soldiers at the military and civilian level. This 
includes identifying and coordinating opportunities to support military 
missions as well as professional and personal development. It then puts 
those skills to work executing real world missions that not only 
advance the goals of partner organizations but support the strategic 
and operational role of the Army Reserve.
---------------------------------------------------------------------------
    \41\ In response to a comparatively high unemployment rate among 
Army Reserve Soldiers, the Army Reserve established the Employer 
Partnership Office (EPO) in 2008. The EPO leverages mutually beneficial 
relationships between civilian and military communities with a focus on 
developing career and training opportunities for Soldiers, Veterans, 
and Family members. That success benefits the Total Force by serving as 
the model for the DOD-sponsored Hero 2 Hired program. The EPO evolved 
into the Private Public Partnership Office, or P3O, which now provides 
a one-stop clearing house for private sector and non-DOD organizations 
interested in collaborating in mutually beneficial efforts that 
strengthen individual, leader, and unit readiness.
---------------------------------------------------------------------------
    For example, Army Reserve Public Affairs Specialists improved their 
Individual readiness by completing paid internships with the Major 
League Baseball (MLB) Network. One of the three Soldiers selected for 
this opportunity later secured full-time employment with Columbia 
Broadcasting Service (CBS), while another is working for the broadcast 
industry in his hometown. The third iteration of this successful 
program is now underway. To enhance individual physical readiness, the 
Army Reserve partnered with world-renowned fitness trainer Tony Horton 
to develop targeted training videos to provide comprehensive fitness 
examples for Soldiers.
    To improve Leader readiness, P3 is focused on partnerships with 
organizations that assist with credentialing, training, and mentoring 
opportunities that benefit civilian and military professionals.
    In an effort to facilitate Unit readiness, P3 is partnering with 
private and public entities whose goals are to increase the quality of 
life in partner Nations through support of humanitarian and 
environmental improvement projects. The Army Reserve will participate 
in these projects through training missions that directly support ASCC 
and CCMD requirements. For example, in the Independent State of Samoa, 
the Army Reserve is working with two not-for-profit organizations--
CitiHope and MedShare--to provide medical equipment, supplies and 
medication for the Faleolo Clinic as well as Army Reserve medical units 
to help train Samoans on how to use the equipment. The effort will not 
only operationalize the clinic, originally built by U.S. Pacific 
Command and increase medical capacity on the island, but strengthen 
U.S. relations with Samoa and New Zealand.
    So, as you can see from just these few examples, P3 not only 
provides the highly skilled and educated employees business need to 
succeed in a competitive marketplace; and enhances the readiness of our 
forces at no additional cost to the taxpayers, but it unites and 
mobilizes the best of U.S. expertise, resources and ingenuity to 
address difficult world challenges.
Continuum of Service
    The Army Reserve, in coordination with the Army, seeks to preserve 
the experience resident in the active component by retaining the best 
of their transitioning pool of Soldiers through the ``Continuum of 
Service'' program. While promoting a continuum of service makes good 
business sense, it also supports the Chief of Staff of the Army's 
recent guidance to leverage the unique attributes and responsibilities 
of each component. These initiatives preserve the operational 
experience gained from more than 14 years of war while continuing to 
prepare Soldiers and Units to meet the future needs of the Nation.
    The Army Reserve provides the Nation an opportunity to capitalize 
on military members who truly are Soldiers for Life. Our Soldiers 
continue to maintain their military skills while they are part of the 
fabric of their communities across the Nation. As Soldiers transition 
from the active Army to the Army Reserve, we provide an opportunity to 
help them start a civilian career and continue in a part-time military 
status, allowing the Nation to retain the valuable service of these 
Soldiers.
    In the same vein, as Army Reserve Soldiers move on and off orders, 
the Army Reserve is taking full advantage of the redesigned Transition 
Assistance Program (TAP) for those Army Reservists who meet the 
eligibility criteria (180 continuous days or more on active duty under 
title 10, U.S. Code).\42\ Like their Active Component counterparts, 
Army Reserve Soldiers must meet the Career Readiness Standards (CRS) 
prior to release from active duty.\43\ Our eligible Reservists are 
fully engaged in attending and participating in the Transition Goals, 
Plans, and Success (GPS) curricula--a key element of the redesigned 
TAP.
---------------------------------------------------------------------------
    \42\ TAP provides information and training to ensure these eligible 
Reservists, returning from active duty to their Reserve Component 
Units, are prepared for reintegration to civilian life. Opportunities 
include pursuing additional education, returning to civilian 
employment, looking for career opportunities in the public or private 
sector, or starting their own business.
    \43\ CRS are a set of common and specific activities and associated 
current deliverables (documentation within the last 12 months) that 
must be achieved to demonstrate Service members are prepared to 
transition effectively and pursue their personal goals. For example, 
they must complete a 12-month post-separation budget or, if they plan 
on pursuing a degree, they must show a completed application to an 
institution of higher learning or letter of acceptance.
---------------------------------------------------------------------------
Health of the Force: Medical/Dental Readiness
    The health of the force is inextricably linked to Soldier 
readiness. Enhanced medical and dental readiness across the force 
maintains the overall readiness of Army Reserve Units. Deployable 
Soldiers are the centerpiece of our formations; the task of ensuring 
their medical and dental qualifications to deploy is essential to 
maintaining that readiness. The Army Reserve achieved historically high 
levels of medical readiness in 2014, but much work remains to be 
done.\44\ While multiple initiatives are responsible for these 
improvements, we continue to make strides toward reducing the number of 
medical/dental non-deployable personnel within our ranks through two 
important initiatives: the Army Reserve Medical Management Center (AR-
MMC) and the Army Selected Reserve Dental Readiness System (ASDRS).\45\
---------------------------------------------------------------------------
    \44\ Surgeon, OCAR. The number of medically non-deployable Soldiers 
in the Army Reserve decreased from nearly 40,000 (>20 percent of the 
force) in March 2012 to approximately 17,000 (<10 percent of the force) 
in September 2014. The Army Reserve goal for medical non-deployable 
Soldiers is < 5 percent of the force (10,100 of the 202K end strength).
    \45\ Surgeon, OCAR. Implementing a requirement for annual medical 
and dental assessments in 2008 improved our ability to adequately 
determine the medical and dental readiness of the force. Additional 
initiatives include; Decrease Non-compliance (reduce medical 
indeterminate), Improve Dental Readiness, Reduce Medical Non-
Deployable, Reduce Medical Readiness Turbulence, and Improve Medical 
Readiness Reporting (Visibility).
---------------------------------------------------------------------------
    The AR-MMC provides case management for Soldiers with medically 
non-deployable conditions until their condition is resolved or the 
Soldier reaches their Medical Retention Decision Point (MRDP). If the 
Soldier reaches their MRDP, the Army Reserve, AR-MMC, and Army Medical 
Command work together to provide improved processes for those Army 
Reserve Soldiers requiring entry into the Integrated Disability 
Evaluation System (IDES). Providing direct case management for Soldiers 
with profiles and an improved pre-IDES process has resulted in a nearly 
25 percent reduction in the number of permanent profiles in the Army 
Reserve over the past 12 months.
    The ASDRS continues to ensure dental treatment for Soldiers whose 
dental conditions make them non-deployable. Since ASDRS implementation 
began in September 2008, dental readiness has increased overall from 50 
to 89 percent. Currently, less than 5 percent of the Army Reserve is 
non-deployable due to a dental condition.\46\ If medical and dental 
readiness remains fully funded, we are on track to achieve our medical 
readiness goal of 85 percent in the current budget and program years.
---------------------------------------------------------------------------
    \46\ Surgeon, OCAR. The Army Reserve goal for dental non-deployable 
is < 3 percent of the force (6,060 of the 202K end strength).
---------------------------------------------------------------------------
Suicide Prevention
    Sadly, other health-related concerns are not as easy to address as 
medical and dental issues. Many Soldiers continue to face life 
challenges and need our help. We are committed to providing the best 
resources and training available to assist our community-based 
Soldiers, Civilians, and their Families in times of financial, 
spiritual, physical, or personal stress. We have many programs to 
support the resilience of Soldiers, but our most pressing concerns are 
focused on preventing the tragedy of suicide and eradicating the 
scourge of sexual assault and harassment.\47\
---------------------------------------------------------------------------
    \47\ G1, United States Army Reserve Command, 13 JAN 15. The Army 
Reserve averaged 45.66 suicides a year (274 total) from CY 2009 (35) to 
CY 2014 (40; 35 confirmed, 5 under investigation)--(CY 2010--49; CY 
2011--42; CY 2012--50; CY 2013--57 and 1 Civilian employee). To date 
(CY 2015), the Army Reserve has suffered no suicides.
---------------------------------------------------------------------------
    While there is no universal set of factors leading to a suicidal 
event, the detailed analyses of Army Reserve 15-6 investigations of 
suicidal events have helped us identify some important trends. For 
example, many Soldiers who commit suicide are male, single, junior-
enlisted Soldiers that have not mobilized, are unemployed, and are 
suffering from relationship and financial challenges. This effort 
helped inform the development of five best practices to combat the 
issue of suicide within our ranks. First, we mandate personal contact 
with Soldiers and Family members between Battle Assemblies. This is a 
particular challenge for a geographically dispersed force that requires 
creative solutions to overcome. Second, we are trying to establish 
enduring cultural change, systems, and processes that integrate 
resilience into our Soldiers and Families. Third, we emphasize 
attention to ``newly'' assigned Soldiers to ensure their transition is 
a positive one. Fourth, we promote and advertise local resources (e.g., 
Fort Family) that help address the issue. Finally, we encourage public, 
command recognition of Soldiers who intervene and take action to 
prevent a suicide and help a Soldier or a Family member (e.g., the 
``Promoting Life'' Awards Program).
    As we continue to struggle with the tragedy of suicide in our 
ranks, we are emphasizing vigilance through proactive prevention and 
intervention training.\48\ For example, Army Reserve initiatives to 
prevent the tragedy of suicide include: Ask, Care, Escort Suicide 
Intervention Training (ACE-SI) for Unit Junior Leaders and First-Line 
Supervisors; Applied Suicide Intervention Skills Training for Trainers 
(ASIST T4T) for Unit first responders and ASIST T2 (2-day training) for 
Gatekeepers; a Leader Guide and Battle Buddy Computer Application; and 
additional education and awareness at Pre-Command Courses.
---------------------------------------------------------------------------
    \48\ G1, United States Army Reserve Command. For example, Army 
Reserve initiatives to prevent the tragedy of suicide include: Ask, 
Care, Escort Suicide Intervention Training (ACE-SI) for Unit Junior 
Leaders and First-Line Supervisors; Applied Suicide Intervention Skills 
Training for Trainers (ASIST T4T) for Unit first responders and ASIST 
T2 (2 day training) for Gatekeepers; a Leader Guide & Battle Buddy 
Computer Application; and additional education and awareness at Pre-
Command Courses.
---------------------------------------------------------------------------
    As a geographically dispersed force, we have less frequent physical 
contact and limited access to military installation support. Therefore, 
we have placed 36 Suicide Prevention Program Managers (SPPMS) positions 
and increased access to counselors and resources across our formations, 
with an emphasis on reducing the stigma associated with personal, 
Family, or behavioral health issues. To date, we have hired 26 of these 
36 suicide prevention program managers--a good news story.\49\
---------------------------------------------------------------------------
    \49\ G1, United States Army Reserve Command. Vacant Positions exist 
in 10 commands: the 377th Theater Support Command (TSC), 416 Theater 
Engineer Command (TEC), 310th Expeditionary Sustainment Command (ESC), 
79th Sustainment Support Command (SSC), 95th Training Command, 80th 
Training Command, the 316th Expeditionary Sustainment Command (ESC), 
the 310th Expeditionary Sustainment Command (ESC), the 88th Regional 
Support Command (RSC), the 1st Mission Support Command (MSC), and the 
364th Expeditionary Sustainment Command (ESC).
---------------------------------------------------------------------------
Sexual Harassment and Sexual Assault
    Like suicide prevention, the Army Reserve is committed to 
preventing, deterring, and responding to Sexual Harassment and Sexual 
Assault in its ranks. However, both Sexual Harassment and Sexual 
Assault remain a challenge for the Army Reserve for a number of 
reasons.
    Since fiscal year 2012, the Army has taken a number of steps to 
reduce Sexual Harassment and Sexual Assault in the Army.\50\ To aid in 
this effort, the Army Reserve established four full-time Special Victim 
Counsel (SVCs) positions, located at each of the four Regional Support 
Commands; 52 Troop Program Unit (TPU) SVCs, located at the Army Reserve 
General Officer Commands (GOCOMs); and 29 SVCs, located within each 
Legal Operation Detachment.\51\
---------------------------------------------------------------------------
    \50\ In fiscal year 2012, Department of the Army combined these 
functions and mandated dedicated, full-time personnel to manage the 
SHARP program through Sexual Assault Response Coordinators (SARCs) and 
Victim Advocates (VAs). On 6 May 2013, the Secretary of Defense signed 
a memorandum directing the implementation of the DOD Sexual Assault 
Prevention and Response (SAPR) Strategic Plan. This memorandum outlined 
several specific measures for immediate implementation. The first task 
was ``Ensuring Appropriate Command Climate.'' The Army directed 
workplace inspections for displayed material in violation of AR 600-20 
and noncompliance with promoting an environment of dignity and respect. 
The workplace was defined as all buildings, areas, facilities where 
Soldiers, Civilians, and Contractors are required to perform assigned 
duties, and also include vehicles, vessels and aircraft. On 17 May 
2013, the Secretary of Defense signed a memorandum directing a Sexual 
Assault Prevention and Response Stand-down, specific leader engagement 
strategies to be followed, and new, required credentialing/screening 
parameters to be used for SHARP personnel. The Army Reserve 
successfully completed all of these actions.
    \51\ SVCs are part of the Army-wide effort to ensure that sexual 
assault victims are provided responsive and timely support throughout 
the investigation and judicial proceedings. SVCs have the professional 
duty to provide advice to their clients and to represent their clients 
throughout the military justice process. The SVC's primary duty is to 
zealously represent the best interests of their clients as required by 
the attorney-client relationship even if their client's interests do 
not align with those of other interested parties, to include the 
Government of the United States.
---------------------------------------------------------------------------
    The Army Reserve also established 50 full-time Sexual Assault 
Response Coordinator/Victim Advocate (SARC/VA) positions that span the 
footprint of the Army Reserve.\52\ The Army Reserve identified two of 
these as Active Guard and Reserve positions, and 48 of them as full-
time, military technician (MILTECH) positions.\53\ Currently, 41 of the 
48 MILTECH positions are filled.\54\ The Army Reserve is actively 
working to fill all 50 positions.
---------------------------------------------------------------------------
    \52\ Prior to fiscal year 2013, Troop Program Unit military 
personnel or civilians handled all cases of sexual assault as a part-
time, additional/collateral duty.
    \53\ Deputy Chief, Services and Support Division, U.S. Army Reserve 
Command. The officer position(MAJOR) is filled; the enlisted position 
(Master Sergeant (MSG)) is VACANT. The enlisted position will fill o/a 
FEB 2015, and the Soldier assigned to this position is trained and 
credentialed.
    \54\ Human Resources Division, Office of the Chief, Army Reserve. 
As of 12 JAN 15, 7 positions are pending fill. Of those 7, 2 candidates 
are waiting on final background check verifications and 3 candidates 
are still active in the recruitment process.
---------------------------------------------------------------------------
    The Army Reserve is responsible for five Department of Defense 
(DOD) Safe Helpline (877-9955249) phone numbers published on the DOD 
Safe Helpline web site and other locations.\55\ These Helpline services 
provide additional resources for complainants and victims of sexual 
assault. The Army Reserve held a SHARP Forum in November of 2014, 
bringing all Operational, Functional, Training and Support Command 
(OFTS) SARCs and VAs together to discuss the latest DOD Policies, best 
practices, as well as provide multiple, hands-on training 
opportunities. To complement this effort, I will conduct a Senior 
Leader Forum on SHARP in March of 2015.
---------------------------------------------------------------------------
    \55\ USARC SHARP remains in constant contact with the DOD Safe 
Helpline to ensure hotline numbers are updated and each State is linked 
to a Regional Hotline number.
---------------------------------------------------------------------------
    In spite of these efforts to combat Sexual Harassment and Sexual 
Assault, the Army Reserve observed an increase in the reported number 
of sexual assault cases and sexual harassment complaints over the last 
3 years. In fiscal year 2012, Army Reserve SHARP personnel in the field 
received 13 formal complaints of Sexual Harassment. In fiscal year 
2013, the number of formal complaints documented in the Incident Case 
Reporting System (ICRS)--the official database of record for Sexual 
Harassment--increased to 27. In fiscal year 2014, the Army Reserve had 
22 formal complaints documented in ICRS. In fiscal year 2012, there 
were 21 cases of Sexual Assault in the official database of record, the 
Defense Sexual Assault Information Database (DSAID). In fiscal year 
2013, there were 83 cases of Sexual Assault in the DSAID. In fiscal 
year 2014, there were 119 cases of Sexual Assault in the DSAID.
    While the increase in reports is in line with Army goals to 
increase reporting, there is no way of knowing precisely why the number 
of reported incidents rose. Some have asserted a positive change in 
Army culture led to increased reporting. Others have posited that 
improvements in DOD reporting are responsible for the increase. 
Regardless of what drove the rise in reporting in the Army Reserve, 
what we can say with some certainty is that shared access to improved 
DOD and HQDA automated systems has helped the Army Reserve track and 
analyze Sexual Harassment complaints and Sexual Assault cases. Our goal 
is to utilize improved analytics to inform current and future 
mitigation efforts. Moreover, we have observed a demonstrated positive 
impact in the force following the adoption of a more aggressive focus 
and stance on Sexual Harassment and Sexual Assault. For example, Chief 
Warrant Officer 5 (CW5) Debra Blankenbaker (7th Civil Support Command 
SARC) received the Army and U.S. Army Europe (USAREUR) 2014 Sexual 
Assault Prevention Innovation Award for the bystander intervention 
training she developed. She was recognized with a Meritorious Service 
Medal from LTG Bromberg, Department of the Army G1, and an Army Reserve 
Commendation Medal from MG Piatt, the Deputy Commanding General of 
USAREUR. The 99th Regional Support Command created a SHARP quick 
reference book for SARC/VA personnel, command teams, and civilian 
supervisors. This book contained victim referral information for almost 
every community supported by the 99th RSC. The 99th RSC also 
established a well-being academy located on Joint Base McGuire-Dix-
Lakehurst. The academy provides training courses in SHARP, ASAP, 
Suicide Prevention, and Resilience. Classes are open to all Soldiers 
regardless of their geographical location. Finally, the Army Reserve 
supported the recent CSA SHARP Advisory Panel (16 OCT 14) with three 
panel members. The panel connected senior leaders and unit-level 
practitioners to share a common vision; voice Army Reserve concerns; 
and capture lessons learned to improve SHARP-related activities.
    In short, Sexual Harassment and Sexual Assault are incompatible 
with Army Values. The Army is committed to reducing, and eventually 
eliminating, sexual assault from the ranks through a comprehensive 
Sexual Harassment/Assault Response and Prevention (SHARP) Campaign Plan 
that is focused on enhancing prosecution, investigation, victim 
advocacy, assessment and accountability. Army policy promotes sensitive 
care and confidential reporting for victims of Sexual Harassment and 
Sexual Assault, and appropriate accountability for those who commit 
these crimes. I expect no less in the Army Reserve. I am fully 
committed to maintaining an environment free of sexual harassment and 
sexual assault throughout the Army Reserve. After all, the Army Reserve 
is a large, extended family that consists not only of Soldiers and 
their Family members but one that extends to all our Civilian employees 
and the Contractors who work side by side with us. We do not tolerate 
inappropriate behavior in the Army Family. Rather, Family members take 
care of one another.
    To accomplish that end state, we remain committed to strengthening 
our ability to track, investigate and hold perpetrators appropriately 
accountable, while increasing our emphasis on providing help to 
victims.\56\
---------------------------------------------------------------------------
    \56\ The USARC SJA is currently tracking 156 sexual assault/sexual 
contact cases (Article 120 cases) (some are years old, not for recent 
incidents). This includes: 73--cases ``Under Investigation'' (includes 
CID, civilian authorities, and AR15-6 investigations); 23--cases under 
``Civilian Prosecution'' (these cases will almost invariably shift to 
the Administrative Action category as General Officer Memorandum of 
Reprimands (GOMOR) and Separations); 15--``UCMJ Actions'' (includes 
ongoing CMs (13) and Article 15s (2)); 45--``Administrative Actions'' 
(this includes separations and reprimands); 23 separations based on 
UCMJ or Civil conviction; and 22 GOMORs/separations due to various 
reasons.
---------------------------------------------------------------------------
Army Reserve Family Programs
    Army Reserve Family Programs supports the unique needs of Army 
Reserve Soldiers and their Families.\57\ These include youth 
development programs and services, 24/7 outreach call centers, and 
warrior transition. For example, the Fort Family Outreach and Support 
Center at http://arfp.org/fortfamily.html or via the Fort Family phone 
number at 1-866-345-8248) provides live, relevant, and responsive 
information to support Army Reserve Soldiers and Families. Fort Family 
is a single gateway to responsive Family Crisis Assistance, available 
24/7, 365 days a year. It provides a unit and community-based solutions 
that connects people to people. By pinpointing Families in need and 
local community resources, the Fort Family Outreach and Support Center 
can quickly connect the Soldier and Family to resources, providing 
installation-commensurate services in the geographic location of the 
crisis. Fort Family Outreach and Support Center has established a 
community-based capacity by engaging our Nation's ``Sea of Goodwill'' 
to support Soldiers and Families close to where they reside. Simply 
stated, Fort Family via web or phone connects Soldiers and Families 
with the right service at the right time. Additional funding for Family 
programs could accelerate all of these efforts.
---------------------------------------------------------------------------
    \57\ Army Reserve Family Programs; database available online at: 
http://arfp.org/programs.
---------------------------------------------------------------------------
The Army Reserve Ambassador (ARA) Program \58\
---------------------------------------------------------------------------
    \58\ Army Reserve Ambassador Program. Data available online at: 
http://www.usar.army.mil/community/ambassadors).
---------------------------------------------------------------------------
    The Army Reserve Ambassador (ARA) program was established in April 
1998 to enable private citizens to promote awareness of the Army 
Reserve and my identified goals and objectives.\59\ ARAs develop 
awareness and advocacy with community leaders and are vitally important 
bridges to communities across the Nation. ARAs educate the public, 
community leaders and congressional staff offices about the 
capabilities and value of the Army Reserve and its Soldiers. They 
establish open lines of communication within these communities to help 
establish mutually supporting relationships with community leaders and 
community organizations. ARAs promote support for Soldiers and their 
Families during deployments and play an active role in facilitating 
community support through ``welcome home'' ceremonies and the Yellow 
Ribbon Program. Maintaining this invaluable program is critically 
important to improving the health of the force while strengthening the 
ties that bind America to its Army.\60\
---------------------------------------------------------------------------
    \59\ Ibid. ``Ambassadors are currently appointed by the CAR, via 
nomination from Regional Support Command/General Officer commanders. 
The nominee cannot be an actively-serving member of the National Guard, 
Ready Reserve (Selected), Individual Ready Reserve, Federal Government 
or be a Federal elected/appointed official. Their function is similar 
to that of Civilian Aides to the Secretary of the Army (CASA), and they 
carry a protocol status equivalent to a major general. While not all 
ARAs have military experience, many are retired officers or senior non-
commissioned officers who wish to remain engaged in military affairs. 
They function at the State and local level and voluntarily represent 
the CAR without salary, wages or other benefits. Each State and 
territory has at least one ARA. Most beneficial is that they provide 
``continuity'' over the long term; while local Army Reserve team 
leaders come and go, Ambassadors are vested in the community.''
    \60\ Ibid. For more information visit the Army Reserve Ambassadors 
Association of the United States website at www.arambassador.org. Email 
your Ambassador inquiries to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e6b6d7f6c7367306b6d7f6c7d30717d7f6c30737c66307f737c7f6d6d7f7a716c5e737f77723073777230">[email&#160;protected]</a>
---------------------------------------------------------------------------
Operational Integrators
    The regional alignment of forces and the development of Army 
Reserve Engagement Cells (AREC) and Teams (ARET) are two ways the Army 
Reserve remains engaged in operational activities.\61\ Regionally 
aligned in accordance with Department of the Army policy, Army Reserve 
Units and Soldiers remain committed to helping the Army engage 
regionally to ``ensure interoperability, build relationships based on 
common interests, enhance situational awareness, assure partners, and 
deter adversaries'' by providing robust and continuing support to 
multiple exercises in every CCMD's area of operation.\62\ A budget-
neutral initiative staffed entirely from within existing Army Reserve 
structure, ARECs and ARETs help ASCCs and CCMDs integrate Army Reserve 
capabilities into theater-level plans, exercises, and operational 
activities.\63\ As end-strength is reduced to comply with both 
constrained budgets and other directives, the AREC/ARET concept will 
ensure Army Reserve forces are wholly integrated into the Total Force, 
facilitate the Reception, Staging, Onward Movement, and Integration 
(RSOI) of USAR Soldiers and Units, and enable the supported command's 
Title 10 USC responsibilities for contingency operations and Theater 
Security Cooperation events. They also advance implementation of the 
Army Reserve's Regional Alignment of Forces, and provide reach-back 
capability to theater enabling commands and expertise based in the 
United States. At the same time, ARECs and ARETs help the ASCCs and 
CCMDs better understand Army Reserve processes and authorities as they 
plan Army Reserve forces to support theater operations. The Army 
Reserve currently has signed AREC memoranda of agreement with U.S. Army 
Pacific (USARPAC), U.S. Army North (ARNORTH), U.S. Army South 
(ARSOUTH), and U.S. Army Africa (USARAF). Likewise, the Army Reserve 
has signed ARET memoranda of agreement with 1st CORPS, U.S. Pacific 
Command, U.S. Army Japan, Eighth Army, U.S. European Command, U.S. 
Central Command, U.S. Northern Command, and U.S. Africa Command.\64\
---------------------------------------------------------------------------
    \61\ OCAR G-3/5/7 (FWD). An Army Reserve Engagement Cell (AREC) is 
a tailored, forward-deployed Army Reserve planning element (10-17 
Soldiers in an Active Guard and Reserve status working under the 
direction of an Army Reserve General Officer (O-7) in an Individual 
Mobilization Augmentation status) designed to work in direct support of 
ASCC's. An Army Reserve Engagement Team (ARET) is a scaled and 
tailored, forward-deployed AR planning element (4-8 Officers (O4-O5) in 
an AGR status led by an Army Reserve Colonel (O-6)) designed to work in 
direct support of each Geographical Combatant Command and Corps.
    \62\ TRADOC Pamphlet 525-3-1, The U.S. Army Operating Concept, Win 
in a Complex World, 2020-2040, 7 Oct 2014.
    \63\ OCAR G-3/5/7 (FWD). Implementing the Army Reserve Engagement 
Cell/Team concept requires the management of bills and bill-payers to 
change approximately 230 TDA force structure positions throughout HQ 
USARC and the OFTS commands.
    \64\ G-3/5/7, USARC. As of 16 DEC 14, 12/19 MOAs are signed, and 77 
of 224 positions are assigned, to include: 1 of 6 General Officer 
positions.
---------------------------------------------------------------------------
Cyber Capabilities
    As new missions arise from emerging threats, the Army Reserve is 
well positioned to lead in the cyberspace domain. Currently, more than 
3,500 Army Reserve Soldiers support cyber operations.\65\ As threats 
and technologies evolve, the civilian skills that Army Reserve Soldiers 
possess will enable our formations to provide a highly specialized 
talent pool to meet current needs and develop emerging capabilities. We 
are committed to building 10 cyber protection teams and an Army Reserve 
Cyber Training Element that includes an opposing force of more than 800 
highly skilled cyber warriors in support of U.S. Cyber Command.\66\ 
This force structure effort is budget neutral, which reflects both a 
win for the Army and the Nation.
---------------------------------------------------------------------------
    \65\ OCAR G-3/5/7 (FWD). These 3,500 Soldiers come from Theater 
Signal brigade assets that provide defensive cyber operations support 
to DODIN. These 3500 positions supporting cyber operations encompass 
Soldiers assigned to perform a Cyber Security mission set. The 1545 by 
fiscal year 2016 represent those assigned to cyber units performing 
cyber as their primary mission. The rest encompass the Signal Soldiers 
assigned down to the unit level who perform their cyber security 
mission in support of the overall DOD information network. While not 
assigned as ``cyber'' Soldiers, their oversight and defense of the 
network must comply with the cyber effort in order to enable our 
layered defense.
    \66\ OCAR G-3/5/7 (FWD). These 800 Army Reserve Cyber Soldiers are 
current Army Reserve assets plus TAA 16-20 wedge (ARCOG, Wedge (400), 
DISA ARE, & 1st IO Command 'ARE').
---------------------------------------------------------------------------
                               conclusion
Dual Roles
    The Army Reserve has two critical roles--the operational Federal 
reserve of the Army and a domestic emergency and disaster relief force 
for the Nation.\67\ Flexible and scalable, the Army Reserve tailors its 
organizations to meet a variety of operational missions and other 
activities across the Conflict Continuum.\68\ In this role, Army 
Reserve forces are an essential partner in preventing conflict, shaping 
the strategic environment, and responding to operational contingencies 
at home and around the globe.
---------------------------------------------------------------------------
    \67\ 2012 National Defense Authorization Act. In 2012, Congress 
provided the Department of Defense with new Reserve Component access 
authority in 10 U.S. Code Sec. 12304a. This authority cleared the way 
for the Army Reserve to assist our fellow Americans during domestic 
emergencies when Federal assistance is requested by the Governors 
through the Federal Emergency Management Agency.
    \68\ Joint Publication 3-0, Joint Operations, 11 August 2011, p. I-
5.
---------------------------------------------------------------------------
    As an operational force, it provides trained, ready, and equipped 
Soldiers, Leaders, and Units to the Total Army and the Joint Force. For 
example, Army Reserve intelligence Soldiers provide 86,385 man days of 
support to Army missions. Multiple, short vignettes exemplify this 
point. The 368th Military Intelligence Battalion (Theater Support) runs 
the night-shift for the Korean Peninsula, providing all required 
geospatial intelligence (GEOINT) products to the Army. In fiscal year 
2014, the 323rd Military Intelligence Battalion (TS) provided 
approximately 990 man-hours of real world, relevant, actionable 
intelligence production support to 66th Military Intelligence Brigade 
and the AFRICOM AOR, and the CENTCOM Army Reserve Element completed 
some 801 man days of all-source analysis in support of (ISO) the J2 
Iraqi Fusion Cell. When the 505th Military Intelligence Brigade (USAR) 
is activated and the U.S. Army Reserve Military Intelligence Readiness 
Command (MIRC), U.S. Army Intelligence and Support Command (INSCOM), 
and U.S. Army North (ARNORTH) finish defining manpower and funding 
roles for all components, the Army Reserve will have the intelligence 
mission for Northern Command's entire homeland defense. The Army 
Reserve's Expeditionary Sustainment Commands deploy to locations devoid 
of infrastructure to facilitate the opening of seaports and airports, 
while our logistics and supply chain personnel are experts at moving 
life-saving materiel and services into affected areas.
    The Army Reserve also stands ready to support Federal, State, and 
local authorities for domestic emergency and disaster relief efforts at 
home.\69\ This includes support to Command and Control Chemical, 
Biological, Radiological, Nuclear Response Element (C2CRE) and Defense 
Chemical, Biological, Radiological, Nuclear and high- yield Explosives 
(CBRNE) Response Force (DCRF) missions. Army Reserve medical evacuation 
helicopters can rapidly transport patients to critical care facilities, 
and our medium and heavy lift helicopters can deliver life-sustaining 
supplies, equipment, and construction material into devastated areas. 
Army Reserve engineer units include search and rescue teams, debris 
removal capabilities, horizontal (e.g., roads and airfields) and 
vertical (e.g., buildings and infrastructure) construction as well as 
bridge construction capabilities. We also have a prime power company 
which can provide commercial-level electrical power to affected areas.
---------------------------------------------------------------------------
    \69\ The Army Reserve also provides 100 percent of the Army's 
Emergency Preparedness Liaison Officers (EPLOs) and 33 percent of the 
DOD EPLOs. EPLOs coordinate military assistance to other Federal 
agencies and State governments. These Army Reserve EPLOs maintain 
communications between the DOD, Federal, State, and local governments, 
and nongovernmental organizations to coordinate assistance between all 
parties during emergency response events, serve as subject matter 
experts on capabilities, limitations, and legal authorities, and track 
Army Reserve assets in their States and regions.
---------------------------------------------------------------------------
Readiness-Focused
    The Army Reserve's focus as a critical, dual-use force is on 
maintaining the readiness of its lifesaving and life-sustaining 
capabilities that complement and enable the Total Force. For example, 
the Army Reserve possesses nearly 20 percent of the Army's organized 
units, a large portion of its supporting enabling capabilities, and 
almost a quarter of its mobilization base expansion capability.
Fiscally Efficient \70\
---------------------------------------------------------------------------
    \70\ According to recent studies by RAND, the Reserve Forces Policy 
Board, the Office of the Secretary of Defense, and the Center for 
Strategic and International Studies, the cost of an individual drilling 
Reservist who serves 39 training days per year is about 15 percent of 
the cost of an Active Component Service member. And a Reserve Component 
service member on active duty for an entire year costs about 80 to 95 
percent as much as an Active Component member, although deployment 
costs are about the same.
---------------------------------------------------------------------------
    The Army Reserve's 198,000 Soldiers and 8,490 Military Technicians 
provide nearly 20 percent of the Army's total force for less than 6 
percent of the Total Army budget. We also accomplish our mission with 
only 13 percent of our component serving as full-time support (FTS)--
six percent less than the average across all Services' reserve 
components. As good stewards of America's resources, the Army Reserve 
continually seeks innovative and cost effective joint training 
opportunities. For example, during Innovative Readiness Training 
exercise Northern Louisiana Care 2014, Army Reserve Soldiers from the 
865th Combat Support Hospital partnered with service members from the 
Navy and active duty Army to set up clinics in Winnsboro, 
Louisiana.\71\ They provided medical, dental and optometry care to 
residents who did not have regular access to healthcare.\72\ In the 
first day alone, 201 underserved citizens received medical, behavioral 
health, dental, and vision services.\73\ This real world training in a 
joint, civilian-military environment improved the command's readiness 
while helping deliver world class medical care to the people of 
northeast Louisiana, and represents Army Total Force policy in 
action.\74\
---------------------------------------------------------------------------
    \71\ Defense Video & Imagery Distribution System, Northern 
Louisiana Care 2014, http://www.dvidshub.net, 8 July 2014.
    \72\ Ibid.
    \73\ Ibid.
    \74\ U.S. Army Homepage, Reservists Assist Underserved U.S. 
Communities through Innovative Readiness Training, http://www.army.mil. 
``First authorized in 1993, IRT allows reserve-component Units to hone 
their wartime readiness through hands-on training, while simultaneously 
providing quality services to communities throughout the U.S. The Army 
Reserve's most recent mission took place on Fort Belknap, a 
geographically isolated Indian Reservation in north-central Montana. 
There, 33 Soldiers from subordinate units of the West Medical Area 
Readiness Support Group augmented the Indian Health Services Hospital. 
Named Operation Walking Shield, the mission began July 21, and 
concluded August 1. The Army Reserve staff consisted of eight different 
medical specialties to include lab technicians, dentists, physicians, 
critical care nurses, behavioral health specialists, optometry 
technicians and podiatrists. The augmentation of these Army Reserve 
medical personnel greatly enhanced the Fort Belknap Hospital's own 
medical staff of seven, enabling the clinic to nearly double the care 
it provides to the more than 5,000 members of the surrounding tribes. 
By conclusion of the exercise, the Army Reserve Soldiers treated more 
than 900 patients.''
---------------------------------------------------------------------------
Positive Economic Impact
    In addition to providing the Army and the DOD a high return on 
investment, the Army Reserve positively impacts America's economy. Each 
year, as the Army Reserve executes the Army Training Strategy, local 
Soldiers, DOD employees, private businesses, and civilian contractors 
and administrative support personnel tangentially benefit from its 
presence in the States and communities in which it operates. In turn, 
tens of thousands of new industry, service-related,
    small business, and other non-DOD jobs are created as a result of 
the Army Reserve's presence. Thus, investment in the Army Reserve 
generates essential military capabilities while also contributing to a 
positive economic climate for State and local communities.\75\
---------------------------------------------------------------------------
    \75\ U.S. Army Reserve at a Glance, 2014, p. 8. ``$8,258,105,000 
dollars spent; $18,459,516,579 economic impact; $5,386,489,000 in non-
DOD wages; and 167,006 non-DOD jobs.''
---------------------------------------------------------------------------
A Component and a Command
    As the only Army component that is also a command, the Army Reserve 
directly supports every Army Service Component Command (ASCC) and 
Combatant Command (CCMD) across the globe, with a footprint that 
extends across all 50 States, five territories, the District of 
Columbia, and more than 30 countries. Army Reserve Soldiers, Leaders, 
and Units form a local, State, regional, national and global force with 
unparalleled technical capabilities.\76\ Structured to provide 
operational capabilities and strategic depth to the Army and the Joint 
Force, the Army Reserve effectively deploys critical capabilities and 
forces across the entire range of military operations.
---------------------------------------------------------------------------
    \76\ A significant portion of the Army's key support units and 
capabilities such as logistics, medical, engineering, Military 
Information Support Operations (MISO), and Civil Affairs reside in the 
Army Reserve.
---------------------------------------------------------------------------
Well-educated, Trusted Professionals
    A well-educated force of trusted professionals, the Army Reserve 
holds 75 percent of the doctorate degrees and half of the master's 
degrees in the Army. Enhanced by the civilian skills, education, 
training, and experience of our Citizen-Soldiers, the Army Reserve's 
doctors and nurses, lawyers, scientists, engineers and information 
technology specialists, marketing and communications experts, and 
public safety professionals serve on the leading edge of their fields. 
When called to serve in uniform, they provide the professional 
expertise they have developed in their civilian careers to the Army and 
the Nation.
Tailorable, Scalable, and Responsive
    Tailorable, scalable, and responsive, the Army Reserve has the 
capacity to provide more than 27,000 Soldiers annually, as individuals 
or units, to satisfy the DOD's operational requirements.\77\ CCMD's 
need many of these Soldiers and Units in the first 45 days of an 
operation to build crucial theater operating capacity quickly and to 
sustain the war-fighter. Dispatching Army Reserve Logistics Support 
Vessels (LSV) to render aid in the Philippines the same day they were 
requested is a good example of the Army Reserve's accessibility and 
responsiveness.\78\
---------------------------------------------------------------------------
    \77\ This figure is an average derived from the rotational units 
with available force pool dates. The number changes slightly year to 
year.
    \78\ Lieutenant General Talley, Army Reserve Panel, AUSA Annual 
Conference, 13 October 2014.
---------------------------------------------------------------------------
Critical Capabilities, Civilian Skills, and Professional Expertise
    Providing critical military enabling capabilities, civilian skills, 
and professional expertise to the Army and the Nation remains an Army 
Reserve core competency, which greatly assists the Army's effort to 
enable the Joint Force to ``Win in a Complex World.'' \79\ Army Reserve 
logistics, communication, and intelligence forces provide the 
``endurance to sustain operations'' and the ability to ``set the 
theater'' that helps the Joint Force present America's enemies and 
adversaries with multiple dilemmas and multiple options.\80\ Army 
Reserve Civil Affairs forces help the Army shape the global security 
environment.\81\ Army Reserve Military Information Support Operations 
(MISO) forces, Theater Information Operations Groups and Soldiers 
supporting Cyber operations help the Army operate in multiple 
domains.\82\ As we work together to develop the future force, we must 
carefully consider how we man, train, and equip these critical 
capabilities, and best leverage their capabilities to maximize the 
tenets of endurance, mobility, and simultaneity that they bring to the 
joint fight.\83\
---------------------------------------------------------------------------
    \79\ TRADOC Pamphlet 525-3-1, The U.S. Army Operating Concept, Win 
in a Complex World, 2020-2040, 7 Oct 2014, p. iii.
    \80\ Ibid, p. iii-iv.
    \81\ Ibid, p. iv.
    \82\ Ibid.
    \83\ Ibid, p. 19-20.
---------------------------------------------------------------------------
Mission-Focused
    Today, the Army Reserve provides trained, equipped, and ready 
Soldiers and cohesive Units to meet the Nation's requirements at home 
and abroad. We are a combat-tested and integral element of the most 
decisive and lethal land force in the world. We have the most 
experienced Army Reserve in our Nation's history--one that has been 
completely integrated into the Total Army and the Joint Force, and 
remains operationally engaged via deployments and exercises. Never 
before in the history of our Nation has the Army Reserve been more 
indispensable to the Total Army and the Joint Force.
High Demand, Resilient Force
    This steady demand for Army Reserve capabilities has introduced a 
new paradigm of reliance on the Army Reserve as a critical part of our 
national security architecture that must continue into the future. This 
is particularly true when we are faced with such a complex and 
exponentially evolving global security environment compounded by severe 
fiscal constraints. Given the likelihood that neither of these two 
conditions will change in the near term, we cannot lose the traction we 
have made in integrating the Total Force. Nor can the Army lose the 
sustainment and theater-level capabilities the Joint Force will require 
and the Army Reserve is structured to provide when the need arises.
Life-Saving, Life-Sustaining Force
    In a rapidly changing and increasingly dangerous global environment 
fraught with fiscal uncertainty, the Army Reserve provides critical 
skills and depth as the life-saving, life-sustaining Citizen-Soldier 
force for the Nation. A community-based force, the Army Reserve offers 
the Nation an effective insurance policy against strategic and 
operational risk. Whether performing combat missions and contingency 
operations, or saving lives and protecting property at home, our 
expeditionary formations continue to offer versatile, available, and 
effective capabilities to the Nation at reduced costs to the American 
taxpayer--a win for the Army and the Nation. The Army Reserve is a good 
return on America's investment--ready now, ready in times of crisis, 
and ready for whatever threats and challenges the future may hold.
    Twice the Citizen--Army Strong!

    Senator Cochran. Thank you, General.
    General Jackson.
STATEMENT OF LIEUTENANT GENERAL JAMES JACKSON, CHIEF, 
            AIR FORCE RESERVE
    General Jackson. Chairman Cochran, Vice Chairman Durbin, 
and distinguished members of the committee, thank you for the 
opportunity to appear before you today. I am honored to be here 
and to represent American citizen airmen as the Chief of the 
Air Force Reserve and as commander of the Air Force Reserve 
Command.
    First, I want to highlight the nearly 70,000 Air Force 
reservists who comprise our combat-ready force. These men and 
women and their families are our greatest asset. Our citizen 
airmen provide the Nation with daily operational capability, 
strategic depth, and surge capacity needed to fly, fight, and 
win in airspace and cyberspace.
    One of the great strengths of your Reserve is that 75 
percent of our members are part-time and provide a cost-
efficient and effective mission-ready force. On any given day, 
approximately 5,000 Air Force Reserve members are serving on 
Active Duty in support of combatant commanders.
    Two weeks ago, we celebrated our 67th birthday as a 
component of the Air Force, and we are grateful for the 
significant contributions that our heroes have made since 1948. 
But today, I want to speak with you about why today's airmen 
are critical to our Nation's future.
    General Welsh recently testified regarding the growing gap 
between warfighting demand and available capacity, which 
represents risk to our Nation. Your Air Force Reserve serves as 
a hedge against that risk.
    As we look to the future, we understand the importance of 
properly balancing our three-component total force. Your Air 
Force Reserve will continue to fill demand and capacity gaps 
within our Air Force. To this end, our budget request includes 
an increase in our end-strength of approximately 2,100 
personnel, and this increase is needed to retain Active Duty 
airmen who have transitioned to the Air Force Reserve and also 
to grow and support the missions of 
F-35, KC-46, ISR, and cyber.
    Recently, our Nation faced a number of unexpected threats, 
including the rise of ISIS and the outbreak of Ebola. In all 
these instances, your Air Force Reserve has answered the call 
because we've been properly organized, trained, and equipped.
    However, the Reserve component can only be useful if they 
remain at parity and fully interoperable with the Active 
component. Of particular concern to me is the need to 
recapitalize several Air Force Reserve major weapon systems in 
the near future. We need to begin this recapitalization soon or 
a significant capability shortfall will occur.

                           PREPARED STATEMENT

    And finally, the Service chiefs and other Reserve chiefs 
have testified about the devastating effects of sequestration 
and its impact on our military, and I share their deep concern. 
Sequestration-level funding degrades our readiness, hurts our 
people, and strains our ability to train and equip our force. 
Worse yet, no one can fully predict the long-term impacts.
    Now more than ever, the Air Force Reserve must be ready for 
tomorrow's fight as well as we are for today's. And with this 
committee's continued support, we will be.
    And I look forward to answering your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General James F. Jackson
                              introduction
    Chairman Cochran, Vice-Chairman Durbin and distinguished members of 
the Subcommittee, thank you for the opportunity to testify before you 
today. I am honored to represent America's Citizen Airmen as the Chief 
of Air Force Reserve and Commander, Air Force Reserve Command (AFRC). 
The Air Force Reserve is a combat ready force comprised of nearly 
70,000 Citizen Airmen stationed locally and serving globally.
    The Air Force Reserve is a cost-efficient and mission effective 
force, providing our Nation with operational capability, strategic 
depth and surge capacity for both steady-state and contingency 
operations. Every day, Combatant Commanders leverage the Air Force 
Reserve to fly, fight and win in air, space and cyberspace. Since 
President Truman and Congress established the Air Force Reserve in 
1948, Citizen Airmen have been critical to our Nation's defense. We are 
proud of more than six decades of exceptional service to the United 
States.
    Today, the Air Force Reserve remains a counterweight to the 
rapidly-shifting strategic environment and a hedge against uncertainty. 
Recently faced with a number of unexpected threats, including the rise 
of the Islamic State in Iraq and Syria (ISIS) and the outbreak of 
Ebola, our Nation leveraged the capacity of the Air Force Reserve to 
respond in support of U.S. national interests. As ISIS drove thousands 
of Iraqis from their homes, we airlifted life-saving supplies to the 
Yazidi refugees, refueled strike packages, and delivered combat 
capability. When the Ebola outbreak threatened the world, the Air Force 
Reserve supported OPERATION United Assistance by providing medical 
capability and airlift capacity to deliver vital personnel and supplies 
to Liberia. With little notice, the Air Force Reserve responded rapidly 
and effectively because we remain a combat-ready force.
                       today's air force reserve
    Our mission is to fly, fight and win--in air, space and cyberspace. 
Citizen Airmen and their families are, without question, our greatest 
asset. Their selfless dedication, coupled with high levels of 
experience, ensure the Air Force Reserve is ready to respond anytime, 
anywhere.
    As the Air Force continues to evaluate the Total Force mix through 
the Total Force Continuum process, we are identifying gaps between 
warfighting demand and the available supply of capabilities and/or 
forces. The Air Force Reserve is essential to filling many of these 
gaps and mitigating the associated risks by providing combat-ready 
forces to the warfighter. Every day, approximately 5,000 Citizen Airmen 
are mobilized, serving globally. The majority of these Airmen are 
volunteers. This is beyond impressive; it is exceptional. The Air Force 
Reserve contributes to every Air Force core function and performs 
nearly every mission the Active Component performs. Last year our 
Citizen Airmen performed nearly 500,000 man-days and filled more than 
4,000 Air Expeditionary Force (AEF) deployment requirements with the 
lowest reclama rate of any Air Force major command.
    Air Force Reservists serve notably as Remotely Piloted Aircraft 
(RPA) crews and maintainers, space operators, cyber warriors, and 
Intelligence Surveillance and Reconnaissance (ISR) experts. Last year 
Air Force Reserve RPA crews flew more than 18,000 sorties and provided 
over 40,000 combat support hours. The 655th ISR Group provided a total 
of 82,530 hours of ISR support to our joint partners. Additionally, the 
Air Force Reserve executed about one-third of the daily operational 
load across all space missions.
    Moreover, the Air Force Reserve provides operational capability for 
homeland support, including 100 percent of Air Force weather 
reconnaissance with our Hurricane Hunters, 100 percent of the 
Department of Defense's aerial spray capability for pesticides, and 
aerial firefighting in conjunction with the Air National Guard. A 
mission-ready force, the Air Force Reserve is perfectly suited to 
fulfill these missions.
    Our strategic depth makes the Air Force Reserve an indispensable 
component of our national defense team. Reserve Airmen provide 
accessible, ready manpower. Seventy-five percent of Air Force 
Reservists serve part-time and enable a cost-efficient force that is 
current, qualified, and ready to fight. Additionally, the Air Force 
Reserve consists of those members of the Inactive Ready Reserve and 
retired active duty members, who the President and Secretary of Defense 
may recall at any time when needed.
    All components of the U.S. Air Force, including the Air Force 
Reserve, are ready and trained to the same high standard. The Air Force 
Reserve's high level of readiness allows us to respond to a crisis 
within 72 hours and seamlessly integrate with the Total Force. The 
integration of Citizen Airmen leverages valuable experience and 
provides continuity in Active Component units and on more than 50 
staffs, including the Office of the Secretary of Defense, the Joint 
Staff, Combatant Commands, Headquarters Air Force, nine other major 
commands and many other Defense agencies. In addition to their military 
experience, Citizen Airmen leverage a diverse range of civilian 
experience, including attorneys, information technology professionals, 
healthcare providers, small business owners and corporate executives, 
to name a few. These civilian skills make our Air Force team even 
stronger.
    This past year, the Air Force Reserve supported every Combatant 
Commander with operational capability and surge capacity. For example, 
the 482nd Fighter Wing deployed with F-16's to Afghanistan where they 
accounted for over 60 percent of kinetic airstrikes and supported more 
than 400 requests for close air support from troops in contact. 
Reservists from the 446th Airlift Wing led the first OPERATION United 
Assistance mission into Liberia, while our KC-10 and KC-135 units 
supported operations in U.S. Central Command. Our RPA crews from the 
2nd Special Operations Squadron amassed more than 5,600 combat hours, 
flew over 700 sorties, and provided critical ISR and fire support 
capability to joint special operations forces in support of OPERATIONS 
Enduring Freedom, Copper Dune and Jupiter Garret. These examples are 
just a few that testify to our ability to meet combatant commander 
requirements at a moment's notice across the full range of military 
operations.
    The ISR enterprise remains vital to the national security of the 
United States and our allies. Over the past year, the Air Force Reserve 
provided more than 80,000 hours of unrivalled ISR support for global 
operations, while the 665th ISR Group stood up its final four 
squadrons. This geographically distributed group consists of eleven 
squadrons providing geospatial intelligence, human intelligence, 
airborne linguist capability, signal intelligence, and ISR support to 
special operations.
    Space, the ultimate ``high ground,'' is equally vital to our 
Nation's strategic advantage. Because joint forces rely on space-based 
assets to, communicate globally, employ precision munitions, and 
operate distributed ISR networks, the importance of this domain cannot 
be overstated. The Air Force Reserve continues to provide unrivalled 
support to our space forces as we look for opportunities for growth in 
this domain. For instance, the 19th Space Operations Squadron recently 
conducted Launch and Early-Orbit operations on four global positioning 
satellites, enabling the delivery of enhanced precision navigation and 
timing signals along with a new civilian safety-of-life signal. In 
addition, our contributions at the Space Test and Training Range 
provided a safe and secure environment for space and cyber training 
during multiple Service, joint and theater-level exercises.
    Air Force Reserve Airmen are experienced and dedicated 
professionals, who are always ready to support our Nation when called. 
We remain an essential partner in our three-component Air Force; 
however, being ready for today's fight is not enough--we must also look 
to the future.
                      tomorrow's air force reserve
Experienced & Valuable
    To prepare for future uncertainty, the Air Force Reserve must 
remain a viable and relevant force. Secretary James and General Welsh 
have testified on the criticality of our three-component Air Force. 
Shaping the Air Force Reserve portfolio to optimize performance ensures 
we are ready to effectively respond to emerging Defense requirements. 
Like the Air Force, the Air Force Reserve must balance the demands of 
today with the challenges of tomorrow. We must focus on preparing for 
an uncertain and fast-paced future. I agree with Secretary James when 
she stated recently, ``I would expect that . . . we will come up with 
additional missions, additional capabilities we would ask our Guard and 
Reserve to assume in the future, and so I see the future of our people 
program to be more reliant, not less reliant, on our National Guard and 
Reserve.'' \1\
---------------------------------------------------------------------------
    \1\ Department of Defense Press Briefing on the State of the Air 
Force; Presenters: Deborah Lee James, Secretary of the Air Force; 
General Mark A. Welsh III, Air Force Chief of Staff; July 30, 2014 
(http://www.defense.gov/Transcripts/Transcript.aspx?TranscriptID=5471).
---------------------------------------------------------------------------
    The Air Force Reserve will continue to fill demand-capacity gaps 
within the Total Force. In fiscal year 2016, we must stop reducing our 
forces and grow back Air Force Reserve end-strength by 2,100 Citizen 
Airmen to meet critical current and emerging defense requirements, 
especially for the F-35, KC-46, F-16, ISR and cyber missions.
    The Air Force recognizes cyberspace as a critical domain that 
enables and supports every mission area. Our Reserve Airmen are able to 
leverage their civilian experience to produce game-changing 
contributions, especially in the cyber and space career fields. The Air 
Force Reserve will continue to strengthen our cyber capabilities to 
ensure we are keeping pace with technological advances. We stood up our 
first cyber operations group in fiscal year 2013. Included in the 
fiscal year 2016 President's Budget request are Air Force Reserve 
classic associate cyber protection teams, which will be tasked with 
defending our critical information within the cyber domain.
    The Air Force benefits from the high level of experience and 
maximizes its investment in Airmen when they transition from the Active 
Component to the Air Force Reserve. In many cases, without a Reserve 
Component career option, many separating Airmen simply leave military 
service for the civilian sector, taking with them millions of dollars-
worth of training and years of experience. Retaining these Airmen in 
the Reserve Component represents a significant cost savings, benefiting 
both the Total Force and the taxpayer. I am pleased to report that our 
prior service Air Force accessions have gone from 45 to 58 percent from 
fiscal year 2012 to fiscal year 2014. For instance, an Air Force pilot 
with 10 years of experience represents an investment of around $3 
million in formal training and millions more in operational training 
and experience. Within this 10 year period, the pilot has likely 
deployed and worked with coalition partners during combat operations 
and participated in large-force exercises such as Red Flag. The Air 
Force Reserve preserves and then further develops this experience, 
because the value of such investment in training and experience grows 
over an Airman's career and is impossible to replace quickly.
    Just as preserving experience benefits the Nation, integrating 
Reserve and Active Component forces creates efficiencies and fosters 
interoperability. The Air Force Reserve currently accounts for 
approximately two-thirds of the Air Force's associations. As we look to 
the future, informed by our guiding principles, we will continue to 
prioritize Total Force Integration initiatives to optimize the Air 
Force Reserve's contribution to the Air Force mission. We will remain 
ready--as one Air Force team-- to fly, fight and win.
Equipped & Ready
    As an integrated component of our Air Force, the Air Force Reserve 
must remain a relevant and capable force. We have maximized the service 
life of our systems with a combination of highly experienced 
maintenance personnel and priority modernization programs that ensure 
those Citizen Airmen called into combat are afforded the same level of 
weapons system capability as their Active Component counterparts. Our 
current modernization efforts revolve around upgrading legacy systems 
to enhance situational awareness and improve combat effectiveness. For 
example, we are upgrading our F-16 fleet with precision engagement 
enhancements such as advanced targeting pods, center display units and 
Helmet Mounted Integrated Targeting systems. We are modernizing many of 
our larger aircraft with defensive systems, such as Large Aircraft 
Infrared Countermeasures, next-generation threat detection systems and 
digital radar warning receivers to improve aircrew survivability and 
expand their mission envelope.
    The capacity preserved by the Reserve Component is only useful if 
it remains at parity, in proper balance and fully interoperable with 
Active Component and Joint Force capabilities. Since 1990, the average 
age of Air Force aircraft has increased from 17 to 27 years, with the 
oldest airframes residing mostly in the Reserve Component. Despite our 
tireless modernization efforts and highly-experienced maintenance 
force, our aircraft and systems will eventually fail to keep pace with 
technological advances. Recapitalization of these weapon systems is 
required to ensure our unbroken support of defense requirements. Of 
significant concern to me is that unless the Air Force begins 
recapitalization of several Air Force Reserve airframes nearing 
obsolescence, a significant capability shortfall will soon threaten the 
operational capability and surge capacity upon which the Air Force, 
combatant commanders, and civil authorities now rely.
    For example, a significant portion of the Air Force Reserve 
inventory is comprised of legacy C-130H aircraft, most of which are 40 
years old and have exceeded the airframe design life. In addition to 
their primary tactical airlift and aeromedical evacuation roles, many 
of these airframes are used to conduct Reserve Component-only taskings 
here at home, including aerial spray and firefighting. Without 
deliberate recapitalization of our legacy C-130s, the Nation's tactical 
airlift capacity and these specialized missions could soon fall short 
of meeting operational requirements. Additionally, we need equipment 
enhancements, or we will not be able to operate in certain airspace in 
accordance with Federal Aviation Administration and International Civil 
Aviation Organization standards.
    Of similar concern to me, our six Low Density/High Demand (LDHD) 
HC-130 aircraft used in the Personnel Recovery and Combat Search and 
Rescue mission are not yet included in the Service's recapitalization 
plan. To optimize Air Force Reserve contributions to this high-
priority, LDHD mission set and help close the demand-requirements gap, 
we need to recapitalize our legacy HC-130 fleet with newer HC-130J 
aircraft.
Consolidated & Efficient
    In addition to modernizing and recapitalizing our equipment, we 
must continue to exercise good stewardship of our facilities and 
infrastructure. The Air Force Reserve shares many facilities with the 
Active Component, which bolsters our cost-efficiencies. We have nine 
Air Reserve bases and are tenants at 58 locations. The Air Force 
Reserve shares approximately 80 percent of space at tenant locations 
including over 17.1 million square feet of facilities, primarily 
aircraft hangars and maintenance shops, with our active duty 
counterparts. While sharing facilities, equipment and aircraft reduces 
overhead costs, we require military construction dollars to modernize 
and maintain existing infrastructure. This year we requested $65 
million for the following modernization projects and their planning and 
design.
  --Guardian Angel Operations Facility at Davis Monthan Air Force Base, 
        Arizona
  --Small Arms Firing Range at Youngstown Air Reserve Station, Ohio
  --Medical Training Facility at Joint Base San Antonio, Texas
  --Aircrew Life Support Equipment Facility at Patrick Air Force Base, 
        Florida
  --Satellite Fire Station at March Air Reserve Base, California
    To make the best use of limited resources we will continue 
modernizing our facilities while reducing our footprint. Air Force 
Reserve Command will accomplish this by consolidating functions where 
possible and demolishing or divesting unnecessary, resource-draining 
infrastructure. We will continue to request funds to buy down our $1 
billion military construction facilities backlog. Our Facility 
Operations Capability Utilization Study process ensures we make every 
dollar count!
Resilient & Connected
    Without question, our people--the men and women and their families 
who make up the Air Force Reserve--are our greatest strength and must 
be our top priority. Yet, ongoing budget uncertainty and arbitrary 
fiscal constraints degrade our readiness, hurt our people, and strain 
our ability to properly train and equip our force. On top of these 
challenges, with a 75 percent part-time force, our Citizen Airmen must 
effectively balance their civilian and military careers, while 
remaining attuned and responsive to the needs of their families. They 
do so remarkably well, but we must continue to strengthen our community 
of Citizen Airmen. In this area, I ask for Congress' continued support 
as you have provided in the past.
    A unique challenge we face is driven by our reliance on dual-status 
(Title 5 and Title 10, U.S. Code) Air Reserve Technicians (ARTs) to 
provide full time support for the Reserve force. Dual-status ARTs 
represent over half of the Air Force Reserve's full-time workforce, 
many of whom serve as senior leaders. ARTs provide continuity for day-
to-day operations and maintain responsibility for training and 
equipping traditional, part-time reservists. Unfortunately, ARTs remain 
vulnerable to furloughs and other setbacks experienced by government 
civilian employees. We cannot let another round of furloughs impact our 
Air Reserve Technicians. This has a direct impact on our readiness and 
responsiveness.
    Also, as we continue to grow and develop our force, we must remain 
committed to taking care of our Airmen. The key to fostering strong and 
resilient Citizen Airmen is maintaining a healthy reserve-work-life 
balance, something that is unique to the Reserve Component. Balancing a 
military career with both a civilian career and family demands is 
challenging. Last year the Air Force Reserve tragically lost ten Airmen 
to suicide, which was ten losses too many. This year our theme is, ``I 
am connected.'' We want Citizen Airmen to have the resources available 
to develop a culture of resilience they can share with each other and 
their families.
    One of the challenges we face is keeping Airmen and their families 
connected even when they are not in military status. Unlike the Active 
Component, many of our Airmen don't live near a base or installation 
where they have ready access to services on a day-to-day basis. In 
order to overcome this challenge, we are focusing efforts on creating 
and sustaining programs that support our Airmen no matter where they 
live.
    The Air Force Reserve launched the Wingman Toolkit website and 
mobile application in 2010 that offers a ``one-stop-shop'' for 
resources and useful tips on all four components of the Comprehensive 
Airmen Fitness (CAF) model. CAF incorporates aspects of mental, 
physical, spiritual and social wellbeing of our Airmen. The Air Force 
recognized the power of this tool and is adopting it for the Total 
Force. This type of tool helps us reach our Airmen and their families 
even if they live far away from their units.
    The Air Force Reserve is further promoting the culture of military 
connection to spouses and families. We are working hard to grow our Key 
Spouse Program, which is an Air Force commander and family program 
designed to enhance readiness and ensure a sense of Air Force 
community. This program is a fantastic opportunity for spouses and 
families to get involved. We believe by strengthening the connections 
our Airmen have with each other and their families, we can build a 
stronger and more effective force.
    I also want to thank Congress for continued support of the Yellow 
Ribbon Program. Started almost a decade ago, this program supports Air 
Force Reserve members who are transitioning between their military and 
civilian lives. These fantastic events promote the well-being of 
reservists and their loved ones by connecting them with resources both 
before and after their deployments. Each year our command sends 
approximately 6,000 Citizen Airmen and their family members to these 
incredible events where they receive valuable information on 
educational benefits, healthcare, and available community resources.
    We are dedicated to taking care of Airmen in their military careers 
and beyond. DOD programs such as the Employer Support of the Guard and 
Reserve and Hero2Hired are essential in supporting our Airmen by 
providing the help and resources they need to succeed in their personal 
and professional lives. By taking care of Airmen, we honor their 
dedication and service to this Nation.
                               conclusion
    The Air Force Reserve remains an integrated and combat-ready force, 
providing readily accessible daily combat capability, strategic depth, 
and surge capacity. We are proud to be an indispensable Air Force 
component supporting our national security. Our Citizen Airmen stand 
ready as a counterweight to instability and a hedge against future 
uncertainty, postured to defend our Nation against the threats of today 
and tomorrow. Thank you for your continued support.

    Senator Cochran. Thank you.
    Admiral Braun.
STATEMENT OF VICE ADMIRAL ROBIN R. BRAUN, CHIEF, NAVY 
            RESERVE
    Admiral Braun. Chairman Cochran, Vice Chairman Durbin, and 
distinguished members of the subcommittee, thank you for the 
opportunity to present an update on the United States Navy 
Reserve.
    With me today is Force Master Chief C.J. Mitchell, and 
we're honored to represent more than 58,000 Reserve sailors and 
their families who proudly serve our Nation.
    We appreciate the Senate resolution marking this year's 
centennial of the Navy Reserve, and recognizing the service and 
sacrifice of Navy Reserve sailors past and present. These 
citizen sailors represent every State in the Nation and have 
proudly served in every military contingency since World War I 
to present operations.
    The Navy Reserve continues to be operationally engaged and 
integrated with the Navy, Marine Corps, and Joint Force. 
Reserve contributions have been critical to the Navy's ability 
to operate forward.
    Over the past year, the Navy met combatant commander 
requirements with tailored force packages ranging from 
individual sailors to full units. In 2014, our sailors filled 
75 percent of the Navy's individual augmentee requirements 
while our Seabee battalions and coastal riverine squadrons 
conducted rotational deployments to Afghanistan, the Middle 
East, and Africa.
    Although today's Navy Reserve is 34 percent smaller than it 
was in 2000, the PB-16 (President's budget for fiscal year 
2016) requested end-strength is based on continual efforts to 
optimize Reserve Force structure and employment. PB-16 will 
sustain the Navy Reserve's ability to be operationally engaged 
and ready to respond where it matters and when it matters.
    There are, however, mission areas where we face increasing 
risks. Almost 15 years of increased OPTEMPO have taken a toll 
on the equipment our sailors operate, especially in naval 
aviation. This OPTEMPO combined with the current fiscal 
environment increases the importance of having the flexibility 
to make the best investment decisions with available resources, 
such as funding from the National Guard and Reserve Equipment 
Account.
    Aircraft recapitalization is absolutely our top equipping 
priority for the Navy Reserve. For example, the C-48 transport 
aircraft is needed to provide flexible and responsive airlift 
in support of fleet operations around the world.
    We also face continuing challenges in manning some of our 
high-demand career fields and appreciate the committee's 
support in providing accession and retention bonuses.

                           PREPARED STATEMENT

    The Navy Reserve is keeping pace with evolving missions, 
leveraging the skills our sailors bring from the private sector 
to help develop innovative technologies and capabilities. For 
example, our sailors with civilian cyber skills are integrating 
into the cyber mission force, and units are standing up to 
support unmanned systems and the newest surface platforms.
    The Navy Reserve will remain operationally proficient, 
highly trained, and surge-ready to meet the needs of the 
Nation. On behalf of our dedicated citizen sailors, I thank the 
members of the committee for your support and welcome your 
questions. Thank you.
    [The statement follows:]
           Prepared Statement of Vice Admiral Robin R. Braun
                              introduction
    Chairman Cochran, Vice Chairman Durbin, and distinguished members 
of the Subcommittee; thank you for the opportunity to present an update 
on the United States Navy Reserve. This year, as we celebrate the 
Centennial of the Navy Reserve, I am especially honored to represent 
more than 58,840 skilled and dedicated Reserve Sailors and Navy 
Civilians, as well as their families. From every State and territory, 
our Citizen Sailors have mobilized over 73,000 times in every theater 
of operations since 2001. This includes 2,947 personnel who deployed 
last year to support operations around the globe. On behalf of the 
entire Navy Reserve, I would like to extend my sincere gratitude for 
your continued support.
    The Navy Reserve is more operationally engaged and integrated today 
than we have been in decades. Our contributions to the Total Force have 
proven critical to supporting the Navy's strategic plan to meet the 
Nation's security needs as determined by the 2012 Defense Strategic 
Guidance (DSG) and the 2014 Quadrennial Defense Review (QDR). The QDR 
calls for the Joint Force to ``rebalance'' in four areas, one of which 
is, ``rebalancing capability, capacity and readiness . . .'' The Navy 
Reserve specifically assists the Navy in this effort through our 
operational capabilities, flexible and timely surge capacity, and 
unique force structure. Full integration of these elements and 
capabilities provides the Navy and Joint Force flexible and reliable 
strategic depth and on-demand capabilities that are, ``Ready now, 
Anytime, Anywhere.''
                          a century of service
    The Navy Reserve was established by Congress in 1915, and for 100 
years Reserve Sailors have answered the Nation's call to duty, serving 
in every U.S. conflict and national emergency. Since the terrorist 
attacks of September 11, 2001, Navy Reserve Sailors have been mobilized 
on shore and at sea, delivering security both at home and abroad, and 
providing tens of thousands of ``boots on the ground'' in places like 
Iraq, Kuwait, Afghanistan, and the Horn of Africa. Although today's 
Navy Reserve is dramatically smaller than the days when we made up 84 
percent of the Navy's WWII force, we are more deeply integrated, 
operationally focused and combat proven than we have been in decades.
    March 3, 2015 marked the Centennial of the Navy Reserve, providing 
a tremendous opportunity to recognize the contributions made by Navy 
Reserve Sailors over the past century. This year, at commemoration 
events across the country, we are highlighting how Citizen Sailors have 
responded during key times in our Nation's history, and how they still 
stand ready to serve. We look to the future and see a Navy Reserve, 
``Ready then, Ready now, Ready always!''
                         operationally engaged
    Over the past year, the Navy responded to Combatant Commander 
(CCDR) requirements with tailored force packages of Reserve units and 
personnel. Reserve Component (RC) solutions met the full range of 
support required, from Navy core missions to CCDR ad-hoc requirements.
    Our force structure provided integration options ranging from the 
mobilization of an entire unit to the activation of a single Individual 
Augmentee (IA) Sailor. In support of their strategic surge roles, non-
mobilized Sailors maintained their readiness through training and 
operational support to the Fleet. This model delivers increased 
flexibility and depth to the Total Force, and the experience gained by 
Reserve Sailors through mobilizations and operational support enhances 
the Navy Reserve's interoperability with the Active Component (AC) and 
the Joint Force.
    The newly published revision of A Cooperative Strategy for 21st 
Century Seapower states the following:

     ``To ensure our active and reserve Sailors, Marines, and Coast 
        Guardsmen-as well as civilians-remain our greatest asymmetric 
        advantage; we will...Optimize the total force mix by 
        strategically employing the Selected Reserve, managing 
        differentiated talents to create more adaptive and agile 
        warriors, and expanding Service opportunities to a wider 
        population in support of peacetime operations and to provide 
        essential surge capacity.'' \1\
---------------------------------------------------------------------------
    \1\ CS21 Revision--A Cooperative Strategy for 21st Century 
Seapower.

    In line with this vision, we are engaging with Resource Sponsors to 
operationalize more of our RC to support steady-state operations and 
provide essential surge capacity.
    As we reflect on the accomplishments of 2014, the Navy is already 
moving toward this vision. Last year the Navy Reserve was heavily 
engaged with deployments by Navy Mobile Construction Battalions (NMCB), 
Cargo Handling Battalions, Coastal Riverine units, Maritime Patrol 
squadron detachments, and Special Operations Force (SOF) capabilities 
delivered by both Reserve helicopter squadrons and RC SEAL Team units. 
Reserve Sailors filled 75 percent of the Navy's total IA requirements, 
enabling AC Sailors to fill critical at-sea billet vacancies. Reserve 
Sailors also provided direct support to CCDR and Fleet operations and 
exercises including RIMPAC, COBRA GOLD, and URGENT PROVIDER, 
comprehensively delivering greater than two million man-days of 
operational support.
    In 2014, the Navy Reserve's flexibility facilitated assumption of 
the High Value Unit (HVU) escort mission from the Coast Guard at 
Groton, CT. Navy Expeditionary Combat Command's (NECC) Reserve Coastal 
Riverine Squadrons surged to meet this new requirement. By leveraging 
RC Sailors' experience gained through deployments in support of OCO 
missions, Navy Reserve Sailors will assume full mission responsibility 
for escorts in the ports of Hampton Roads, Mayport, Puget Sound and San 
Diego by the end of fiscal year 2016. This Total Force solution enables 
Navy's AC units to remain on their established operational deployment 
schedule.
    SEAL Teams 17 and 18 are Navy Reserve units that provide SOF 
capabilities to CCDRs by deploying SEAL, Special Warfare Combatant 
Craft (SWCC) and combat service support personnel. The manner in which 
Naval Special Warfare (NSW) employs their RC Sailors is carefully 
considered and designed to deliver strategic benefits. They leverage 
the maturity, continuity, and experience offered by RC Sailors to 
generate long term region-specific expertise and cultural understanding 
and to cultivate a network of partners. NSW has also been drawing on 
their Reserve Sailors with specialized civilian experience to develop 
Unmanned Aerial System elements which provide vital augmentation to 
critical SOF missions.
    Through ongoing mission analysis of the Navy Total Force 
Integration Strategy, U.S. Fleet Cyber Command has developed a Reserve 
Cyber Mission Force Integration Strategy that leverages our Reserve 
Sailors' skill sets and expertise to maximize the Reserve Component's 
support to the full spectrum of cyber mission areas. Within this 
strategy, the growth of 298 Reserve billets from fiscal year 2015 
through fiscal year 2018 will be individually aligned to Active 
Component Cyber Mission Force teams and the Joint Force Headquarters-
Cyber. Accordingly, the Joint Force Headquarters-Cyber and each Navy-
sourced team will maximize its assigned Reserve Sailors' particular 
expertise and skill sets to augment each team's mission capabilities. 
As our Reserve Cyber Mission billets come online and are manned over 
the next few years, we will continue to assess our integration strategy 
to take advantage of RC Sailors' military and civilian expertise.
    Commanders in the field have noted that the civilian professional 
expertise of Reserve Sailors enhances their military capability. As one 
Joint Task Force Commander recently noted, ``The background and 
contemporary industry knowledge members of the Navy Reserve bring to my 
organization cannot be understated--they bring a unique set of skills 
which consistently results in a better solution or product when they 
work side by side with their active duty counterparts, government 
civilians and contractors.'' It is the unique combination of civilian 
and military experience and skills provided by Reserve Sailors that can 
offer the diversity of thought and insights which regularly generate 
innovation and act as a force multiplier.
                      navy reserve force readiness
    The Navy Reserve focuses on providing Sailors who are available for 
mobilization at a moment's notice. Reserve Personnel, Navy (RPN) 
funding is essential to providing trained and ready Sailors to support 
the Navy, Marine Corps, and the Joint Force. On any given day, 
approximately 90 percent of eligible Sailors are mobilization ready. It 
is important to understand that mobilization readiness involves more 
than just training our Sailors for their jobs; it also includes 
ensuring our Sailors' resilience through medical, physical, spiritual 
and family readiness. In addition to RPN, these programs are supported 
with Overseas Contingency Operations (OCO) funding.
Personnel Readiness
    Discretionary RPN funding in PB-16 is the primary means with which 
we generate readiness and provide operational support to the Fleet and 
CCDRs. A unique advantage of these funds is the immediacy with which 
they can be allocated to provide timely manpower and capabilities to 
support emergent requirements anywhere they are needed. As historical 
execution rates show, every dollar of RPN contributes to operational 
support, and I thank the committee for its continued support of 
discretionary RPN funding.
    In addition to providing operational support for CCDRs, OCO ADT 
funds are used to provide RC Sailors with essential mobilization 
training. OCO funds also support critical resilience programs delivered 
via the Yellow Ribbon Reintegration Program (YRRP) to help RC service 
members and their families before, during, and after deployments. YRRP 
programs promote awareness and understanding of available resources to 
address unique challenges faced by Navy Reserve Sailors, especially as 
they reintegrate into their communities, families, and civilian jobs 
after mobilization. Reserve specific programs like these are necessary 
because, in many cases, our Sailors reside far from military 
installations where support services are traditionally provided. We are 
focused on building a culture where asking for help is encouraged and 
looked upon as a sign of strength. These programs are vital in 
providing the continuum of care for our Sailors.
Equipping the Navy Reserve
    Almost 15 years of increased operational tempo have taken a toll on 
a significant portion of the aircraft and other equipment our Sailors 
operate. In order to safely accomplish our assigned missions and 
seamlessly integrate with the AC, the Navy Reserve depends on modern 
and reliable hardware. As noted in DOD's fiscal year 2016 National 
Guard and Reserve Equipment Report, the Navy Reserve's top equipping 
challenges ``continue to be aircraft procurement.'' \2\
---------------------------------------------------------------------------
    \2\ Fiscal Year 2016 DOD National Guard and Reserve Equipment 
Report.
---------------------------------------------------------------------------
    Aircraft recapitalization is absolutely our number one equipping 
priority. It is critical for the Navy Reserve's ongoing operational 
support to the Naval Aviation Enterprise, and my staff has been working 
closely with the Active Component Resource Sponsors to address the Navy 
Reserve's future resourcing concerns.
    Fiscal constraints have created an environment where we must be 
increasingly focused on extending the life of every piece of 
infrastructure and hardware; however, each has a finite lifespan and we 
accept increasing risk as we approach that limit. Even when we are able 
to extend the life of legacy equipment such as F/A-18A+ and P-3C 
aircraft, we cannot overcome the resulting interoperability barriers 
and maintenance issues associated with extended service.
    The Navy Reserve's Tactical Support Wing (TSW), comprised of five 
Reserve squadrons, provides adversary training to the Fleet and assists 
in Fleet Replacement pilot production. Two of these squadrons, VFA-204 
and VFC-12, fly F/A-18A+ aircraft as the Navy's strategic reserve of 
Carrier Air Wing (CVW) tactical aircraft. They maintain their readiness 
by filling a fleet operational support role of providing dedicated 
adversary support, also known as ``Red Air'', for Fleet Replacement 
Squadrons and deploying CVWs. Effective air-to-air training requires a 
skilled Red Air opponent and the TSW provides the Navy's recognized 
experts at adversary flying.
    VFA-204, home-based in New Orleans, and VFC-12, home-based in 
Virginia Beach, are operating legacy F/A-18A+ Hornets that are nearing 
the end of their service life. As a group, the aircraft assigned to 
VFA-204 and VFC-12 are the oldest Hornets in the Navy, resulting in 
increased maintenance challenges. Reserve leadership is working with 
the Active Component to ensure our Reserve VFA community remains viable 
in the future.
    Our Electronic Attack Squadron, VAQ-209, completed its transition 
from the EA-6B to the EA-18G Growler and was certified `Safe for 
Flight' in May 2014. VAQ-209 has been deploying with the legacy EA-6B 
as part of Navy's expeditionary Airborne Electronic Attack deployments 
since 1995. They are scheduled to deploy with their new electronic 
attack aircraft in fiscal year 2016.
    The Navy's strategic depth in the Maritime Patrol and 
Reconnaissance Aircraft (MPRA) community consists of two squadrons, VP-
62 and VP-69, both of which operate legacy P-3C Orion aircraft. These 
units, based in Jacksonville, FL, and Whidbey Island, WA, have been 
instrumental in filling operational gaps in both deployed and homeland 
defense roles as the AC MPRA community transitions to the P-8A 
aircraft. By incorporating Reserve VP Squadrons into the deployment 
cycle, the Active VP squadrons will be fully transitioned to the new P-
8A by fiscal year 2019.
    Within the Fleet Logistics Support Wing, we will accept delivery of 
two C-40A cargo aircraft in fiscal year-2015, bringing our total 
inventory to 14 aircraft and a 15th C-40A will be delivered in fiscal 
year-2017. This will allow the Navy to continue fleet reconstitution 
following the 2014 divestiture of the inefficient and costly C-9B 
legacy aircraft. Navy Reserve C-40A cargo and passenger aircraft are 
classified as Navy Unique Fleet Essential Aircraft (NUFEA). As NUFEA 
they are critical supporting elements to all facets of Navy's deployed 
operations and are a prime enabler of Navy's support to CCDR 
requirements. The NUFEA C-40A program places the Fleet closer to 
realizing a more capable and cost-effective lift capability.
    Following the direction and expectations communicated by the 
defense appropriations subcommittees, the Navy Reserve used prior 
National Guard and Reserve Equipment Appropriations (NGREA) to meet 
readiness and operational requirements. For example, the Navy Reserve 
invested in four new fully-equipped MK VI Patrol boats for our San 
Diego and Little Creek RC Coastal Riverine Force; we have invested in 
sustaining the fleet of F-5 adversary aircraft based at NAS Fallon and 
NAS Key West; and we have modernized and purchased new communications 
equipment for RC Sailors in Navy Expeditionary Combat Command (NECC). I 
thank you for these funds that support our Nation's Citizen Sailors as 
they accomplish their mission.
                               facilities
    The Navy Reserve operates six region headquarters (Reserve 
Component Commands), two Joint Reserve Bases (JRBs) and 123 Navy 
Operational Support Centers (NOSCs). These facilities serve Navy 
Reserve Sailors and are located in all 50 States as well as Puerto Rico 
and Guam. Our NOSCs reside on and off DOD installations as both Navy-
only and Joint facilities. These facilities are a mix of stand-alone 
NOSCs, Navy-Marine Corps Reserve Centers (NMCRC) and Joint Armed Forces 
Reserve Centers (AFRC).
    We have made the best use of available military construction and 
facilities sustainment funding to provide the safe and modernized 
environment our Sailors need to maintain training and readiness. Where 
able, we have partnered with other service components to relocate NOSCs 
onto military installations to leverage existing infrastructure and 
share force protection efforts, such as the re-location of NOSC 
Pittsburgh, onto a USAF Reserve base. We have also partnered with other 
service components to establish tenancy in Joint Reserve facilities as 
we did with NOSC New Castle which now shares a facility with the 
Delaware National Guard. PB-16 supports the relocation of an additional 
stand-alone NOSC onto a DOD installation. In response to force 
structure adjustments and our commitment to gaining efficiencies across 
the Reserve Force, our Military Construction, Navy Reserve (MCNR) 
projects have enabled us to build modern, energy-efficient, and 
technologically current facilities.
    As a part of the Navy's Energy Program for Security and 
Independence, the Navy Reserve continues to seek opportunities to gain 
energy efficiencies through modernization and new construction. For 
example, in fiscal year 2014 we funded seven collaborative energy-
saving projects that will generate ongoing annual savings.
    Our plans prioritize vacating obsolete buildings, such as the one 
currently occupied by NOSC Des Moines, a converted 1906 Cavalry barn 
listed on the National Register of Historic Places. In 2013, we 
partnered with the Marine Corps Reserve to construct a new Navy-Marine 
Corps Reserve Center. NOSC Des Moines is scheduled to transition into 
the new facility in 2017. Additionally, our plans also support the 
modernization and construction of two Joint Reserve Intelligence 
Centers (JRICs). These facilities are ``hubs'' of intelligence 
expertise that facilitate direct support to forward deployed 
warfighters and are a critical piece of the Joint Intelligence Program.
    Each year we direct our Facilities Sustainment, Repair and 
Modernization funds to address the highest priority modernization and 
repair projects. As can be expected with facilities located in every 
climate across the country, unforeseen events can trump planned 
projects when we are faced with major repairs that result from 
destructive weather events or deterioration issues. In any given year 
we are only able to address a portion of our total facilities 
sustainment requirement. Adequate facilities are necessary to keep Navy 
Reserve Sailors ready to mobilize and deploy forward. Your support 
represents an essential investment in the future health and readiness 
of the Navy Reserve's Citizen Sailors.
                            community impact
    Navy Reserve Sailors are the face of the Navy in communities 
throughout the Nation. As they interact with the American public on a 
daily basis, they showcase the pride and professionalism of the U.S. 
Navy while supporting civic, educational, and community events.
    Through the Secretary of Defense's Innovative Readiness Training 
(IRT) program, Guard and Reserve units conduct training missions that 
also support projects for underserved communities. During fiscal year-
2015, Navy Reserve Sailors will help construct roads and buildings at 
the YMCA of the Rockies in Granby, Colorado; develop infrastructure for 
housing developments in the Fort Belknap Indian Community near Harlem, 
Montana; and provide medical, dental and optometry services in 
Sikeston, Missouri; Binghamton, New York; and Tuskegee, Alabama. The 
IRT program is a synergistic approach to meeting operational readiness 
training requirements while executing valuable community service 
projects.
    Navy Emergency Preparedness Liaison Officers (NEPLOs) maintain 
strategic positions from which they respond to crises on a local, State 
or national level. NEPLOs plan and deliver integrated Navy support to 
civil authorities when domestic disasters occur. They are a cadre of 
senior RC officers who are trained to determine how Navy assets can 
best fulfill emergency response needs. As they train regularly with 
emergency response personnel and National Guard units, they develop 
working relationships which ensure timely access to Federal support. 
NEPLOs expedite responses when delays could result in greater damage to 
property or loss of life. In 2014, NEPLOs coordinated assistance for 
flooding in Colorado, a chemical spill in West Virginia, wildfires in 
California and Washington, severe winter storms in Pennsylvania, 
mudslides in Washington, and tropical storms in Hawaii. This Navy 
capability is maintained solely in the RC due to its part-time force 
structure requirement.
    Reserve Sailors also have the solemn duty of delivering funeral 
honors on behalf of a grateful Nation to American veterans across the 
country. NOSC presence in every State makes this support possible. Our 
Sailors execute this mission flawlessly with humility and compassion, 
often driving many hours to deliver these services. They are the 
deceased family's final reminder of the proud military service and 
sacrifice given by their loved one. Last year the Navy Reserve 
fulfilled 64 percent of the Navy's funeral honors requests, serving at 
35,308 funerals for Navy veterans.
                          health of the force
End Strength
    Although today's Navy Reserve is 34 percent smaller than it was in 
2000, the PB-16 requested Navy Reserve end strength of 57,400 is based 
on continuous efforts to optimize Reserve force structure and 
utilization. Today's force mix is the result of deliberate 
consideration of multiple factors including cost, accessibility, 
responsiveness, flexibility, capability and capacity. Thorough analysis 
shows that maintaining capacity in the RC provides reversibility, 
reducing the cost and time associated with reconstitution; and, 
augmenting AC units with Reserve Sailors provides strategic depth and 
surge capacity without the cost burden associated with full-time end 
strength.
    Each mission area has a different optimal AC/RC force mix. No 
single force mix solution can be applied across all of the diverse 
communities and enterprises within the Navy due to each having 
distinctive requirements. Additionally, emerging threats as well as 
technological and fiscal environments impact the optimal AC/RC mix. 
Regardless, the keys to success in each community and enterprise are 
the same--deliberate consideration of force mix beginning at concept 
development, and the application of a common cost assessment mechanism 
that accounts for the total life cycle cost of all personnel--active, 
reserve and civilian.
Recruiting and Retention
    Due to high retention and ongoing end strength reductions, the Navy 
Reserve was only able to accept 25 percent of applications from 
separating AC Sailors interested in a transition to the RC in 2014 (642 
of 2,560). As Navy Reserve end strength stabilizes in fiscal year 2016, 
we expect opportunities to increase. To further increase these 
transition opportunities, we have an ongoing effort to expand Continuum 
of Service (CoS) options that enables transitioning AC Sailors to bring 
their valued experience to the Reserve Force. Simultaneously, we are 
advertising opportunities for RC Sailors in specific ratings and year 
groups to transition to undermanned AC ratings in either a temporary or 
permanent capacity. Last year 291 RC Sailors permanently transferred to 
the AC. These CoS options enable the Navy to retain targeted skills and 
experience while supporting the needs of our Sailors.
    The Navy Reserve employs a focused bonus strategy to selectively 
target the specific skills and experience needed by the Navy. Selective 
Reenlistment Bonuses, affiliation bonuses and enlistment bonuses are 
used to improve retention and recruitment of Enlisted Sailors in these 
specialties. Officer accession and affiliation bonuses and special pays 
are used to maintain or increase manning levels by targeting 
undermanned pay grades in critical and undermanned skill sets.
    There are two specific communities that present a persistent 
challenge to meeting recruiting goals--Unrestricted Line (URL) officers 
and medical officers. During fiscal year-2014, Navy was only able to 
attain 87 percent of RC URL recruiting goals and only 67 percent of the 
RC medical officer recruiting goals. The challenge in meeting the URL 
goal is rooted in the single recruiting pool--officers transitioning 
from the AC--and high AC URL retention has limited the number of 
officers available to transition into the RC. As a result, URL 
affiliation bonuses are offered to officers from the EOD, SEAL, 
Surface, Submarine, and Aviation communities. Additionally, the Navy 
Reserve is authorized to use a limited Critical Skills Retention Bonus 
for Naval Special Warfare (SEAL) officers in an effort to reduce 
attrition in that community.
    Accessing Health Care Professionals, specifically medical officers, 
remains an even more significant recruiting challenge. Past 
Congressional action authorized Navy Reserve to expend resources to 
attract and retain these officers for critically undermanned wartime 
specialties. These incentives are still necessary and are used to 
partially overcome challenges that include impacts of mobilizations on 
civilian medical practices and significant income loss during military 
service.
Resilience Programs
    The Navy Reserve continues to lead the way in quality mental 
healthcare for our service members. Post Deployment Health Assessment 
(PDHA) compliance and periodic reassessments (PDHRA) for demobilizing 
Sailors are elements of the continuum of care that function as 
mechanisms through which Reserve Sailors can access reliable and 
quality mental healthcare. The medical foundation set forth by the 
PDHA/PDHRA will also be continually reassessed via the Mental Health 
Assessment (MHA) portion of the annual Periodic Health Assessment 
(PHA). The symptoms of Post-Traumatic Stress Disorder (PTSD) and 
Traumatic Brain Injury (TBI) or other related mental health conditions 
often do not manifest themselves immediately. This requires our leaders 
as well as every Sailor and their families to be ever vigilant and 
responsive to changes in Sailors' behavior and performance after 
mobilization.
    Balancing the demands of military service, family obligations, and 
a civilian career can be challenging and stressful. It is common for 
military families to experience stress before, during and after 
deployment. Family readiness impacts Sailor readiness, so building 
resiliency and support for families is essential to a Sailor's ability 
to focus on their mission.
    The Yellow Ribbon Reintegration Program remains the cornerstone of 
the Navy Reserve's deployment readiness and reintegration training 
programs. The need for this continuum of care will extend well beyond 
the return of last combat mobilized Sailor. A key program within the 
YRRP is the Returning Warrior Workshop, which focuses on the 
reintegration process for service members and their spouse/family 
member, and helps identify Sailors in need of follow-on care.
    Navy Reserve's Psychological Health Outreach Program (PHOP) ensures 
remotely located Reserve Sailors have access to appropriate 
psychological healthcare services. PHOP counselors provide Operational 
Stress Control (OSC) briefings to Reserve Sailors across the Nation. In 
2014, PHOP counselors completed 355 NOSC and Navy Mobilization 
Processing Site visits, completing 2,637 Behavioral Health Screenings 
(BHS) and over 30,000 individual contacts. Additionally, they served as 
facilitators at 14 RWWs to help identify Sailors or families in need of 
support. This year's implementation of Resiliency Check-ins (RCI) 
allowed PHOP counselors to provide one-on-one behavioral health 
assessments that include on-the-spot initial and follow-up referrals 
when needed. This removes any perceived stigma to seeking help and is a 
proven way to ensure Sailors receive the mental healthcare they need. 
Referrals to nonmedical counseling support military families with a 
variety of common concerns that can occur within the military lifestyle 
including anger, loss, grief, separation, and stress reactions to 
deployment cycles/reintegration.
Prevention Programs
    The Navy Reserve is committed to eradicating suicide and sexual 
assault from our ranks. Prevention through education, awareness and 
training continues to gain increased traction across the Force in both 
of these areas.
    The Navy Reserve is concerned about the increase in suicides from 
2013 to 2014 and is focused more than ever on stress navigation and 
resilience-building tools to empower our Sailors to thrive, not just 
survive. Navy Resilience and Suicide Prevention Programs promote 
community and focus on comprehensive wellness. The Navy Reserve is 
actively engaged in cross-functional teams charged with suicide 
prevention efforts and is assisting with the development of the Defense 
Strategy on Suicide Prevention. Additionally, RC members have access to 
PHOP counselors 24/7/365. With an all-hands approach of ``Every Sailor, 
every day'' we are committed to ensuring every Shipmate knows they are 
valued, have resources available, and understand that asking for help 
is part of operating as a team and is a sign of strength.
    The Navy Reserve fosters a climate that is intolerant of sexual 
assault and other unacceptable behaviors such as sexist language and 
behavior, hazing, and sexual harassment. Leaders at all levels continue 
to stress personal responsibility and accountability for decisionmaking 
and behavior. We promote a culture of treating all with dignity and 
respect while living by the Navy's Core Values both on and off duty. To 
further our Sexual Assault Prevention and Response (SAPR) efforts, we 
assigned a dedicated SAPR Officer at our Navy Reserve Force 
Headquarters to coordinate continued training and focus on eradicating 
sexual assault and destructive behaviors from our Force. This year, we 
continue to focus on Bystander Intervention Training which teaches 
Sailors intervention techniques to prevent destructive decisions, 
thereby empowering them to take action and stop behaviors not aligned 
with our Core Values and Navy Ethos.
    The Navy Reserve has played an important role in the Victims' Legal 
Counsel (VLC) Program since it was established in August 2013. Reserve 
judge advocates have filled over one-third of the billets in the 
program since its inception, providing corporate knowledge that best 
supports victims of sexual assault. Reserve Sailors also initially 
manned 3 out of 5 Regional VLC Officer-in-Charge (OIC) positions. Many 
Reserve judge advocates have handled similar issues in the civilian 
sector and are uniquely qualified to provide leadership, litigation 
experience, and program policy development in support of sexual assault 
victims. A trusted VLC program encourages reporting by victims who will 
only step forward if they know their rights will be protected through 
the investigation and adjudication phases.
                         strategic imperatives
    As the Navy transforms to meet future demands as determined by the 
DSG and QDR, so too, will the Navy Reserve. In alignment with CNO's 
guidance, we will continue to build on the operational proficiency we 
have gained to remain ready to respond to emerging missions. We are 
also expanding our ability to draw on the civilian skills of our highly 
diverse and multitalented personnel, building an innovative team for 
the future.
    As the maritime battle-space continues to evolve and technology 
expands at ever increasing rates, the Navy Reserve is being guided by 
five Strategic Imperatives:
    First, we will keep pace with the Navy's future capabilities, 
integrating with the newest platforms and missions. Navy Reserve 
Sailors will continue to play a critical role as part of the Total 
Force, with opportunities for careers using the latest technology, 
while supporting the newest platforms.
    Second, we will maintain a ready force for tomorrow. We will remain 
operationally proficient, ensuring a ready, highly trained, and surge-
capable Force. Ready Sailors enable the
    Reserve Component to have a tremendous impact on Fleet and 
Combatant Commander operations around the globe. Our Force continues to 
aggressively seek opportunities to conduct and support missions with 
our Fleet and Joint commanders.
    Third, we will broaden the manner in which we employ each Sailor's 
unique capabilities, leveraging their military and civilian skills in 
support of future requirements. Our Sailors have unique capabilities 
derived from a combination of military and diverse civilian skills. 
Whether a tradesman, first responder, executive, or licensed 
professional, the Navy has long benefitted from the civilian 
experiences of our Sailors. To harness this tremendous asset, we will 
catalogue the specific skills of our Sailors and look for opportunities 
to use them as a force multiplier.
    Fourth, we are working to consolidate and modernize the systems 
used to enable and manage Sailor readiness, while ensuring security and 
improving Sailor access to those systems. With the distributed nature 
of the Reserve work force, utilizing a single secure log-in to access 
the various Internet-based operational, training and management 
applications, and integrating mobile and cloud-based IT solutions will 
reduce the time and effort associated with meeting readiness and 
training requirements.
    Fifth, we are examining initiatives to provide more flexible 
options for a career of service. Our people, Sailors and civilians 
alike, are what make our Navy Reserve strong. We are working to deliver 
expanded officer and enlisted professional development opportunities 
focused on enhancing leadership skills, character development, and 
reinforcing our Navy ethos. Critical to developing future leaders is 
our ability to access and retain high-performing, knowledgeable Sailors 
and civilians who are innovative and desire to continuously learn. To 
this end, we will expand Continuum of Service options to enable Sailors 
to more easily transition between the Active and Reserve Components, 
thereby increasing the agility of the Total Force.
                               conclusion
    As the Navy Reserve embarks upon our second century of service, we 
continue to be operationally engaged and ready to respond--where it 
matters, when it matters. As good stewards of our Nation's resources, 
we have sought and will continue to seek efficiencies while 
prioritizing mission effectiveness. PB-16 will sustain the Navy 
Reserve's preparedness to surge when and where needed. While concerns 
remain--the foremost being aviation recapitalization--we will continue 
to work in concert with the AC to optimize utilization of the Reserve 
Component through continued innovation, force mix modifications, and 
process improvements. As we consider future force mix and force 
structure, we will continue to look for opportunities to recapitalize, 
modernize and improve our equipment and facilities and, when necessary, 
mitigate the risks associated with extending their service life. The 
future Navy Reserve is a Force that keeps pace with warfighting 
capabilities and technology, while persistently identifying new ways to 
improve how we support and care for our Sailors and their families. On 
behalf of all the dedicated Citizen Sailors who serve our great Navy, I 
thank the members of the Committee for your support.

    Senator Cochran. Thank you, Admiral.
    General Mills.
STATEMENT OF LIEUTENANT GENERAL RICHARD P. MILLS, 
            COMMANDER, MARINE FORCES RESERVE
    General Mills. Chairman Cochran, Vice Chairman Durbin, 
distinguished members of the subcommittee, it's an honor to 
appear before you today to talk about your Marine Corps 
Reserve.
    Mr. Chairman, we welcome your leadership, and I'm very 
grateful for your support and the subcommittee's continued 
support of the Marine Forces Reserve and its associated 
programs to help us segment, reinforce, and sustain ourselves 
as an integral part of the Marine Corps total force.
    With me today are my senior enlisted advisers, Force 
Sergeant Major Anthony A. Spadaro and Force Command Master 
Chief Christopher D. Kotz. Their collective leadership and 
energy continue to inspire me and inspire all of the enlisted 
marines and sailors who are the heart and the soul of Marine 
Forces Reserve.
    As an Active component officer with nearly 40 years of 
service, it's been my honor and privilege to serve alongside 
the Marine Corps Reserve for the past 2 years. During that 
time, I've been consistently impressed by their 
professionalism, their professional competence, and their 
dedication to duty. Like their Active Duty component commanders 
and brothers and sisters, they serve selflessly to protect our 
great Nation. I'm awed by the way they balance family 
responsibilities, their civilian lives, their civilian jobs, 
their civilian careers, all while simultaneously keeping faith 
with the Marine Corps.
    While this has always been true of our Reserves, I think 
it's never been more apparent than over the past 14 years of 
conflict. Over the past 14 years, our force has evolved from 
essentially a strategic capability to both an operational and 
strategic capability.
    In the operational role, Marine Forces Reserve contributes 
to preplanned, to rotational, and to routine combatant 
commander and service requirements across the full range of 
military operations.
    In the strategic role, Marine Forces Reserve supports the 
combatant commanders with exercise involvement and with force 
readiness that enables a rapid transition to operational roles, 
if called on. We provide individual augmentation for regional 
Marine Forces and to Marine Expeditionary Force staffs in order 
to reinforce active components across all the warfighting 
functions.
    We continue to enjoy a strong demand for affiliation with 
the Reserves. It's evidenced by our increase accessions to the 
Active component as well as our high rates of retention. Our 
retraining, our Inactive Duty travel reimbursements, our 
bonuses, and our incentive programs for Reserves have been 
essential tools in achieving nearly 100 percent of our 
authorized end-strength in fiscal year 2014.
    The continued use of these programs is critical as we seek 
to optimally align our inventory to our requirements, as we try 
to maintain individual and unit-level readiness, and as we 
address shortfalls in staff non-commissioned officer and junior 
commissioned officer leadership, and, again, try to maximize 
our deployability for our incumbent personnel.
    The Marine Corps is the Nation's crisis response force, and 
they continue to be most ready when our Nation is least ready. 
As part of the Marine Corps total force, the Marine Forces 
Reserve is appropriately organized, manned, trained, and 
equipped to provide forces to augment, reinforce, and sustain 
the active component in support of this Nation.
    While training, maintenance, and readiness are my top 
priorities, my top procurement priority for Marine Forces 
Reserves is the 
KC-130J Super Hercules. My second procurement priority is the 
RQ-21 Blackjack small tactical unmanned aircraft system. This 
will allow us to leverage our capability with the Active force 
to best contribute to overall mission success.

                           PREPARED STATEMENT

    The future operating environment will continue to be 
characterized by challenges that will stretch the deployment 
capacity of the U.S. military. It will demand a force readiness 
with global response capabilities.
    With your sustained, unwavering support, Marine Forces 
Reserve will continue to serve as the crucial shock absorber 
for our active component. Thank you for your demonstrated 
support our reservists, for their families, and for their 
employers.
    Chairman Cochran, esteemed members, I look forward to your 
questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Richard P. Mills
                              introduction
    The Marine Corps is the Nation's expeditionary force in readiness. 
For approximately 6 percent of the defense budget, we provide an 
affordable, capable and responsive insurance policy for the American 
people. As an integral part of the Total Force, Marine Forces Reserve 
plays a key role in providing that insurance policy. W e have been 
fully engaged across the globe over the past 14 years of combat 
operations, serving as the essential shock absorber for our Active 
Component. Organized like a traditional Marine Air-Ground Task Force, 
Marine Reservists from each of our major subordinate commands--4th 
Marine Division, 4th Marine Aircraft Wing, 4th Marine Logistics Group, 
and Force Headquarters Group have made a tremendous impact across a 
diverse spectrum of operations in support of every geographic combatant 
commander's operational and theater security cooperation requirements, 
as well as Service commitments.
    The Marine Corps' commitment to the American people is as strong 
today as ever in its 239-year history. That commitment is backed by a 
cadre of Active and Reserve Component Marines and Sailors exceptionally 
experienced in taking the fight directly to the enemy. Our Marines have 
been doing what they have done best since 1775: standing shoulder-to-
shoulder to fight and win our Nation's battles. We don't differentiate; 
all Marines--whether Reserve or Active Component--are disciplined, 
focused, and lethal. We are a Total Force and, as such, the Marine 
Corps Reserve continues to be integrated in all areas of the Marine 
Corps.
    I am deeply impressed by the professionalism, competence, and 
dedication of our Reserve Marines. Like their active-duty brothers and 
sisters, they serve selflessly to protect our great Nation. I am 
inspired by the way they balance family responsibilities, civilian 
lives, school, jobs, and careers--while simultaneously keeping faith 
with the Marine Corps. They do so with humility, without fanfare, and 
with a sense of pride and dedication that is consistent with the great 
sacrifices of Marines from every generation.
    As an integral element of the Total Force, the Reserve Component 
must remain highly interoperable. Our Marines and Sailors share an 
expeditionary mindset that shapes Marine Corps culture, ethos, and 
thinking. Accordingly, your Marine Corps Reserve is organized, manned, 
equipped, and trained to provide a professionally ready, responsive, 
and relevant Force as a Marine Corps solution to enable joint and 
combined operations. We are, and will remain, a key component in the 
Marine Corps' role as the Nation's expeditionary force in readiness.
                             a total force
    Over the past 14 years, the Marine Corps Reserve has been engaged 
in combat operations and large-scale counterinsurgency in Iraq and 
Afghanistan, as well as in regional security cooperation, crisis 
response, and crisis prevention activities in support of geographic 
combatant commanders. This persistent operational tempo has built a 
depth of experience through the ranks that is unprecedented in 
generations of Marine Corps Reservists.
    In 2014, more than 1,100 Reserve Marines mobilized in support of 
operational requirements to include those in all geographic combatant 
command areas of operation. In 2015, we are projected to continue our 
support to the Combatant Commanders by mobilizing an additional 750 
Reservists. This operational tempo has enabled Marine Forces Reserve to 
remain an operationally-relevant Force over the last 14 years. Marine 
Forces Reserve has sourced preplanned, rotational, and routine 
combatant commander and Service requirements across a variety of 
military operations. We routinely supported operations in Afghanistan 
while simultaneously sourcing other combatant commander requirements 
across the globe. In 2014, nearly 3,700 Reservists participated in more 
than thirty exercises supporting combatant command requirements in 
eighteen countries spanning five regions of the world. Support to these 
operations and exercises is a critical way that we increase our 
operational readiness while enabling Total Force integration of the 
Reserve Component and the rapid transition to operational roles and 
support to major contingency operations. While large-scale operations 
are winding down, the demand for Marine Corps capabilities is only 
growing--from Amphibious Ready Groups/Marine Expeditionary Units and 
Special Purpose Marine Air-Ground Task Forces to Marines at embassies, 
Marine Forces Reserve will continue to serve as the shock absorber for 
the Active Component. The future operating environment will continue to 
be characterized by challenges that will stretch the employment 
capacity of the U.S. military and demand a force-in-readiness with 
global response capabilities. While our Nation emerges from years of 
major combat and counterinsurgency operations, we are not returning to 
a defensive posture. Marine Forces Reserve will again deploy more than 
3,000 Marines to a multitude of theater-specific exercises and 
cooperative security events that are designed to increase 
interoperability with our allies, as well as develop theater security 
cooperation activities.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographic combatant commanders in roles that include 
multi-lateral exercises--such as African Lion in Morocco, Peninsula 
Express in South Korea, and Maple Flag in Canada. The way ahead for 
Marine Forces Reserve includes deploying forces to meet high priority 
combatant commander requirements to include remaining committed to the 
Resolute Support Mission (NATO)/OPERATION FREEDOM'S SENTINEL (US).
    In addition to operational requirements, Marine Forces Reserve 
serves as the connecting file between the Marine Corps and local 
communities. We present the face of the Marine Corps to the American 
public across the Nation. With Reserve units located across the 
country, Marine Forces Reserve is uniquely positioned to interact with 
the public and communicate the Marine Corps story to our fellow 
citizens most of whom have little or no contact with the Marine Corps. 
Last year, for example, Marine Forces Reserve personnel and units 
conducted more than 350 local and regional community relations events 
across the country.
    Marine Forces Reserve continues to monitor the mobilization 
viability of the Individual Ready Reserve, which consists of more than 
68,000 contractually-obligated Marines who have fulfilled their active 
service commitment, and have returned to civilian life. The 
mobilization potential of the Individual Ready Reserve is monitored 
through the use of muster events, which are conducted at multiple 
locations across the country. The muster event is the Marine Corps' 
opportunity to physically inspect these Marines to ensure they meet the 
requirements for mobilization. These events also provide Marines the 
opportunity to address administrative issues; complete mental health 
and post-deployment screening; review Reserve obligations and 
opportunities; meet with military-friendly employers; meet prior 
service recruiters; and reconnect with fellow Marines. During fiscal 
year 2014, Marine Forces Reserve held 44 Muster events with 9,684 IRR 
Marines in attendance.
    In addition to participating in operational requirements across the 
globe and community relations events here at home, active-duty Marines 
assigned to our Inspector--Instructor and Reserve Site Support staffs 
dutifully execute the sensitive and crucial mission of providing 
casualty assistance to the families of our fallen Marines. By virtue of 
our geographic dispersion, Marine Forces Reserve personnel are well-
positioned to accomplish the vast majority of all Marine Corps casualty 
assistance calls and are trained to provide compassionate and thorough 
assistance to the families. Indeed, the majority of Marine Corps 
casualty notifications and follow-on assistance calls to the next of 
kin conducted made by our Marines. During calendar year 2014, our 
Inspector--Instructor and Reserve Site Support staffs performed 74 
percent of the total casualty calls performed by the Marine Corps. 
There is no duty to our families that we treat with more importance. 
This is proven by the professionalism of our Casualty Assistance Calls 
Officers (CACOs) and the compassionate assistance they provide well 
beyond the initial notification. We ensure that our CACOs are well 
trained, equipped, and supported by all levels of command through the 
combination of in-class and online training. Once assigned as a CACO, 
our Marines assist family members with planning the return of remains 
and the final rest of their Marine as well as assist with ensuring the 
proper documents are filed in order to receive the proper benefits. In 
many cases, our CACOs provide a long-lasting bridge between the Marine 
Corps and the family while providing support during the grieving 
process. The CACO is the family's central point of contact and serves 
as a representative or liaison to the funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 90 percent of all 
funeral honors rendered by the Marine Corps during calendar year 2014. 
As with casualty assistance, we place enormous emphasis on providing 
timely, compassionate, and professionally executed military funeral 
honors.
                             predictability
    The Marine Corps Reserve remains an integral part of the Total 
Force Marine Corps and continues to serve as an operationally-focused 
Force, whether it is integrated with Marine Forces in Afghanistan, 
serving as a Special Purpose Marine Air-Ground Task Force, or filling 
training and advising roles with security force assistance teams in 
direct support of combatant commanders' requirements. Consequently, 
your Marine Reserve Force continues to maintain a high level of 
operational experience as it continues to serve side-by-side with our 
Active Component counterparts. We must remain manned, trained, and 
equipped to ensure we maintain the ability to seamlessly integrate with 
and support the Active Component. However, we recognize the potential 
effect of the fiscal environment on our operational readiness, 
especially as we consider how to maintain the operational experience of 
the Reserve Force.
    Revisions to our Force Generation Model rotate Marine Reserve units 
through a 5 year Training and Readiness Plan to ensure units and 
personnel are ready to meet any challenge. The Training and Readiness 
Plan enables the Reserves to have two infantry battalions, an artillery 
battalion, a combat logistics battalion, and aviation capabilities, as 
well as an assortment of other forces combat-ready at any given time. 
This results in more than 3,000 Marines who are trained and ready to 
augment and reinforce a Marine Air-Ground Task Force, whether in 
support of a of a contingency response or part of a pre-planned, 
budgeted for, theater security cooperation mission.
    Our Training and Readiness Plan provides a level of predictability 
for both planners and our Reservist Marines while maintaining the 
``train as we fight'' philosophy. The Plan provides our Reservists, 
their families, and their employers, the ability to plan for upcoming 
duty requirements 5 years or beyond. This empowers service members to 
achieve the critical balance between family, civilian career, and 
service to our Nation while enabling employers to plan for and manage 
the temporary loss of valued employees. The key element in the Training 
and Readiness Plan is the integration of Reserve units, detachments, 
and individuals into Service and Joint level exercises, creating an 
environment of interoperability in years 2, 3, and 4 of the 5-year 
plan's cycle. The units are assessed in a culminating Integrated 
Training Exercise during the fourth year of the training cycle. The 
Training and Readiness Plan assures integration with the Active 
Component in training exercises conducted in the United States and 
overseas, and continues to facilitate the Total Force approach in the 
manner in which the Marine Corps achieved success demonstrated 
throughout combat operations.
                               personnel
    Marines and civilians are the foundation of all that we do. 
Individual Marines--both Active and Reserve--and civilians, make up the 
foundation of our Corps. The resources we dedicate to sustaining and 
developing this foundation directly contributes to the success of our 
institution. Our ability to recruit and retain high quality people 
directly equates to our ability to meet the Marine Corps' force-in-
readiness requirements. Marine Forces Reserve is committed to 
recruiting and retaining the highest quality people who meet prescribed 
mental and physical standards, and are ready in mind, body and spirit 
to execute their duties in the defense of our Nation.
    The vast majority of the Selected Reserve's authorized end strength 
of 39,200 in FYI5 fall under Marine Forces Reserve. The Selected 
Reserve is composed of Marines in four categories: Marines in Selected 
Marine Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees (IMAs), and service members in initial training. By fiscal 
year 2017, the Selected Reserve authorized end strength will decrease 
to 38,500 Marines. This force reduction is occurring without any loss 
of reserve capabilities through the voluntary release of Marines that 
no longer meet the military occupational specialty (MOS) requirement 
for their unit due to the force structure changes implemented in 2012 
and 2103. Each of these Marines is also being offered an opportunity to 
retrain to a new MOS now available at their current location.
    In addition to Selected Reserve Marines, Marine Forces Reserve 
administers approximately 68,000 Marines who serve in the Individual 
Ready Reserve, which is projected to continue to increase due to the 
Active Component end strength draw down.
    As the Marine Corps continues to draw down Active Component end 
strength, the option of continued service in the Reserve Component has 
become increasingly appealing to young Marines leaving active duty. 
Marines approaching the end of their current contracts, whether Active 
or Reserve Component, receive counseling on the tangible and intangible 
aspects of remaining associated with the Selected Reserve. We educate 
each transitioning Active Component Marine on opportunities for 
continued service in the Marine Corps Reserve through the Marine Corps' 
transition assistance and educational outreach programs.
    While we continue to enjoy strong demand for affiliation in Marine 
Forces Reserve--with high rates of retention as well as more Marines 
joining when they leave active duty--retraining, inactive duty travel 
reimbursement, bonus payments, and incentive programs are crucial to 
ensure we are able to meet our authorized end strength while also 
retaining our most talented Marines. Over the past 2 years, your 
support for these critical programs have helped improve our overall 
personnel end-strength at 99 percent of our total requirement and 
achieve a grade and MOS match rate of 82 percent. While we fully expect 
to meet our Selected Marine Corps Reserve retention and recruiting 
goals again this fiscal year, continued use of these programs are 
critical to optimally align our inventory against our requirements, 
maintain individual and unit-level readiness, address significant 
shortfalls in staff non-commissioned officer leadership, maximize 
Marine deployability, and fully rebuild readiness from previous force 
structure changes. Your continued support for bonuses and other 
initiatives that promote service to this great Nation will ensure our 
ability to gain and retain the very best service members.
                               equipment
    As an integral component of the total force, and to ensure 
operationally interchangeability with the Active Component, Marine 
Forces Reserve is manned, trained, and equipped in the same manner as 
the Active Component. While complete compatibility is difficult to 
achieve due to Service level priorities, equipment compatibility 
between the Active Component and Reserve Component is closer today than 
it has ever been--due largely to sustaining requirements of over 14 
years of continuous operational deployments. This level of 
compatibility with the Active Component comes at an increase in 
equipment maintenance cost due to the introduction of nonstandard 
equipment, the fielding of new systems, and the overall increase in the 
scale and complexity of equipment.
    Marine Forces Reserve equipment readiness levels are healthy and 
capable of supporting all home station training and our current 
operational deployments. Our efforts currently focus on Global Combat 
Support System-Marine Corps (GCSS-MC) post cutover actions, training 
our supply personnel and maintainers on the new system, and adjusting 
equipment inventories to the recently approved Training Allowances, and 
maintaining our equipment in a fully operational status. Continued 
Congressional support in fully funding our Operations and Maintenance, 
Marine Corps Reserve maintenance budget is paramount for our continued 
success.
    The top procurement priority of Marine Forces Reserve is the KC-
130J Super Hercules. Our second priority is procurement of the RQ-21A 
Blackjack Small Tactical Unmanned Aircraft System (STUAS).
    The Active Component has already fielded the KC-130J, while initial 
fielding to the Reserve Component began with the arrival of the first 
aircraft in fiscal year 2014. The remaining KC-130T models are 
projected to remain in Reserve Component service until fiscal year 
2022. The two aircraft models are composed of distinct airframes, with 
differing logistic, maintenance, and aircrew requirements. The longer 
the Reserve Component maintains both aircraft, the longer we must 
invest in legacy logistics, maintenance, and aircrew training.
    The RQ-2 1 A will provide the Marine Expeditionary Force and 
subordinate commands (divisions and regiments) a dedicated 
intelligence, surveillance, and reconnaissance system capable of 
delivering intelligence products directly to the tactical commander in 
real time. This program is still in low rate initial production--the 
Active Component began initial procurement in fiscal year 2014, and the 
Reserve Component is scheduled to receive the RQ-21 A in fiscal year 
2021. The later procurement of these systems in the Reserve Component 
creates a significant capability gap between Reserve and Active 
Component forces.
                                training
    During June 2015, Marine Forces Reserve will conduct its third 
Service-level Integrated Training Exercise, which is an assessed 
regimental-level live-fire and maneuver exercise featuring reserve 
component forces as the Marine Air-Ground Task Force elements (i.e., 
command, ground, air, and logistics). The unique nature of this 
exercise ensures maximum training benefits for the ground, aviation, 
and logistics combat elements under the command and control of a 
regimental headquarters. The Integrated Training Exercise is an 
indispensable component of our Training and Readiness Plan and serves 
as an annual capstone exercise, which is the principal mechanism for 
examining our training and readiness levels, as well as assessing our 
operational capabilities. Also measured during the exercise is the 
ability of the Reserve Component to provide a cohesive Marine Air-
Ground Task Force that is a trained and ready capability to the Service 
or combatant commander on a predictable, reliable, and cyclical basis. 
Conducted aboard Marine Corps Air-Ground Combat Center Twenty-nine 
Palms, California, the Integrated Training Exercise is a Marine Air-
Ground Task Force deployment vice a compilation of numerous annual 
training events. Units participate based on their future activation 
potential according to the Marine Forces Reserve fiscal years 2015-2019 
Training and Readiness Plan. The Integrated Training Exercise provides 
all Marine Air-Ground Task Force elements an opportunity to undergo a 
Service assessment of their core competencies that are essential to 
expeditious forward-deployed operations. Additionally, individuals 
serving on the regimental command element staff receive valuable 
training that ensures they are able to seamlessly augment a Marine Air-
Ground Task Force and/or a Joint staff. In summary, the Integrated 
Training Exercise enables improved readiness, more efficient Total 
Force integration, and faster activation response times at the 
battalion and squadron level.
    At our Reserve Training Centers, we continue to maximize training 
efficiencies by utilizing simulators wherever possible to preserve 
fiscal and materiel resources. The Reserve Component Indoor Simulated 
Marksmanship Trainers (ISMTs) and other simulation systems safeguard 
consistent capabilities across the Total Force by ensuring Reserve 
Marines are trained to the same tasks, conditions, and standards 
applicable to Active Component Marines. The ISMTs particularly benefit 
remote site locations that are distant from DOD training ranges by 
preserving valuable training time and vehicle wear and tear during 
drill weekends.
    While training exercises and simulations serve crucial roles in 
preparing Marines for the operating environment, language and culture 
training ensures Marines understand the people among whom they will be 
operating. This type of training is absolutely crucial for success in 
today's complex security environment and yields large dividends to 
Marine Reservists. Through the Marine Corps-wide initiative--the 
Regional, Culture, and Language Familiarization program--our Marines 
have a career-long course of study designed to ensure Reserve Marines 
are regionally focused and globally prepared to effectively navigate 
the culturally complex operating environment. To maximize opportunities 
for participation, the Marine Forces Reserve's culture and language 
programs are available through live instruction, portable media, and 
web-based applications. Our language and culture section remains fully 
operationally capable and supports all units within Marine Forces 
Reserve with virtual training and required testing.
    With our Marines deploying around the globe, we also access and 
leverage a variety of other sources for language and cultural training, 
such as the Marine Corps' Center for Advanced Operational Culture and 
Language, the Defense Language Institute, and Regional Language 
Centers. These enhanced language and culture learning opportunities 
enable our core competencies and posture Marine Forces Reserve for 
success. This initiative is a critical way that we maintain ourselves 
as a regionally-focused, ready and responsive force.
    Marine Forces Reserve continues to integrate safety programs with a 
wide variety of training to reinforce force preservation. The benchmark 
of an effective safety culture is the reduction of mishaps. The Culture 
of Responsible Choices, which began in 2011, ensures all members of the 
force, both military and civilian, focus on safety--both personal as 
well as others. Leadership at every level continues to stress the basic 
tenets of personal responsibility and accountability for decisionmaking 
and behavior not only during work, but at home, in leisure activities, 
and in our personal lives. This engaged leadership empowers our 
personnel to get involved at any time when something is just not right.
    No program can eliminate all hazards. Auto accidents are the 
leading cause of death among our personnel. Accordingly, we continue to 
focus on motor vehicle safety. Our training center at Naval Air 
Station, Joint Reserve Base, New Orleans, is a tangible example of how 
we incorporate training to fully support our Culture of Responsible 
Choices initiative. Personnel receive training in the safe operation of 
their motor vehicles, both cars and motorcycles. From fiscal year 2013 
to 2014, fatal motorcycle mishaps and automobile/truck fatalities 
continue to remain at an extremely low rate, well below the national 
average.
                               facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27-owned and 133-tenant Reserve Training Centers, 
three family housing sites, a Bachelor Enlisted Quarters, and General 
Officer Quarters A in New Orleans, Louisiana. Although some Reserve 
Training Centers are located on major DOD bases and National Guard 
compounds, most of our centers are located openly within civilian 
communities. Therefore, the condition and appearance of our facilities 
informs the American people's perception of the Marine Corps and the 
Armed Forces throughout the Nation.
    The largest part of the facilities budget simply sustains the 
existing physical plant, focusing on infrastructure maintenance that 
enables Marine Forces Reserve to meet Service and combatant command 
operational requirements. Costs of maintaining the physical plant 
steadily increase with the age of the buildings. We have improved the 
overall readiness of our facilities inventory and corrected some 
chronic facility condition deficiencies through Marine Forces Reserve 
Facilities Sustainment, Restoration, and Modernization (FSRM) support.
    The Marine Corps' Reserve Military Construction program focuses on 
new footprint and recapitalization of our aging facilities. The 
construction provided by the annual authorization of Military 
Construction, Navy Reserve (MCNR) funding has been an important factor 
in moving Marine Forces Reserve forward in its facilities support 
mission. The combined effects from our targeted consolidation, FSRM, 
and MCNR programs have steadily reduced the number of inadequate or 
substandard Reserve Training Centers. Continued annual funding for our 
facilities program will enable Marine Forces Reserve to improve the 
physical infrastructure that supports and reinforces mission readiness 
of our units.
    In an attempt to lessen some of the burden on the energy budget, 
and in accordance with national mandates, Marine Forces Reserve 
completed energy assessments at our owned sites and continues to 
implement the recommendations from those assessments as funds are 
available. Priority is given to sites that are the biggest energy users 
nationally and those projects which offer the best return on 
investment. Environmental stewardship continues to be a major success 
in ensuring MARFORRES Facilities sites and units continue to avoid any 
fines or penalties due to violations of national, State, and local 
laws.
                 health services and behavioral health
    Our focus on Marines, Sailors, and their families remains our 
highest priority. Therefore, we are keenly attentive to maintaining 
their health and total fitness. During dwell, our health services 
priority is to attain and maintain the DOD goal of 75 percent Fully 
Medically Ready. In fiscal year 2014, Marine Forces Reserve individual 
medical and dental readiness rates were 73 percent and 87 percent 
respectively. We aggressively worked towards improving medical 
readiness by effective utilization of Medical Readiness Reporting 
System capabilities to enable accurate monitoring and identify unit-
level actions necessary to attain readiness goals. Supporting efforts 
will focus on advocating funds and tailoring support for various 
Reserve Medical/Dental Health Readiness Programs including utilizing to 
the fullest extent possible a combination of programs to significantly 
aid in sustaining our total readiness, such as our Reserve Health 
Readiness Program contract services, Post-Deployment Health 
Reassessment, Reserve TRICARE Medical and Dental Programs, and the 
Psychological Health Outreach Program. Additionally, our personnel 
participate in Force Readiness Assistance & Assessment Program unit 
inspections. These inspections provide oversight for the current health 
status of the Force, specifically at unit levels that provides an 
ability to monitor compliance requirements, policy adherence, and 
meeting unit goal initiatives.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical and dental readiness and Marine Forces Reserve has 
benefited from increases in overall readiness as a result of this 
program. This program funds contracted medical and dental specialists 
to provide services to units that do not have direct medical or dental 
support personnel assigned and are not supported by a military 
treatment facility. During fiscal year 2014, the RHRP performed 20,036 
Periodic Health Assessments, 15,057 in combined Post-Deployment Health 
Reassessments/Mental Health Assessments, and 13,945 Dental Procedures. 
In addition, TRICARE offers for voluntary purchase both a medical and a 
dental program to our Reserve Marines, Sailors, and their families 
(TRICARE Reserve Select for medical coverage and TRICARE Dental 
Program).
    In addition to RHRP, the Marine Corps' robust behavioral health 
program addresses issues ranging from substance abuse, suicide, 
operational stress, domestic violence, and child abuse. These programs 
work in conjunction with Navy Medicine programs to address behavioral 
health issues.
    With regard to specific fitness efforts, Marine Forces Reserve has 
instituted Operational Stress Control and Readiness (OSCAR) training at 
all levels. This training is provided during pre-deployment training to 
service members of units that are deploying for more than 90 days. This 
purpose of this training is to provide the requisite knowledge, skills, 
and tools to assist commanders in preventing, identifying, and m an a g 
i n g combat and operational stress concerns as early as possible.
    Navy Bureau of Medicine continues to support behavioral health 
through various independent contracted programs, such as the Post-
Deployment Health Reassessment/Mental Health Assessments and the 
Psychological Health Outreach Program. The Post-Deployment Health 
Reassessment places an emphasis on identifying mental health concerns 
that may have emerged since returning from deployment. The 
Psychological Health Outreach Program addresses post-deployment 
behavioral health concerns and crisis-related interventions through 
social worker contractors. These social workers provide an array of 
referral services in the community to include follow-up with service 
members. These programs have proven effective in the overall management 
of identifying Marines and Sailors in need of behavioral health 
assistance and have provided an avenue to those service members who 
seek behavioral health assistance.
    Signs of operational and combat stress can manifest long after a 
service member returns home from deployment. Delayed onset of symptoms 
presents particular challenges to Reservists who can be isolated from 
vital medical care and the daily support network inherent in Marine 
Reserve unit. Encouraging Marines to acknowledge and vocalize mental 
health issues is a ubiquitous challenge facing our commanders. We 
address the stigma associated with mental healthcare through key 
programs, such as the Yellow Ribbon Reintegration Program. Further, we 
market all our behavioral health initiatives and programs through our 
Marine Forces Reserve portal website and during key Marine Corps forums 
throughout the year. Your continued support of these programs is 
greatly appreciated.
    Suicide prevention continues to remain a priority effort for Marine 
Forces Reserve and we will continue to leverage all of the resources 
needed to address this heartbreaking issue. Marine Forces Reserve 
focuses its suicide prevention efforts on five initiatives: In-theater 
Assessments, Post Deployment Health Assessments, Psychological Health 
Outreach Program, Care Management Teams, and Unit Marine Awareness and 
Prevention Integration Training. The In-theater Assessment targets 
Reservists exhibiting or struggling with clinically significant issues, 
and ensures evaluation by competent medical authorities for post-
deployment treatment with follow-up decisions made prior to the return 
home. The Post Deployment Health Reassessment seeks to identify issues 
that emerge once Reservists have come home from deployment. Identified 
issues are immediately evaluated and referred for treatment by the 
clinician interviewer, to include referral recommendations based on 
available local resources, such as the VA or private mental health 
providers. The Psychological Health Outreach Program is an essential 
program for treatment referral and follow-up to ensure our service 
members are receiving the appropriate behavioral health services. 
Through the Care Management Teams, the VA assigns a primary care 
manager who is responsible for referral and follow-up to any Reservist 
who has a healthcare issue.
    Another layer of prevention being incorporated throughout Marine 
Forces Reserve is the distribution of gun locks made available by the 
Defense Suicide Prevention Office. These locks were obtained in an 
effort to encourage Marines and Sailors to practice personal weapon 
safety with an emphasis on suicide prevention. Locks can buy critical 
time needed to allow someone contemplating suicide to stop and think, 
and instead seek help. During calendar year 2014, over 5,000 gun locks 
were distributed to more than 49 sites.
    Any Reservist and their family can access Marine Corps 
installations' behavioral health programs through Marine Corps 
Community Services programming while they are on any type of active-
duty orders. When not on active-duty orders, Military OneSource 
provides counseling, resources, and support to Reserve service members 
and their families anywhere in the world. The Marine Corps' DSTRESS 
Line is also available to all Reserve Marines, Sailors, and family 
members regardless of their activation status.
                  sexual assault prevention & response
    Eliminating sexual assault throughout Marine Forces Reserve is a 
top priority. Efforts toward this goal have continued with increased 
momentum. Marine Forces Reserve continues to increase victim services 
and improve victim response capabilities; we have added five 
professional full-time civilian positions to our Sexual Assault 
Prevention and Response staff at our headquarters office. Together, 
along with our Marine Forces Reserve Headquarters Sexual Assault 
Response Coordinator, they manage the Sexual Assault Prevention and 
Response Program at all Marine Forces Reserve sites throughout the 
United States. In addition to civilian staff, more than 300 Marines and 
Sailors achieved certification through the DOD Sexual Assault Advocate 
Certification Program. Once certified, they were appointed by their 
commanders to be Uniformed Victim Advocates at their respective Reserve 
Training Centers. Our prevention strategy is holistic, and emphasizes 
setting the example of discipline from all levels of command. I, along 
with the four commanding generals of our major subordinate commands, 
have again provided in-person Sexual Assault Prevention and Response 
training to all of our colonel-level commanders. The focus of this 2-
day training is on Marine Corps ethos and core values, highlighting the 
inconsistency of sexual assault with our values. In addition to this 
training, multiple all-hands training events are held throughout the 
year. All non-commissioned officers continue to receive additional 
``Take a Stand'' bystander intervention training and all junior Marines 
participate in the ``Step Up'' bystander intervention training.
                            quality of life
    Whether we are taking care of our Marines in the desert or families 
back home, quality of life support programs are designed to help all 
Marines and their families. Because Marines and their families make 
great sacrifices in service to our country, they deserve the very best 
support. Our Marines and families are dispersed throughout America, 
away from the traditional support systems of our bases and stations. 
Therefore, we expend great effort to ensure awareness of the numerous 
support programs adapted for their benefit. Family Readiness Officers 
are a critical component to ensuring young Marines and their families 
receive the help needed to ensure they can continue to serve this great 
Nation.
    This year we have worked as the advocate for the Reservist to 
ensure they are included in tri-service-level discussions with DOD and 
the VA to ensure service treatment records reach VA with a clear of 
chain custody. Because every Marine leaving active duty with a 
remaining military service obligation transitions to the IRR, and every 
Marine mobilized over 30 days must have his or her medical history 
documented, Marine Forces Reserve has a large stake in ensuring this 
process is sound and that follow-up medical care is assured.
    Following approximately 7 years of program expansion to achieve 
wartime footing, Family Readiness Programs are being adjusted to meet 
current and future needs to OPFORs, Marines including Reservists, and 
their families. The Marine Corps will be assessing to ensure that 
programs are stabilized, focused on core requirements, and providing 
support in critical areas such as deployment. Our result is a ready and 
resilient Force, well-equipped to achieve success. We continue to 
leverage modern communication technologies and social media, such as 
the e-Marine website, to better inform and empower family members--
spouses, children and parents--who have little routine contact with the 
Marine Corps and often live considerable distances from large military 
support facilities.
    Our Marine Corps Family Team Building (MCFTB) programs offer 
preventative education and family readiness training to our Marines, 
Sailors, and family members. MCFTB training events are delivered in 
person and through interactive webinars at Marine Corps units across 
the United States.
    The Marine Corps Personal and Professional Development programs 
continue to provide educational information to service members and 
their families.
    Reservists also take advantage of our partnership with tutor.com, 
which offers access to our Marines, Sailors, and their families to 24/7 
no-cost, live online tutoring services for K-12 students, and Reserve 
component college students, and adult learners through the Office of 
the Secretary of Defense (OSD) Yellow Ribbon Program. Active and 
Reserve Marines and their families are also provided remote access to 
language courses through our Marine Corps General Libraries Transparent 
Language Online program. This program supports more than 90 languages 
and delivers English as a Second Language. Additionally, the Marine 
Corps' partnership with the OSD supported Peterson's Online Academic 
Skills Course helps Marines build math and verbal skills to excel on 
the job, pass an exam, advance in a career, or continue education. This 
program assesses the current level of reading comprehension, 
vocabulary, and math skills and teaches the concepts and skills needed 
to increase proficiency in each of these academic areas. This course is 
accessed through the Military One Source or Navy Knowledge Online and 
provided at no charge for service members and their families.
    Our Semper Fit program remains fully engaged in partnering with our 
bases and stations to provide quality, results-based education and 
conditioning protocols for our Marines and Sailors. The High Intensity 
Tactical Training (HITT) program includes hands-on strength and 
conditioning courses, online physical fitness tools, and a mobile 
application for service members to access anywhere at any time, and 
recorded webinars, as well as instruction on injury prevention, 
nutrition, and weight management. Our Marines' and Sailors' quality of 
life is also increased through various stress management and esprit de 
corps activities, such as unit outings and participation in competitive 
events. These programs are key to unit cohesion, camaraderie, and 
motivation.
    The Marine Corps' partnership with Child Care Aware of America 
continues to provide great resources for Marines and their families in 
selecting child care before, during, and after a deployment. Our off-
base child-care subsidy program helps families of our Marines locate 
affordable child care that is comparable to high-quality, on-base, 
military-operated programs. This program provides child-care subsidies 
at quality child care providers for our Reservists who are deployed in 
support of overseas contingency operations and for those active-duty 
Marines who are stationed in regions that are geographically separated 
from military bases and stations.
    The Yellow Ribbon Reintegration Program (YRRP) has been 
incorporated into the Marine Corps Unit, Personal, and Family Readiness 
Program at every command level with civilian and Active Duty Deputy 
Family Readiness Officers (FRO). Since its inception in 2010, the YRRP 
has held more than 550 training events with more than 34,000 Marines, 
Sailors, and family members attending. The responsibility of executing 
Yellow Ribbon--in accordance with the legislation and Marine Forces 
Reserve policy, resides with the individual unit commander. This 
ensures commanders remain engaged with the challenges and issues facing 
their Marines, Sailors, and families, and is in line with Force 
Preservation efforts.
    The Yellow Ribbon Reintegration Program is enduring. Marine Forces 
Reserve continues to explore, with our Marine Corps Family Team 
Building staff, innovative methods for program delivery that will be 
sustainable in any fiscal or deployment climate. This includes 
developing webinars, mail-outs, personal deployment briefs designed to 
meet the individual needs of the service member and family, and working 
with the Family Readiness Officers to leverage local resources at no 
cost to the government.
    We continue to be supportive of Military OneSource, which provides 
our Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
access for counseling and on subjects such as parenting, child care, 
education, finances, legal issues, deployment, crisis support, and 
relocation. In fiscal year 2014, 5,222 of our Marines, Sailors and 
family members utilized their services.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We will continue to be a faithful advocate for these programs and 
services and to evolve and adapt to the changing needs and environments 
in order to ensure that quality support programs and services are 
provided to our Marines, Sailors and their families. The combined 
effect of these programs is critical to the readiness and retention of 
our Marines, Sailors, and their families, and your continued support of 
these programs is greatly appreciated.
   supporting our wounded, ill, or injured marines and their families
    Marine Forces Reserve's commitment to our wounded Marines, Sailors, 
and their families is unwavering. Through the Wounded Warrior Regiment 
(WWR), the Marine Corps ensures one standard of care for all wounded, 
ill, or injured (WII) service members--whether they are active or 
reserve. Marines Forces Reserve requested and received a liaison in 
2013 that coordinates with the WWR to provide the subject matter 
expertise concerning the unique challenges faced by Marine Reservists 
and facilitate necessary support. The WWR staff-includes the Reserve 
Medical Entitlements Determinations Section--which specifically 
maintains oversight of all cases of reservists who require medical care 
beyond their contract period for service incurred and duty limiting 
medical conditions. Additionally, the WWR dedicated five reserve-
specific Recovery Care Coordinators to provide one-on-one transition 
support and resource identification required to support WII reservists 
and families who are often living in remote and isolated locations.
    We are intimately involved in the support provided to wounded, ill, 
and injured Marines through the mobilization of Reserve Marines who 
serve as District Injured Support Coordinators (DISCs), Section Leaders 
and support staff. The DISCs focus primarily on reaching out to the 
reserve and veteran population to ensure the Marine Corps promise to 
keep faith is upheld.
    While the Marine Corps' reduced presence in Afghanistan will result 
in fewer combat casualties, non-combat injuries and illnesses will 
likely remain stable. In addition, instances of PTS and TBI will likely 
continue to increase due to delayed onset as well as the tendency by 
Marines to postpone seeking help. Regardless of the global security 
environment, recovery care support must be enduring. Marine Forces 
Reserve will not forget the sacrifices our Marines and Sailors have 
made for this great Nation; and we will continue to work with the WWR 
to establish resources and programs that address the unique and ongoing 
needs of our reserve population.
                               conclusion
    The Marine Corps is our Nation's crisis response force and will 
continue to be most ready when our Nation is least ready. As part of 
the Marine Corps Total Force, Marine Forces Reserve must remain manned, 
trained, and equipped to provide forces to the Active Component to 
respond across the operational spectrum from disaster relief, to 
Embassy evacuation, to full scale combat operations. We live in a world 
challenged by competition for natural resources, violent extremism, 
natural disasters, social unrest, cyber-attacks, regional conflict, and 
the proliferation of advanced weaponry and weapons of mass destruction. 
The future operating environment will continue to be characterized by 
challenges that will stretch the employment capacity of the U.S. 
military and demand a force-in-readiness with global response 
capabilities. With your continued unwavering support, Marine Forces 
Reserve will continue to serve as the crucial shock absorber to the 
Active Component. Semper Fidelis!

    Senator Cochran. Thank you very much.
    In deference to everybody's schedule, we're going to go 
forward now with questions for members of the panel who are 
here, in the order in which they arrived.
    Senator Durbin will first be recognized for any questions 
he might have of the panel.

                          NATIONAL COMMISSION

    Senator Durbin. Thanks very much, Mr. Chairman.
    I'll direct the question to General Grass, but others who 
feel that they're affected by the question may want to add in 
their thoughts.
    The National Commission on the Future of the Army is 
underway, and it has some pretty important work to do and a 
reporting date of February 1 of next year.
    I would like, General, if you would comment on what you 
consider to be two things: First, those problematic areas that 
you believe need to be addressed by this commission; and 
secondly, whether you believe that we should try to suspend 
making some decisions here in this appropriation bill until 
this report is finished?
    General Grass. Senator, thank you for a critical question 
right now for us.
    I think, getting to the second part of this first, the 
turbulence that it's creating out in the force right now is 
going to have an impact on readiness, on people's lives, on our 
full-time manning. So as we look at this commission report, and 
I look back at the success of the Air Force commission report 
and the guidance that's given us and the implementation of that 
report, I think this commission on the future of the Army has 
to look out 10 to 20 years and look at the Army, the ground 
force of the United States of America, under sequestration and 
determine if that's what we need as a Nation in an Active-
Guard-Reserve mix.
    If we could wait until the commission reports out to make 
any changes, which I think the first time this body has an 
opportunity to impact that is in NDAA (National Defense 
Authorization Act) 2017, that will reduce the turbulence at 
almost no cost, if we just locked it down now.
    With the turbulence of just the 8,000 that General Kadavy 
had mentioned, the cost of that is about an offset of what we 
will save by reducing those numbers in 2016.
    So that would be my main concern, making sure that Congress 
has an opportunity to look at this commission report and report 
out in 2017 where you want us to go.
    And, again, don't look at it just as a Guard, a Reserve or 
an Active. Look at all three components and look at what it 
does to us 10 to 20 years from now.
    Senator Durbin. What I'm really driving is this: We're 
going to make decisions in this appropriations cycle that will 
be implemented and underway about halfway through to the 
reporting date of this commission.
    The question is: What decisions do you think we should 
suspend or withhold--important, costly decisions--waiting for 
the commission to make their ultimate report?
    General Grass. And, Senator, to get real specific, I mean 
definitely lock down the end-strength of the Army National 
Guard at 350,000. I think we're in a good place with the Air 
National Guard right now--350,000 end-strength on the Army. The 
Air is in a very good position right now.
    We would go ahead and abide by NDAA 2015, which we're 
already beginning on the Apache and turning over an additional 
36 Apaches to the Army. We've already fed their modernization 
line with 12. And then hold out until the commission report to 
look at what we're going to do with the other 6 battalions, 
until the 2017 NDAA.
    Senator Durbin. Thank you.
    Mr. Chairman, in deference to my colleagues, who I'm sure 
face tough schedules, too, I'm going to submit the rest of my 
questions for the record.
    Senator Cochran. Thank you, Senator.
    Senator Moran.

       KANSAS NATIONAL GUARD AND AIR NATIONAL GUARD CYBERSECURITY

    Senator Moran. Chairman, thank you very much.
    Gentlemen, ma'am, thank you for being here. Let me talk 
briefly initially about cybersecurity.
    Both General Clarke and General Grass and I have had 
conversations about this, and the role that the Air National 
Guard, Kansas National Guard, plays in our State and in our 
country in cybersecurity.
    We've had concern that I've expressed to both of you about 
reorganization, downsizing the role of the Guard in 
cybersecurity. But my understanding, Generals, is that there 
has been an agreement reached between the Kansas National Guard 
and the Air National Guard regarding how to maintain and 
perhaps even expand the talent pool in Kansas in regard to 
cybersecurity.
    This seems to me, obviously, to be a front and center 
issue, and the Department of Defense from Secretary Ash Carter 
just recently in his comments about the need to grow 
cybersecurity, I think we have a great interest in trying to 
accomplish that.
    And my question to either General Clarke or General Grass 
is I'd like to know, this understanding, what's the timing for 
getting it into a more formal circumstance on a piece of paper, 
a memorandum of agreement between the Air National Guard and 
the Kansas National Guard.
    General Clarke. Senator, we're prepared to do this in 
fiscal year 2016, and we're in agreement with the adjutant 
general (TAG) of Kansas on the formal construct of two 
squadrons, one essentially that's a blue squadron and one 
that's a red squadron, and a group headquarters on top of the 
two squadrons in Kansas.
    We're looking forward to the opportunity to play the blue 
squadron into the cyber mission forces that we'll be providing 
for U.S. Cyber Command on a normal rotational basis. And we're 
looking forward to leveraging the red team to do the efforts 
they've been doing in the past to kind of make us flex our 
bicep in security and cyber overall for the Nation.
    And so the answer to your question is in 2016.
    Senator Moran. General, when you say in 2016, that's when 
the consequences of this agreement will occur, but the 
agreement in writing should occur sooner than that? It could 
occur now, right?
    General Clarke. Oh, yes, sir. Absolutely, absolutely. In 
fact, when this NDAA is signed, that's when I consider it in 
writing that we can move forward.
    Senator Moran. And when do you expect that signature or 
those signatures to take place?
    General Clarke. I would say you're marking up all the way 
into May. Sometime in May, late May.
    Senator Moran. All right. Thank you, General.
    General Grass, you have visited the fusion center in 
Kansas. I have recently been back to the fusion center. I 
wanted to hear from you your perspective on what's taking place 
there and the unique opportunities that the Guard has to play 
in cybersecurity in the facility that fusion center can 
participate in.
    General Grass. Senator, during my visit about a year ago, I 
actually sat in on an update that was going on between law 
enforcement, both State, Federal, as well as National Guard 
sitting in on the meeting, as well as private and public 
entities that were in that session. And the real value of your 
fusion center, you bring all elements, all sectors together in 
one place to look at security issues, and then they can go off 
in their compartmented areas and communicate on their own 
secure systems.
    It's been really a model. We've actually sent some 
representatives from the Department of Defense out to take a 
look at it. We're really interested in working closely with DHS 
(Department of Homeland Security) to say that this may be a 
model of something that DHS may want to look at for the future 
across the Nation and advise other adjutants general to take a 
look.
    Senator Moran. I appreciate that, General.

               K-46A TANKERS AT MC CONNELL AIR FORCE BASE

    We'll have Secretary Jeh Johnson at the fusion center in 
May, Secretary of the Department of Homeland Security. So your 
efforts certainly reached the attention of the Secretary.
    Let me pass my final question to General Jackson. I wrote 
the Chief of Staff of the Air Force, General Welsh, in August 
2013, regarding the potential for the 931st air refueling group 
at McConnell Air Force Base to be designated as a wing. And 
this is based upon the arrival of the K-46A tankers, which 
would increase about 420 in personnel.
    My question to you, General, is transition from a group to 
a wing still a priority for the Air Force? And what timing 
could you suggest in which this may occur?
    General Jackson. Senator, thank you very much for the 
question. We're very proud to be a partner with Air Mobility 
Command to stand up the first mobilization one site for the KC-
46A at McConnell Air Force Base. The 931st has a long history 
of excellence at that location. And as you mentioned, as part 
of the strategic basing process that the Secretary ran for that 
first decision for mobilization one, it was to go ahead and 
grow that organization to a wing structure so that we can do 
two things.
    The first thing is to make sure that we can go ahead and 
retain the experience on the Air Force Reserve side to help 
train all the Active Duty maintainers and folks who are going 
to be coming in to McConnell as we grow both those 
organizations at that location.
    The other part is that we'll be able to sustain that 
excellence in training and also be able to deploy on a very 
frontend with the KC-46. So our increased manpower that we're 
putting in place in 2017, I believe is the number, but I'll go 
ahead and get that back to you, on the growth, we have a glide 
slope to get up to a wing structure by 2017 and 2018.
    Senator Moran. Thank you, sir.
    Thank you, Mr. Chairman.
    [The information follows:]

    The 931st Air Refueling Group at McConnell AFB is programmed to 
grow from 664 manpower authorizations to approximately 945 in fiscal 
year 2019. However, the 931st Air Refueling Group is programmed to 
achieve a minimum wing authorized manpower population threshold of 750 
in fiscal year 2017 or 2018 with 793 manpower authorizations planned, 
depending on Air Force Reserve endstrength allotment for each year.

    Senator Cochran. Thank you, Senator.
    The Senator from Montana, who was the next to arrive, is 
recognized.
    Senator Tester. Thank you.

                     AVIONICS MODERNIZATION PROGRAM

    I want to thank you all for being here and your service and 
your concise opening statements. I very much appreciate that.
    It is my understanding for the past 13 years the Avionics 
Modernization Program, or AMP, has been the program of record 
to upgrade our C-130H fleets. It's also my understanding that 
the AMP program has failed to successfully deliver a single 
operational C-130 since 2001. During that time, this program 
has cost the taxpayers more than $1.5 billion.
    General Clarke, is that statement correct? Are they 
accurate?
    General Clarke. Yes, sir, I'd say that's fairly accurate.
    Senator Tester. Is it also accurate to say that the 
Pentagon and the TAGs are in agreement that we need to pursue a 
reduced scope program for safety and compliance upgrades, if we 
were to meet the deadline of the new 2020 FAA (Federal Aviation 
Administration) airspace regulations?
    General Clarke. Yes, sir.
    Senator Tester. Full-scale AMP is too costly and would 
prevent us from meeting those 2020 deadlines. Is that correct?
    General Clarke. Yes, sir.
    Senator Tester. So my fear is that we end up with a fleet 
of 130s that are incapable of operating in domestic airspace, 
and they'll end up sitting on a runway somewhere until they're 
mothballed.
    Apparently, there are others, many of whom take every 
opportunity to decry Government spending, who want the Air 
Force to pursue the more costly route that ensures we don't 
meet any of these upcoming deadlines.
    Moving forward, I want you to know that I'm going to be 
introducing a bipartisan piece of legislation that does a 
couple of things. It affirms that, for the purposes of 
modernizing our C-130 fleet, the Air Force has the authority to 
undertake safety and compliance upgrades in place of the AMP 
program to meet the 2020 FAA deadline. It also repeals the 
provision in the 2015 Defense Authorization Act that imposed a 
financial penalty on the Air Force Secretary's Office unless 
the Air Force spent down the money specifically on the AMP 
program. And it calls for the Secretary of the Air Force to 
work closely with the FAA administrator to meet applicable 
safety and compliance airspace regulations by the required 
deadline.
    For both of you, General Clarke, and you, General Grass, 
does that sound like something that you would support?
    General Grass. Senator Tester, yes, I would.
    General Clarke. Yes, sir.

                           RED HORSE SQUADRON

    Senator Tester. Well, I really look forward to working with 
you and with the chairman of this committee and my colleagues 
to ensure the Air Force has the flexibility and the tools it 
needs.
    I have to tell you, as I look at the AMP program, this is 
about as close to the definition of insanity as I've ever seen. 
We need to get this fixed.
    I want to talk a little about Red Horse as you guys 
probably would imagine I would. Both to Generals Grass and 
Clarke, we previously discussed the Air Force considering 
consolidation of the 819th Squadron at Malmstrom and the Red 
Horse Squadron at Guam.
    From your perspective, is there a value in housing the 
819th Red Horse Squadron along with the 219th as a Guard 
associate at Malmstrom? Either one, General Grass or Clarke.
    General Clarke. Sir, wherever we have the opportunity to 
partner with the Air Force to get the best of both the Guard 
and the regular Air Force, it works. And we do a great job of 
it. So the Red Horse, wherever you want to bed it down----
    Senator Tester. Okay. That synergy is an asset to both the 
Air Force and, in your case, the Guard? Is that correct?
    General Clarke. Yes, sir. That operational Reserve I was 
talking about, that's the reason it works.
    Senator Tester. What would be your concerns if the 819th is 
moved to Guam? Would that mean the 219th would cease to exist?
    General Clarke. It would continue to exist, sir, if we had 
to put more resources there, like equipment.
    Senator Tester. Okay.
    I want to talk about cyber a little bit also. As the world 
becomes more dependent on technology, protecting these networks 
is going to be critical. It's my understanding the Air National 
Guard will soon announce locations of four new cyber operations 
squadrons.
    What is the primary consideration for the placement of 
these squadrons?
    General Clarke. Senator, there are multiple considerations 
for bed down the new cyber squadrons. Obviously, with limited 
resources, we'd like to leverage as much of the existing force 
structure that we have--facilities like skiff space, bandwidth, 
the pipes, the fiber optic cables that support it. And we also 
want to look at the region that we put it down, where there's a 
population of people that we can recruit that are cyber 
experts, so we can leverage that civilian expertise for cyber 
for the military purposes.
    Senator Tester. And I would assume that you're going to be 
training airmen to fill the emerging high-skill mission. Is 
that correct?
    General Clarke. Yes, sir. Two parts. We do that, and we 
also leverage any members who'd like to separate from services 
into the National Guard that have been already been trained in 
cyber.
    Senator Tester. And so what can this committee do to ensure 
that you have the resources so these folks can get the proper 
training and schooling?
    General Clarke. Sir, we need to make sure we have things 
like the MilPers (Military Personnel) account healthy, so we 
can send them to formal school training. Those are important.
    Senator Tester. Okay. Just as a parochial side note, I will 
say that the University of Montana is going to be holding its 
annual cybersecurity competition on May 2nd.
    Thank you all for your service.
    Senator Cochran. Thank you, Senator.
    The Senator from Montana.

                     AVIONICS MODERNIZATION PROGRAM

    Senator Daines. All right. Thank you, Mr. Chairman. You're 
going to get Montana from the left and Montana from the right 
here this morning.
    So thank you, Senator Tester.
    And I wanted to tell you, a month ago today, I was with 
Leader McConnell and several Senators. We were in Baghdad and 
Irbil, followed by a visit to Kabul and Jalalabad.
    I think we were all struck, profoundly struck, by the men 
and women who are serving our country over there, and we could 
not have been prouder, truly, of seeing what they're doing in 
accomplishing the mission.
    Back to the question of the C-130, kind of building on what 
Senator Tester asked, I think we all have concerns with the AMP 
program that we'll FAA-certified by 2020. What is a better path 
that you might suggest we go down to make sure that these 
planes are certified and flyable by 2020?
    General Clarke. Sir, we have been working with the Air 
Force closely to leverage what we could off of the existing AMP 
program, take the best of that, and then put it into the 
airplanes as we go down first in one increment of safety and 
compliance, kind of what Senator Tester was referring to. And 
then there's another increment that follows on for more 
modernization efforts.
    But that safety and compliance piece is the part that gets 
us to that 2020 mandate for both domestic airspace purposes and 
international purposes.
    Senator Daines. So, General, do you see a path forward then 
perhaps? I guess the other concern right now with our airmen in 
Montana is we just don't see a path right now to certify by 
2020. Do you see a clear path there?
    General Clarke. This is one hot topic, and we have been 
really burning the midnight oil to get this right. And thanks 
to the cooperation with the entire Air Force, we're there. We 
believe we have a very solid plan now to get this done.
    And it's supported by the bodies of adjutants general who 
have seen the plan. They like it, and they agree that we can 
move forward.
    Senator Daines. All right. That's good news. Look forward 
to working with you on that, General, on what we can do to help 
you accomplish that goal.

                                 C-130S

    Following up on the 130s, and maybe this is for both 
Generals Clarke and Grass, there's a concern that we would soon 
be looking at a scenario where the older C-130H models are in 
the Guard and all the newer model Js are in Active Duty.
    General Clarke. Yes, sir. In time, we've taken a front seat 
on newer airplanes either in the Guard or the regular Air 
Force. It has gone back and forth.
    We do own the legacy fleet largely now in the Air National 
Guard and, to a certain degree, also the Air Force Reserve.
    But the reason that we want to retool this AMP program, we 
don't want to put a lot of modernization money into airplanes 
that, eventually, we'd like to recapitalize.
    To give you a simple analogy, we're still running races 
with Richard Petty-era cars, but we're still winning the race. 
But at some point, you need to replace that car with something 
that's faster, modern, new, and is going to keep up with the 
rest of the competition. And the airplanes we're flying now are 
old.
    In January, the Secretary of the Air Force and I flew on a 
1972 model C-130 that was originally bought by U.S. Navy, then 
retired and put in the boneyard, pulled back out, now flown by 
the New York Air National Guard to do a ski mission in 
Antarctica, austere conditions.
    And we put the Secretary of the Air Force on that airplane. 
We had that much confidence we can keep this airplane going 
now.
    I don't think that's the future, though. We need to replace 
these airplanes at some point.
    So minimum modernization to a certain degree, and then 
recapitalization with new airplanes down the road, that's the 
pathway that I think is best.
    Senator Daines. Senator Tester brought up the 219th and 
819th Red Horse issue we have in Montana. Any suggestions what 
we should be doing to make this case to Secretary James in 
terms of the synergy between those two units, because I think 
it really is a one plus one equals three type of synergy we 
have in Montana.
    What suggestion might you have we can make the case to 
Secretary James that we keep the unit there?
    General Clarke. Sir, I have full faith and confidence that 
Secretary James will do the best she can to make sure that 
there is something there for the guardsmen in Montana with the 
Red Horse unit, and General Welsh as well. They believe in the 
ability of what we can do in support of things around the world 
and at home, should there be a disaster. And Red Horse mission 
is one those great dual-purpose missions for us.
    So I have the confidence that she will continue to support 
efforts for Red Horse at large. And when it comes to Montana, 
we'll work out a solution, hopefully, that will allow us to put 
the guardsmen to work there in a Red Horse squadron.
    Senator Daines. One of the important missions of the C-130, 
certainly, we see that in North Carolina, is the MAFFS (Modular 
Airborne FireFighting System), the firefighting systems.
    Given that we have a lot of wildfires out West, just look 
at acreage, millions of acreage oftentimes, do you think it 
might make sense to maybe move some MAFFS capabilities out 
West, perhaps the C-130s?
    General Clarke. Sir, this is another one of those 
requirements that we only see growing and particularly this 
year is going to be quite problematic. So if we have the 
ability to move MAFFS equipment for firefighting purposes 
further west, I think that's probably a good idea.
    Senator Daines. All right. Thank you, General Clarke.
    Senator Cochran. The Senator from New Mexico, Mr. Udall.
    Senator Udall. Thank you, Chairman Cochran. Really 
appreciate you calling this distinguished group together here.
    And thank you all for your service.
    In New Mexico, our TAG Brigadier General, General Salas, 
and the entire Army and Air National Guard are serving the 
State of New Mexico in my opinion in an exemplary manner. As in 
all 50 States, they're at the forefront of serving the 
community, in the first line of defense in the event of natural 
disaster or some other emergency.
    And in border States like New Mexico, they're providing 
important counterdrug operations along the U.S.-New Mexico 
border.
    Furthermore, reservists continue to answer our Nation's 
call when they're needed. As you well know, during over a 
decade of war, both reservists and guardsmen served alongside 
our Active Duty forces with distinction.

                                GI BILL

    And this is one of the reasons I've been working to correct 
the problem in the GI bill and ensure that guardsmen and 
reservists who served in Iraq and Afghanistan are able to 
receive full educational benefits, like their Active Duty 
counterparts.
    I would assume that everyone on this panel would support 
such efforts?
    Yes, let the record reflect they're all nodding, Mr. 
Chairman. Rather than turn it into a question, I just assumed 
that that was true. Thank you.

                           WESTERN WILDFIRES

    I want to follow up on Senator Daines' question, when he 
talked a little bit about Western wildfires. We have a 
situation in the Western United States where record drought, 
snow pack during the winter was low, rivers are drying up, 
Western forests are facing increased fire risks.
    In your opinion, does the Guard in the Western United 
States have the resources and funds they need to respond to 
what could be a really dangerous fire season?
    General Grass. Senator, if I could take that, every year, 
we prepare ahead of time. Many of the States have training 
underway, especially the MAFFS units. They've already certified 
for the season I believe. But also our Black Hawks and Chinooks 
that carry the Bambi Buckets, they're out training.
    The ground crews, they're tied very closely to the National 
Interagency Firefighting Center at Boise, Idaho, to get their 
certifications in through the States.
    I'm not concerned about the number of forces and the 
training level now, but I am concerned about the future, going 
out to full sequestration, and less units, less training at the 
unit level, which it takes leaders. You have to grow leaders 
that can go out and fight a fire--or manage a fire. You don't 
fight it. You manage a fire.
    And we will lose that capability over time.
    Senator Udall. And what can this committee do to make sure 
that capability is there?

                            HOMELAND MISSION

    General Grass. Senator, I plan on, when I meet with the 
commission on the future of the Army, to talk to them about the 
homeland mission in great depth. That's why I think it's very 
important, if we can lock down any changes to the National 
Guard until NDAA 2017, so we can get a good serious look at 
this homeland mission.
    Senator Udall. Great. Thank you.
    My understanding is that the Air Force Special Operations 
is interested in increasing its coordination and training with 
the Air National Guard.
    Can you talk about how this would benefit the Air Guard and 
Active Duty?
    General Clarke. Yes, sir. So being a seamless part of the 
total force--the Air Force Reserve, the Air National Guard, and 
the regular Air Force--we operate the same equipment, and we 
meet the same standards. We take the same inspections. We do 
all of that seamlessly.
    With regard to Special Operations, what they are looking 
for is to capture experience that they're losing off the 
regular Air Force to help them with operations and maintenance 
of the airplanes that they have. That's true across all of our 
portfolio, but the Air Force Special Operations Command is 
looking at ways to do that more than we're doing today.
    Senator Udall. Good, good. My understanding is this would 
free up Special Operations for missions while allowing the 
Guard to train new operators, strengthen their ability to 
support the Active Duty force.
    Do you agree with that assessment?
    General Clarke. Yes, sir.
    Senator Udall. Yes.
    I see my time is very close to running out, so why don't I 
just submit the rest of these questions for the record. I 
appreciate your service. Thank you for being here today.
    Senator Cochran. Thank you, Senator.
    The Senator from Alaska, Ms. Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, ma'am, welcome to the committee this morning. 
Thank you for your leadership.

                                 ARCTIC

    I just came back from a visit to Iqaluit, Nunavut 
Territory, in Canada with Secretary Kerry, where the United 
States assumed the chair of the Arctic Council. We will have 
that position for the next 2 years. It's our opportunity as an 
Arctic Nation to lead as one.
    So the question to you, General Grass, this morning is kind 
of big picture here, but focused on what we have been able to 
do with the National Guard State Partnership Program. As you 
know, in Alaska, we have a very strong partnership between the 
Alaskan National Guard and Mongolia. We continue to see great 
things out of that, and I'm encouraged by that.
    But it caused me to just kind of reflect about what may or 
may not be appropriate with the National Guard in building out 
from the State Partnership Program with our allies among other 
Arctic nations and perhaps the opportunity to participate in 
NATO (North Atlantic Treaty Organization) exercises involving 
Arctic and cold-weather scenarios.
    I heard you mention, General Clarke, that C-130s were sent 
down to Antarctica for some cold testing. We can give you some 
pretty cold stuff up North, too, if you want to go to the other 
end of the pole.
    But can you address whether or not any thought has been 
given to whether it would be appropriate to have these types of 
State partnerships with our friends in the Arctic?
    General Grass. Senator, first let me say that we work very 
closely with Northern Command right now and the Canadians on 
two missions. One is looking at what capabilities we'll need in 
the future to respond to an environmental disaster that occurs 
in the Arctic. The second one is search and rescue. And then we 
actually lean heavily on the New York Air National Guard unit 
that's been flying for 40 years into Antarctica, what they've 
learned about the effects on the aircraft, the communication 
system, the nav system.
    So we are using them as well, but working very closely 
through NORTHCOM on this issue.

                         MONGOLIAN PARTNERSHIP

    Ma'am, on the Mongolian partnership that you have, one of 
the best no doubt, they've actually deployed together. Their 
first deployment into Afghanistan, I think they had two Alaska 
noncommissioned officers embedded in their formation. And they 
did a number of rotations together.
    So it's a very tight partnership, focused on warfighting 
capability but also focused on responding to the needs of their 
citizens both from Alaska, what we learn, and the Mongolian 
military.
    I think there are possibilities for us to continue to 
expand that in the future.
    Right now, one of the main issues that we're dealing with 
on the partnership program, we have 74 countries now, so many 
States have two, some have three partners. And we'll probably 
stand up two more in Africa this year. So now we're up to 76, 
but the budget has been pretty constant. So that's the real 
limiting factor I think going forward.

                   SEXUAL ABUSE AND SEXUAL MISCONDUCT

    Senator Murkowski. Okay. It would be something that we'd be 
interested in speaking with you a little bit more and just 
understanding where we go with it.
    A question then regarding the very comprehensive review 
that was conducted last year with the Alaska National Guard of 
the command climate as a consequence of the reporting of sexual 
abuse and sexual misconduct. The Office of Complex 
Investigations did this comprehensive review. They found some 
significant issues. There have been some movements. The 
adjutant general was replaced.
    But I understand that the National Guard Bureau played a 
significant role in terms of providing assistance to identify 
where the Alaska Guard can remedy some of these identified 
deficiencies.
    Can you describe for the subcommittee this morning what the 
plans for remedying those findings were, and where we are in 
terms of encouraging the Alaska National Guard to implement 
those recommendations? And also whether you felt that the 
readiness of the Guard units there were impacted by all that 
was going on, not only before but during the course of this 
investigation, and if you're satisfied that the readiness issue 
has been addressed now?
    General Grass. Senator, let me first start by saying that 
the problems that Alaska experienced were caused by a small 
number of folks. Your National Guard, I've seen them around the 
world. There's probably not a week that goes by that they're 
not rescuing someone, the rescue unit there.
    Senator Murkowski. We're very proud of them, too. Thank you 
for saying that.
    General Grass. Very talented. And when the Governor 
requested our Office of Complex Investigations to send a team 
up, we devoted months of going up and looking at the 
organization. We came out with 35 recommendations in five 
areas. I won't go into great detail. We can come and brief you 
on that.
    But the key point was that there was education. There were, 
in some cases, leadership changes that occurred. And then the 
third part of that was prosecution. And the prosecution 
probably dragged out much longer, but that wasn't within our 
control.
    One of the things we learned in the process is that the 
military code for Alaska Guard was a bit weak and needed to be 
beefed-up. So last fall, I sent a one-star General up and he 
had access to anyone he needed. He worked with the Governor's 
office, with the adjutant general's office, the acting adjutant 
general at that time, and began to build implementation plans.
    We are still working that. He came home in December, but 
we're still continuing to follow up with General Hummel now 
that she's in place. This will go on for a while.
    Some of that will take legislative changes in State, but 
we're working very closely with the Governor's office as well.
    Senator Murkowski. Good. I appreciate that update. I know 
that the State legislature has worked to address that. I don't 
know whether they were successful in this session, but thank 
you for your attention to it.
    I know that structurally, we want to make sure that, moving 
forward, we don't have incidents of this nature, not only in 
the Alaska Guard, but throughout our various State Guard units. 
So thank you for your leadership.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Missouri, Mr. Blunt.
    Senator Blunt. Thank you, Mr. Chairman.

                          C-130S AND UPGRADES

    General Clarke, I think we've already had several questions 
on C-130s, but is the current status that the upgrades of the H 
models will meet the deadline to all be transitioned where they 
need to be by the time that either they be transitioned or no 
longer in use?
    General Clarke. Yes, sir. Working with the regular Air 
Force and Air Force Reserve Command, we've come up with a plan 
that's solid, and I 100 percent believe that we're going to 
meet the mandates.
    Senator Blunt. And I know you're well aware of what happens 
at Saint Joseph, at Rosecrans, the training for our allies 
around the world that come there for training. I believe we're 
now at a place where we're going to have two C-130 multi-
mission crew trainers move to Saint Joe. They are also going to 
relocate in a relocatable shelter, a simulator shelter there.
    Do you know what the timeframe on that will be?
    General Clarke. Sir, the first simulator arrived roughly at 
the end of calendar year 2015, so not long, and the one after 
that will follow not too long after that.
    And thanks to this body, we purchased that with NGREA 
money.
    Senator Blunt. Great. Well, I'm pleased about that. I know 
the community that is very supportive of the base is, too. And 
one of the things that we've been hoping we'd see there was the 
simulator capacity to train even beyond where we were with the 
planes that were there.

                        A-10S TRANSITION IMPACTS

    General Clarke or General Jackson, either one, on the 
transition from the A-10s, I've been concerned that everybody 
we see from the ground perspective believes that the A-10 
continues to be a great plane and does what it does better than 
anything else would do it.
    But I'd want you to talk a little bit about where that 
transition is, General Jackson, and also your sense of how the 
replacement plane will do what the A-10 does on the ground and 
then other things it may do as well.
    General Jackson. Senator, thanks for your question. As 
you're well aware, the 442nd Fighter Wing is the Air Reserve 
Wing at Whiteman Air Force Base, Missouri that flies the A-10. 
They recently deployed. They returned from deployment and did 
an outstanding job in support of our members on the ground, and 
we're very proud of that unit.
    The discussion once again revolves around whether or not 
the 
A-10 will be able to be divested from the Air Force, which 
includes the Air Force Reserve and Air National Guard. The plan 
for doing that, the re-flow plan, is being discussed with you 
right now.
    When it comes to backfilling requirements, if the A-10s out 
of Whiteman would be removed, they would be backfilled if F-
16s, as the F-35s come onboard. And the discussion of that 
timeline basically has gone back and forth from all the way up 
to 2018 back 2017, up to 2019 and back to 2016.
    So what I would say about the aircraft, sir, is that 
General Welsh does a great job of telling the story of the A-10 
and why we're making this difficult decision.
    He has flown the A-10. I have not. I have flown the F-16, 
just like he has. And I can tell you that from the F-16 
perspective, which would be the replacement airframe at 
Whiteman, as an example, we are dedicated to the CAS (close-air 
support) support and the requirement to go ahead and do that 
mission set.
    Currently, the F-16s and F-15Es do the preponderance of 
that type of close air support in the U.S. Central Command Area 
of Responsibility, with an addition of some B-1s, B-52s. But 
that platform, the F-16 that I have flown, is extremely capable 
and able to do the CAS mission as the A-10 is.
    Having to make this difficult choice, I'm very happy that 
the Chief and the Secretary have decided to go ahead and 
continue to keep that Air Force Reserve experience in that 
fighter platform with the CAS experience, even though we may be 
doing it in the F-16 versus the A-10.
    Senator Blunt. And how much retraining will be necessary 
for our great A-10 pilots there now to transition to the other 
plane?
    General Jackson. Sir, what normally happens when a unit 
goes into a conversation between two weapon systems, and I did 
this when I was assigned to USAFE (United States Air Forces in 
Europe) in Germany, is that we take the unit down for 
conversion. Now, that is to train members, but most of those, 
as an example in the 442nd, well over 30 to 35 percent of our 
pilots have flown the F-16 before. So the bottom line is 
they'll have to go through a reduced training requirement.
    The maintainers, about 30 percent of those have maintained 
F-16s at other locations or on Active Duty. So, once again, 
they'll go through a reduced training requirement.
    If you have to go through a long course, it's going to be 
about 150 days, but that's for a brand new lieutenant that's 
never flown a fighter aircraft that would have to go and get 
fully trained in the F-16.
    Senator Blunt. Mr. Chairman, I have another question. I 
can't quite tell on my time, I think my time is running the 
other direction. I'm pretty sure of that.
    I'm going to ask one more question.

                           REDUCTION IN FORCE

    General Grass and General Talley, both, General Jackson 
mentioned as you all are dealing with all the time the 
difficult choices, and obviously we see a lot of those going on 
right now as we deal with numbers, defense numbers, that 
everybody would like to be higher.
    It does seem to me, as we make those difficult choices, 
that actually instead of the Guard and Reserve taking a 
proportionate share of those, it would seem to me that it would 
actually be the time to be looking at building the Guard and 
Reserve, so that they are there when we need them.
    Either one of your views on that or both your views on 
that? General Talley, do you want to start with that? And then 
General Grass. And that will be my last question.
    General Talley. Yes, sir. Senator, thank you for the 
question.
    I agree with you, to be frank. Force structure in the Army 
Reserve, as I had mentioned in my opening statement, was 
changed in the 1990s by General Sullivan, who was the great 
32nd Chief of Staff of the Army, and put most of that combat 
support and service support that was in the Army, it's no 
longer in the Army and the Army National Guard, unless it's 
organic or brigade combat. It is all in the Army Reserve.
    So the Army can't execute its mission globally daily, 
contingent or combat, without the Army Reserve. So if we de 
facto become strategic--and I'm becoming strategic as we speak 
because of funding reductions. So I'm more worried about 
funding reductions and less resourcing to train and maintain 
that readiness because the Army will fail its mission if I 
can't have my CS and CSS ready to go.
    So we can't afford in the Army to have the Army Reserve 
strategic. But for me, it's really more of an OPTEMPO funding 
issue as it is a force structure and an end-strength. Although, 
I agree we probably should, I would argue, put a pause on 
reducing the total Army at all. I think we ought to hold the 
total Army where it is, I mean just looking at what's going on 
around the world.
    Thank you, sir.
    Senator Blunt. General Grass.
    General Grass. Senator, General Talley laid it pretty well. 
If I could add, I've been to 40 States now, and I'm sure 
whether it's Guard or Reserve, if you look at this young force 
we have today--experienced, well-trained, equipped, ready to 
go--I think it's exactly what the Nation needs to take a 
serious look at right now as a strategic edge in a very 
uncertain world with the fiscal challenges we face.
    Senator Blunt. I would think the point you're both making 
that I agree with is, if you are downsizing the full-time 
force, even more important to have a substantial Reserve and 
Guard backing up that full-time force.
    Mr. Chairman, I think it's something we ought to be 
thinking about. My time is up.
    Senator Cochran. Thank you, Senator.
    The Senator from Vermont, Mr. Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I welcome all the witnesses. With many of you, we've talked 
over a number of these matters before.
    As co-chair of the Senate's National Guard Caucus, I'm a 
strong believer in the value the Reserve components provide our 
country. In fact, we will not prevail in any major conflict 
without the strength of the Guard and Reserve. Certainly, in 
the last few years, that's been brought home over and over 
again. I don't think we have to worry about this committee 
wanting to keep you strong.
    Incidentally, the Guard caucus is a strong bipartisan 
caucus. Senator Lindsey Graham and I have kept it that way.
    General Grass, I know I chatted with you the other day. 
You're going to Vermont this weekend. I think you just said 
that you've been to 44 States. Well, it'll be 45 now.
    You're going to see a wonderful Army aviation facility in 
South Burlington, some of my favorite Guard people there. The 
men and women who work there will make you proud.
    In just meeting them, you'll see these are people dedicated 
to their country, dedicated to the mission. They're flying 
Black Hawks, flown overseas, rescue missions, in combat.
    Given all the talk of the transfer of every Apache attack 
helicopter out of the Nation's Reserve components, which I 
don't really agree with, should States that do not have an 
Apache unit but Black Hawks, like we do, do we have to start 
worrying, too?
    General Grass. Senator, as we begin to draw down even in 
the first round of the two battalions that will leave in 2016, 
the attack battalions, Apaches, as we begin to draw down, we 
will reallocate resources from across, and a full ARI 
implementation of the Apache will affect about 22 States, 
because you just can't close down. You have to move both full-
time manning, you have to move aircraft to fill in when you 
take 24 aircraft out of one State.
    Senator Leahy. Should we be worried about our Black Hawks?
    General Grass. Senator, every State should be worried about 
the redistribution of assets now.
    Senator Leahy. All right. You may be asked this question 
again when you get to Vermont. But you might want to talk with 
them about some of the combat missions they've had. These are 
the most advanced Black Hawks. One of things, when they're in 
an area like Afghanistan or Iraq, as they're out in the 
mountains, they could pick up somebody and then get back to 
altitude very, very quickly.

                       STATE PARTNERSHIP PROGRAM

    We've also seen in Vermont a tremendous impact of the State 
Partnership Program. We've done this with Macedonia, which I've 
actually visited them there, and Senegal, which I haven't. But 
we've heard the challenges, particularly the complexity of 
operating through half a dozen funding streams.
    How can the funding for the program be streamlined to be 
more efficient and give our combatant commanders more effective 
results? I'm trying to think of cutting down, trying to look at 
this and this and this, whether they're actually getting 
something done.
    General Grass. Senator, last year, we conducted over 700 
engagements on behalf of the combatant commands through our 74 
State partner countries. And I mentioned earlier that we're 
going to grow two more this year in Africa.
    But the money is very tight, very tight right now. And it's 
competing against very high priorities. So I think if this body 
were to add money to our State Partnership Program, realizing 
that our overhead for the 74 countries and 700 events is about 
$12 million. It dropped a bit in 2015. But if that money was 
fenced in some way, then we would apply it to our overhead and 
expand our partnership engagements.
    Senator Leahy. I like the idea of these partnerships. I 
like the number of countries they go in.
    This is a very clear U.S. presence, which is welcomed by 
the country. I like seeing our folks there, the U.S. flag 
there.
    As you know, there are other countries that don't share 
some of the interests that we do, in everything from democracy 
to security. A number of those countries, they would love to 
make the inroads, they would love to be welcomed as we are. 
Just from a national security point of view, as well as the 
view of the United States, we want to increase this not 
decrease it.
    If I have other questions, I'll submit them for the record.
    But, General Grass, I applaud you and everybody lined up 
here with you who work so hard on these programs.
    And on behalf of my son, General Mills, I do have to say 
semper fi. I'm not taking sides, but for this young marine, I 
say semper fi.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Kansas, Mr. Moran.

                                 CYBER

    Senator Moran. Mr. Chairman, thank you very much.
    General Grass, I want to follow up with my conversation 
with General Clarke. We shook hands this morning, and you 
congratulated us on the success of reaching agreement between 
the Kansas National Guard and the Air Guard.
    What concerns me about what I heard this morning is that 
there's something necessary to happen with NDAA or the 
appropriations process. My question is: Is there anything that 
now prevents the Guard from entering into some formalized 
agreement between the National Guard and the Kansas Guard 
related to cyber?
    What you were congratulating me about and indicating the 
success that has taken place, why can't that be put in writing? 
To my knowledge, there's nothing in NDAA that's necessary for 
us to formalize, for you to formalize that agreement. Is there 
anything preventing you from signing an agreement now?
    General Grass. Senator, one of the things we looked at in 
cyber a year ago, and all the Governors have been very 
outspoken about this, that we expand cyber capability across 
the Guard. And my concern was that we needed a strategy to do 
that. I think General Clarke laid out that strategy of how we 
would look at the capabilities from civilian skills as well as 
the upward mobility of folks that grow in those units.
    But my bigger concern was the strategy of where we put 
those units. So General Clarke and General Kadavy meet 
periodically. This summer, we're going to announce the 
stationing to the adjutants general of another 11 units, four 
Air and seven more Army. We just announced in February three 
more Army.
    But the intent is to work it together, because whether it's 
an Air Guard or Army Guard unit, I told them I didn't want to 
wake up one day and see them all piled up in one region of the 
country.
    Our goal was first to have a cyber capability in the Guard 
in every FEMA (Federal Emergency Management Agency) region, and 
we're on a path to hit that. Then the next step is every State 
that could support it would have a cyber capability, and that's 
my commitment to the Governors.
    The bigger issue, though, Senator, and I think definitely 
the Secretary Work is working this right now at the Pentagon. 
He's established the working group. It's the authorities that 
we've got to get after. We can build the forces, and we're 
going to do this. And Secretary Carter has made this a 
priority. I see more for all the Reserve components for the 
future, of growing capability.
    But it's the authority of what we can do in State Active 
Duty versus a Federal authority, and where are the boundaries? 
So those authorities will actually probably come to the 
Congress at some point to work through.
    So we're really taking that on now to identify what we need 
to be able to function from the Governors' call as well as the 
President's call. And General Clarke can talk specifically 
about the red team and that you have and the blue team, and the 
group, how soon we can get those.
    Senator Moran. But you're suggesting, General Grass, that 
something is required from NDAA or from Congress before you can 
formalize the agreement?
    General Clarke. Senator, when I say that, I don't even 
promise people capabilities for existing things we have until 
an NDAA is signed, because we have to have the authority to 
execute mission based on what the Congress authorizes money 
for. So the plan, including the cyber for Kansas, is based on 
the authorities given to us, written into the NDAA, that says 
this is what the Congress is willing to stand up for and pay 
for. It might be Apache helicopters, A-10s, whatever it is out 
there, including cyber capabilities.
    If you're looking for a written instrument that indicates 
what the plan is, I can certainly do that with the TAG of 
Kansas. So far, it's been verbal and email exchange with the 
TAG of Kansas, saying he agrees with it. I have those emails, 
if you'd like that for record. But he agrees with what we're 
planning to do there.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    General Clarke. But it's when the NDAA is signed and it's 
official record in law, we can move forward on anything that 
comes to the Department of Defense, including cyber.
    Senator Moran. I have other questions or concerns about 
this, but let's have this conversation outside.
    General Clarke. Yes, sir.
    Senator Moran. I appreciate the chance to have this 
conversation with you, General Clarke, and you, General Grass. 
Thank you.
    Senator Cochran. The Senator from Missouri, Mr. Blunt.

                                 CYBER

    Senator Blunt. Well, following up on cyber, clearly, it's 
one of our great challenges right now, to be sure we're 
effectively combating cyber. I'm on the intel committee. We've 
reported a bill out that would do some things--information-
sharing, some liability protections, other things that I think 
are headed in the right direction.
    But in terms of our cyber fighting force, here's another 
area where I actually think that the combination of a private 
sector job and the Guard and Reserve opportunity in cyber could 
be really great in how those two things come together.
    And so, General Grass, and then, General Clarke, your sense 
of where the Guard and the Reserve can fill an important place 
in the cyber fight would be helpful.
    General Grass. Senator, one of the parameters that we do 
use for basing is we look at the industry in the area. Is there 
a capability there? So when the States submit a package that 
they want to compete for a cyber capability, they will lay that 
out for us.
    My vision for the future is most of our cyber units, 
probably be 80 percent to 90 percent of that unit will be drill 
status guardsmen that will have civilian jobs in cyber. Ten 
percent to 20 percent will be the full-time staff that's there 
every day.
    What we've found so far, and General Clarke can probably 
talk more about it, is in some of those capabilities we stood 
up in the network warfare squadrons, specifically two of them 
that support Fort Meade and CYBERCOM (Cyber Command), they 
actually are giving us money now to bring cyber warriors on 
duty, additional, at different times, so we provide a surge 
capability. Some of them actually become 3-year surge 
capabilities.
    Senator Blunt. General Clarke.
    General Clarke. Yes, sir. The competitive advantages that 
we offer in cyber are three parts.
    One is, we're able to take people who have civilian skill 
sets that do cyber for a living and put them to work. One of 
the most clever slides I've ever seen in the Pentagon was a 
slide that had the network warfare squadron designation at the 
top, and the entire slide is covered with icons and patches of 
corporations like Apple, Microsoft, Hewlett Packard, Boeing, 
and others, NSA (National Security Agency). That's what they do 
in their civilian careers in the IT world. Not that they just 
work there, but they actually do IT stuff.
    If you look at that from a different perspective, from the 
individual perspective, huge networking opportunity, from the 
Guard perspective, we're leveraging all of that expertise for 
things that we need to do in the military world. And if you 
look at it from the employer perspective, they said, ``Well, 
let me get this right, at least once a month or more often, 
they get to go to a conference with the rest of these people 
doing IT and learning things about computer network defense and 
sharing those skill sets and talking about that.'' That's a 
huge competitive advantage in itself.
    The other thing we do is we capture separating members of 
the services, regular Air Force, for instance, who might decide 
to leave. Then we can put them to work, so we capture that 
experience, because people love serving in the Guard, love 
being in the cyber portfolio.
    The third part, and especially when it comes to being able 
to work with industry and work with government, State and 
local, you have someone who has affiliation with them 
automatically, and they're allowed in the door to have a 
relationship with them to help enforce their cyber 
capabilities, which then helps the Governors, helps the mayors, 
helps whoever in the State, in the local community.
    Senator Blunt. I think that chart that you talked about, 
you create here the opportunity for a level of what in the ag 
world, that Senator Cochran and Senator Moran and I all care 
about, you call hybrid vigor. You're bringing all of these new 
ideas, different ideas and different backgrounds together with 
frequency. And that creates a different dynamic than you likely 
could create in any other way.
    So I certainly think this is one of the perfect places for 
the Guard and Reserve to play a role that brings a rapidly 
changing area into a new level of vigor in performance that 
would be hard for me to imagine you could get as easily 
anywhere else.
    I'm going to be continuing to look at what you're doing 
there. I think there's a Missouri cyber unit that is standing 
up now, and we're going to be watching that as well.
    General.
    General Grass. Senator, if I could, I know this committee 
is definitely interested, and I would encourage either the 
members or their staffs to come to Cyber Guard. It's hosted 
every year. It's made up of Active, Guard, and Reserve. It's 
right here. I think this year it's at Suffolk here in Virginia.
    We bring it all together and they actually hammer out and 
battle for 2 weeks in the cyber range, and it brings in DHS as 
well. We bring in power companies to work as a part of this. I 
think it's in the middle of June this year.
    Senator Blunt. Thank you.
    Thank you, Chairman.
    General Talley. Mr. Chairman, if I could?
    Senator, the Army Reserves' private-public partnership, we 
have 3,500 cyber warriors, and 6,500 when you add in the 
support. In the Army Reserve, because we're technical enablers, 
we're the most connected to the private sector, in my opinion, 
of any service or component.
    We just had a signing up on the Hill and a large number of 
the Members of the U.S. Senate and their staffs were there. 
Eleven companies, to include Microsoft, six universities, and 
our cyber folks formally partnering between the private sector, 
the academic sector, and the Army Reserve, as we offer that 
cyber in offense to support the National Security Agency, 
defense with our two-star signal command in Georgia, and also 
protecting the platforms. So I'd love to send you more 
information on that.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you.
    Let me just make an observation that we were very pleased 
to hear the decision to bring the 815th Airlift Squadron back 
to mission-ready status in Mississippi. We appreciate that 
news.
    I wonder, will there be associated with that any request 
for supplemental funding or the need to authorize this in a 
formal way? Or can we just leave this up to you, that the 
necessary manpower is going to be returned to the 815th Airlift 
Squadron as soon as possible?
    General Jackson. Mr. Chairman, once again, we're very proud 
of the 403rd wing down in Mississippi at Keesler Air Force 
Base. And of course, the 815th is part of that outstanding wing 
down there in Mississippi.
    Part of the ability to restore parts of that organization 
will require some manpower that we've already put into the 
calculus for this fiscal year 2016 President's budget 
submission.
    In addition, our requested appropriation for O&M (operation 
and maintenance) includes the required flying hours that we'll 
need there also. But I'll go back and make sure that that math 
is correct and get you an answer on that, sir.
    Senator Cochran. Okay, thank you. Thank you very much.
    Senator, do you have other questions? Senator Moran.
    Senator Moran. No, Senator. Thank you for asking.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Let me thank our panel, our distinguished 
panel of heavy hitters in here today. We appreciate the 
outstanding service that you are providing our country and our 
national security efforts and requirements.
    We want to thank you for your cooperation with our 
committee in responding to the questions of Senators and others 
in preparation for the hearing. We're grateful for your service 
and your courtesies. And we look forward to maintaining a 
continuing dialog, as necessary, through the fiscal year 2016 
appropriations process.
    We're going to permit Senators to submit and supplement the 
record with any additional written questions they may have. In 
that case, we may be submitting additional questions to you, 
and we hope you'll be able to respond within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to General Frank J. Grass
            Questions Submitted by Senator Patrick J. Leahy
    Question. What modifications to the State Partnership Program would 
you recommend to ensure effective coordination within the Department 
and during in-country activities to best execute the mission and 
communicate back the significant return on investment SPP provides? 
Additionally, how can SPP funding be made more efficient for our 
Guardsmen and those funding the program through the National Guard 
Bureau and geographic combatant commands?
    Answer. The Army Aviation Restructure Initiative plan establishes a 
constrained operational Apache force while it builds a large ``spares'' 
(or float) account. The Aviation Restructure Initiative allocates 480 
Apaches for 20 manned, deployable Attack Reconnaissance Battalions and 
80 Apaches to the training base, which leaves 164 Apaches for spares, 
depot maintenance, and the AH-64E Boeing remanufacture line. On the 
other hand the National Guard proposal limits the size of the spares 
account to provide greater operational Apache capacity. The National 
Guard plan allocates 552 Apaches for 24 manned, deployable Attack 
Reconnaissance Battalions and 80 Apaches to the training base, which 
leaves 92 Apaches for spares, depot, and the remanufacture line. The 
Army projects the Apache fleet will be 724 aircraft in fiscal year 2019 
and has programmed a fleet of 690 AH-64Es in fiscal year 2025. The 
Guard plan would program a fleet of 701 AH-64Es in fiscal year 2025, 
requiring the conversions of 11 more AH-64Es for about $220 million. 
The Army insists that the Active Component must have 20 Attack 
Reconnaissance Battalions (not 18 as proposed in the National Guard 
plan) and must retain a large spares account in excess of 130 Apaches. 
This would require the Army to procure up to 104 additional Apaches.
    The Aviation Restructure Initiative plan does provide funding for 
Black Hawk requalification training of Army National Guard pilots and 
mechanics--except for fiscal year 2015. The Aviation Restructure 
Initiative plan does not fund the $2.6M Guard requirement in fiscal 
year 2015 for school course costs, pay and allowances, and flying hour 
operational tempo. We are trying to work through fiscal year 2015 
options with Army Headquarters, but at this point in the fiscal year it 
is unlikely that we will be able to meet the requirement. Likewise, the 
Aviation Restructure Initiative plan covers most of the transportation 
costs to move aircraft and equipment to and from the National Guard, 
but Guard pay and allowance costs (approximately $1 million) directly 
related to the inspection and movement of the aircraft and equipment 
are not covered by the ARI plan and must be diverted from other Army 
Guard tasks.
    Question. As a planning organization, the military develops 
extensive operational plans and concepts of operations for how to use 
the personnel and equipment funded by the Committee, both likely and 
catastrophic. What is the status on the development of plans for how to 
use National Guard personnel and equipment also funded by this 
Committee for complex, catastrophic events within the United States 
under command of civil authorities, and why is the creation of such 
plans important to the President's budget?
    Answer. The National Guard Bureau is developing complex, 
catastrophic event support plans for pre-identified catastrophic 
scenarios in concert with the Federal Emergency Management Agency 
(FEMA), U.S. Northern Command (USNORTHCOM), and U.S. Pacific Command 
(USPACOM). Key to National Guard support in planning efforts is 
accounting for the gaps identified by the Emergency Management 
Consortiums (example: Central United States Earthquake Consortium and 
Western States Seismic Policy Counsel for earthquakes).
    The National Guard's 54 States, Territories, and the District of 
Columbia developed their All-hazard plans, and coordinate, integrate, 
and synchronize them during planning conferences and table top 
exercises (example: New Madrid Seismic Zone Capstone 14). Testing these 
plans during National Level Exercises ensures proper and timely 
responses during catastrophic emergencies (example: Ardent Sentry 15--
Southern California earthquake response).
    National Guard strategic planning serves as a shock absorber and 
helps set the operational framework down to the local level. National 
Guard planning ensures relief from Federal response and provides all 
available National Guard forces for the Nation's best response. 
Integrating National Guard plans reduces duplicate funding, increases 
the visibility of capability gaps, and better focuses the whole of 
government response during a complex, catastrophic event.
    The creation of strategic level plans for the employment of 
National Guard Resources and Personnel are important as they only 
outline specific and applied capabilities, as well as the requirements 
for maintaining those capabilities as well as unfilled requirements and 
projected associated costs. Both of these items go before review and 
budgeting process and therefore have the potential to influence budget 
lines in the President's Budget for Military Operations concerning the 
National Guard and specifically, during Domestic Operations.
    For example, during fiscal year 2014, the Army National Guard 
performed state missions in response to more than 116 events, including 
the continued cleanup of the devastation caused by Hurricane Sandy 
(October 2012).

  TABLE 1: ARMY NATIONAL GUARD DEFENSE SUPPORT OF CIVIL AUTHORITIES AND
                             STATE MISSIONS
------------------------------------------------------------------------
                                    No. of                        No. of
            Event Type              Events       Event Type       Events
------------------------------------------------------------------------
Key asset protection..............      2   Search and rescue...     55
Law enforcement support...........     10   Water support.......      7
Winter storm response.............     46   Tornado.............     15
Flood.............................     16   Explosive ordnance       29
                                             disposal.
Special Event.....................     12   Southwest border....      1
Fire..............................     25   Severe weather......      7
Civil Support Team response.......    130   Counterdrug.........      2
Hurricane or Tropical Storm.......      7   Other...............     14
------------------------------------------------------------------------

    In the Air National Guard's state role, units provided support for 
civil authorities during fiscal year 2014. Examples include fighting 
wildfires with the Modular Airborne Firefighting System (MAFFS); 
providing recovery efforts following the tornado that destroyed Moore, 
Oklahoma; conducting search and rescue operations by the Alaska Rescue 
Coordination Center (saved 1,668 lives during 4,444 missions and 
assisted an additional 701 persons to safety); protecting the police 
command post in Ferguson, Missouri during civil unrest; clearing roads 
to assist emergency vehicles during Hurricane Sandy; and conducting 
counterdrug operations in the Rio Grande Valley of the Texas border.

 TABLE 2: RECENT ANG INITIATIVES TO PROVIDE SUPPORT TO CIVIL AUTHORITIES
------------------------------------------------------------------------
              Event                         Equipment/Capability
------------------------------------------------------------------------
2015 Boston Marathon               JISCC deployment support
2015 Texas Flooding                Eagle Vision in support of event
2015 Santa Barbara Oil Spill       Eagle Vision in support of event
2015 Northern GA Ice Storm         Eagle Vision is support of event
2014 Washington Mudslide,          Two Fatality Search and Recovery
 Snohomish                          Teams (FSRT) recovered remains and
  County, Oso WA                    assisted coroner from 25 March
                                    through 8 April. Refrigerated
                                    trailers, tents and personal
                                    protective equipment (PPE) were
                                    used.
2013 Presidential Inauguration     Two Disaster Relief Mobile Kitchen
                                    Trailers (DRMKT) were used at
                                    McKinley and Wilkinson H.S. to feed
                                    1,800 soldiers from 18 January
                                    through 22 January.
------------------------------------------------------------------------


  TABLE 3: SELECTED NATIONAL GUARD AND RESERVE EQUIPMENT APPROPRIATION-
              FUNDED AIR NATIONAL GUARD COMMUNITY RESPONSES
------------------------------------------------------------------------
              Event                         Equipment/Capability
------------------------------------------------------------------------
2015 Baltimore Riots               Mobile Emergency Operation Center,
                                    Tactical Command Package, and Non-
                                    Lethal Capability Sets, and Less-
                                    Than-Lethal Supportive Sets
2015 New York Snow Storm           Debris Removal Equipment
2014 Washington (State) Mudslides  Fatality Search and Rescue Team,
                                    Disaster Relief Bed-down Sets,
                                    Refrigerated Trailers, Tents and
                                    Personal Protective Equipment
2014 California RIM Fire           Mobile Emergency Operation Center and
                                    Tactical Command Package
2014 South Dakota Forest Fire      Mobile Emergency Operation Center and
                                    Tactical Command Package
2013 South Dakota Flood            Mobile Emergency Operation Center and
                                    Tactical Command Package
2013 Arkansas Tornado              Mobile Emergency Operation Center and
                                    Tactical Command Package
2013 Presidential Inauguration     Disaster Relief Mobile Kitchen
                                    Trailers
Southwest Border                   Joint Incident Site Communication
                                    Capability
------------------------------------------------------------------------

                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                  national guard c-130j flying mission
    Question. General Grass, Lieutenant General Clarke, Major General 
Kadavy, and Lieutenant General Jackson, while the Air Force divests in 
the A-10, it has announced its intention to transfer from the A-10 to 
C-130J's in Maryland in 2018. However, there have been no plans 
submitted to support this, nor has there been an announced plan to 
augment the National Guard's fleet with C-130J's. When will the Air 
Force have a ``Bed Down'' plan for location of the C-130J's, and what 
factors are being considered for that ``Bed Down'' plan?
    Answer. Presently, the Air Force is awaiting Congressional approval 
to divest the A-10. Pending that approval, Air Mobility Command (AMC), 
as the fleet manager for the Mobility Air Force (MAF) C-130J aircraft, 
will be able to provide a bed down for Warfield (Martin State) Air 
National Guard Base in Maryland. AMC maintains the C-130J ``Bed Down'' 
plan for the Active Duty, Air National Guard and Air Force Reserve 
Command.
    Currently, all C-130J aircraft have been assigned (including Martin 
State) and assignments are not expected to change. Unless additional 
funds are provided, additional Mobility Air Forces (MAF) C-130J 
aircraft are not funded for production. The fiscal year 2014 Program of 
Record is to procure 134 Combat Delivery aircraft; approximately 104 of 
these aircraft have been delivered as of early fiscal year 2015. ANG 
(as of May 2015) possesses 16 previously delivered C-130J aircraft, 
with another 8 to be delivered for Martin State in the future.
                      force structure of the army
    Question. General Grass, Major General Kadavy, Lieutenant General 
Clarke, Lieutenant General Jackson, and Lieutenant General Talley: I 
have supported plans for a comprehensive review of the Army's force 
structure to determine how important capabilities can be maintained in 
these tough budget times. What are the factors that you have considered 
in determining the appropriate size of the total force and the mix of 
active duty and reserve forces? What is the cost difference between the 
active duty and reserve forces?
    Answer. The Army National Guard is a full participant in the Army's 
Total Army Analysis, which is the Army's force structure analysis 
process. We work closely with Headquarters, Department of the Army as 
the combat reserve of the Army to activate, inactivate and convert 
units based on the results of Total Army Analysis to support both the 
combatant commanders and National Defense Strategy requirements. We 
then work with state adjutants general to allocate units throughout the 
54 States and territories in areas that can generate and maintain 
readiness for those capabilities and simultaneously provide critical 
support to governors.
    The exact cost difference between active and reserve forces varies 
depending on the frame of reference. Many studies conducted by the Army 
and others overwhelmingly conclude that reserve forces are:
  --Significantly less expensive to the taxpayer when not mobilized or 
        deployed; and
  --Almost, but not quite as expensive as active forces, when used in 
        an active duty status.
    The two most often-cited cost analyses for the cost difference 
between active and reserve forces (to include all of the military 
services) are the 2013 ``Unit Cost and Readiness for the Active and 
Reserve Components of the Armed Forces'' conducted by the Secretary of 
Defense in response to Section 1080A of the National Defense 
Authorization Act fiscal year 2012 (Public Law 112-81) and the 2013 
``Report of Reserve Forces Policy Board on Eliminating Major Gaps in 
DOD Data on the Fully-Burdened and Life-Cycle Cost of Military 
Personnel.''
    The NDAA report states that, at the individual Soldier level, the 
cost of a Reserve Component (RC) Soldier in a part-time status is 
approximately 16 percent of the cost of the Active Component (AC) 
counterpart. In a mobilized or active duty status, that same RC Soldier 
is approximately 95 percent of the cost of their active duty 
counterpart. The reduced cost of an activated RC Soldier lies primarily 
in lower utilization of benefits and reduced retirement annuity costs. 
(pp. 17)
    The Reserve Forces Policy Board study determined: ``The cost of an 
RC service member, when not activated, is less than one-third that of 
their AC counterpart . . . the RC per capita cost ranges from 22 
percent to 32 percent of their AC counterpart's per capita costs, 
depending on which cost elements are included.'' (pp. 5)
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. NPR did a series on the National Guard. One of its 
reports noted that members of the National Guard face challenges in 
getting care for PTSD. That report asserted that Soldiers and airmen in 
the National Guard might be more likely to suffer from PTSD in part 
because they do not have regular access to the kind of support network 
you might find with the Active Duty. And while the Guard tries to do 
the same things that the Active Duty does to screen for individuals 
returning from deployment, one of the challenges of PTSD is that 
symptoms of war can appear long after returning home, when these 
Guardsmen may not be around that regular support network.
    Do you agree that members of the National Guard face a different 
set of challenges with getting care for PTSD and other mental health 
needs?
    Answer. Yes. A recent RAND study highlighted the challenges of the 
National Guard/RC accessing mental healthcare including PTSD due to our 
geo-dispersed population. The study specifically highlighted initial 
access and follow-up barriers if travel for services >30 minutes.
    The ANG and ARNG recognize the unique challenges given our 
geographically dispersed population and therefore we continue to work 
closely with established DOD programs and established an enduring 
psychological health workforce at each ANG Wing and across the ARNG. 
The ANG has 93 Title 5 full-time embedded psychological health 
personnel, at all 89 ANG Wings, 1 at the Air National Guard Readiness 
Center, 1 at 254 Air Base Group, Guam and 2 additional DPHs ( Florida 
and Hawaii) to support their large numbers of Geographically Separated 
Units. The ANGs DPH to SM ratio is 1:1200. The ANG also leverages a 
unique partnership with the Active Component AF and AF Reserve via a 
``Total Force Liaison'' initiative, which allows cross component DPH 
support mitigating some of the geo-dispersed barriers to care noted by 
RAND. The ARNG has 175 full time embedded psychological health 
personnel as they are transitioning from a national contract to a 
Federal Government workforce supported by some local contracts. The 
goal is to reach a 1:2000 provider to SM ratio.
    These mental health professionals provide psychological health 
support and leverage community capacity and access to care.
    Question. Can you describe what the National Guard is doing to 
bridge the gap so that these Soldiers and airmen are not falling 
through the crack when it comes to getting care for PTSD and other 
mental health needs?
    Answer. (ARNG) Yes, here are the following programs:
Behavioral Health:
  --Work closely with established DOD programs
    -- Defense Suicide Prevention Office, Vets4Warriors, VA Military 
        Crisis Line, Military One Source, DOD SAFE HELPLINE and Defense 
        Centers of Excellence for Psychological Health & TBI.
  --ARNG Psychological Health Coordinators (PHCs) and ANG Directors of 
        Psychological Health (DPH): Established in 2009 as expert 
        advisors to leadership on psychological health issues, support 
        resilience efforts and build community relationships. 
        Psychological Health prevention, crisis intervention, referral 
        and follow up case management.
  --Outreach efforts deliver psychological health and resiliency 
        information and resources to the user based at their location. 
        Psychological health educators promote open dialogue and 
        focused training to increase awareness and reduce stigma of 
        seeking counseling.
Suicide Prevention:
  --Current Trends: Decreasing, likely influenced by unit-level suicide 
        prevention and resiliency programs tied to community resources.
    -- Suicides: 2009 = 79; 2010 = 134; 2011 = 116; 2012 = 132; 2013 = 
        134; 
        2014 = 84
    -- NG suicide demographics similar to civilian and AC: Single 17-29 
        Caucasian males.
    -- Prevention NG applies a holistic, evidence-based, community 
        approach to prevent suicides and care for members and families.
    -- ARNG's Community Health Promotion Council (CHPC) and the ANG's 
        Community Action Information Board (CAIB) and Integrated 
        Delivery System (IDS) at each Joint Force Headquarters.
    -- Annual Unit Risk Inventories and Climate Surveys to identify 
        high risk indicators.
  --Unique RC Problems: Unemployment and Behavioral Health Treatment 
        payment
    -- Addressed through the National Guard Employment Network, 
        Transition Assistance Advisors, Yellow Ribbon Programs, and 
        Veterans Opportunity for Work are in place to address this 
        problem.
    -- RC Service members without Veteran status must pay for 
        behavioral health treatment out of pocket. This is cost 
        prohibitive and could potentially discourage a Service member 
        from seeking assistance.
Yellow Ribbon:
  --Helping Service Members and their Families in the National Guard 
        connect with their local support community before, during, and 
        after deployments.
    -- Informational events and activities, referrals, and proactive 
        outreach services throughout the phases of deployment or 
        mobilization
    -- Effectively, efficiently, and as close to the home as possible, 
        ensuring they are informed, and self-sufficient, thus enabling 
        them to sustain the rigors associated with deployment or 
        mobilization
  --How They Help:
    -- TRICARE benefits and dental plans
    -- Referrals to counseling services such as Financial Counseling 
        and Child & Youth Counseling services
    -- Veterans Affairs (VA) Benefits and VA enrollment
    -- Substance Abuse Awareness and Counterdrug Programs
    -- Safety Awareness
    -- Domestic Violence and Sexual Assault Awareness
    -- Emotional, Psychological and Behavioral Services
    -- Marriage and Singles enrichment
    -- Employment Issues
In Transition:
  --A free, voluntary program with coaches who provide psychological 
        healthcare support to Service members, Veterans and their 
        healthcare providers during times of transition.
    -- DOD developed--addresses Mental Health Task Force recommendation 
        for care during transition
    -- Defense Centers of Excellence for Psychological Health and 
        Traumatic Brain Injury manages the program and its support
  --In Transition offers:
    -- Each member has a one-on-one Transitional Support Coach, 
        available by phone, who is a master's-level, licensed 
        behavioral health clinician
    -- Support for members' mental health and wellness through the use 
        of motivational interviewing, readiness, and action planning to 
        identify and address challenges
    -- Information for members about their mental healthcare and how to 
        successfully change providers at the time of transfer or 
        discharge
    -- Assistance with referrals to and follow-up with new providers to 
        ensure continuity of care for members
    -- Information about local community resources, support groups, 
        healthy lifestyle options, benefit enrollment and other health 
        resources
    Answer. (ANG) Yes, here are the following programs:
Behavioral Health:
  --Case Management and Tracking: ANG DPHs have the ability to 
        electronically track, support and encourage compliance 
        throughout the treatment cycle.
  --Annual Web Health Assessment: Computer based forum allows SMs the 
        opportunity to note PTSD related concerns. Medical staff can 
        partner with DPH to follow-up with SMs indicating PTSD 
        symptoms. The ANG is partnering with DOD to create an annual 
        Mental Health assessment solely focused on early identification 
        and referral for Mental Health issues which includes PTSD.
  --Work closely with established DOD programs
    -- Defense Suicide Prevention Office, Vets4Warriors, VA Military 
        Crisis Line, Military one Source, DOD SAFE HELPLINE and Defense 
        Centers of Excellence for Psychological Health & TBI.
  --ANG Directors of Psychological Health (DPH): Established in Oct 
        2010 as expert advisors to leadership on psychological health 
        issues, support resilience efforts and build community 
        relationships. Psychological Health prevention, crisis 
        intervention, referral and follow up case management.
  --Outreach efforts deliver psychological health and resiliency 
        information and resources to the user based at their location. 
        Psychological health educators promote open dialogue and 
        focused training to increase awareness and reduce stigma of 
        seeking counseling.
Suicide Prevention:
    Current Trends: Over the past 5 years, the ANG rate has decreased, 
likely influenced by unit-level suicide prevention and resiliency 
programs tied to community resources.
    Suicides: 2009 = 15; 2010 = 19; 2011 = 17; 2012 = 22; 2013 = 14; 
2014 = 14
  --Prevention NG applies a holistic, evidence-based, community 
        approach to prevent suicides and care for members and families.
  --Community Action Information Board (CAIB) and Integrated Delivery 
        System (IDS) at each Joint Force Headquarters.
  --Annual Unit Risk Inventories and Climate Surveys to identify high 
        risk indicators.
    Unique RC Problems: Unemployment and Behavioral Health Treatment 
payment
  --Addressed through the National Guard Employment Network, Transition 
        Assistance Advisors, Yellow Ribbon Programs, and Veterans 
        Opportunity for Work are in place to address this problem.
  --RC Service members without Veteran status are personally 
        responsible to pay for behavioral health treatment. This is 
        cost prohibitive and could potentially discourage a Service 
        member from seeking assistance.
Yellow Ribbon:
    Helping Service Members and their Families in the National Guard 
connect with their local support community before, during, and after 
deployments.
  --Informational events and activities, referrals, and proactive 
        outreach services throughout the phases of deployment or 
        mobilization
  --Effectively, efficiently, and as close to the home as possible, 
        ensuring they are informed, and self-sufficient, thus enabling 
        them to sustain the rigors associated with deployment or 
        mobilization
How Yellow Ribbon Helps:
  --TRICARE benefits and dental plans
  --Referrals to counseling services such as Financial Counseling and 
        Child & Youth Counseling services
  --Veterans Affairs (VA) Benefits and VA enrollment
  --Substance Abuse Awareness and Counterdrug Programs
  --Safety Awareness
  --Domestic Violence and Sexual Assault Awareness
  --Emotional, Psychological and Behavioral Services
  --Marriage and Singles enrichment
  --Employment Issues
In Transition:
    A free, voluntary program with coaches who provide psychological 
healthcare support to Service members, Veterans, and their healthcare 
providers during the transition from military to civilian status.
  --DOD developed--addresses Mental Health Task Force recommendation 
        for care during transition.
  --Defense Centers of Excellence for Psychological Health and 
        Traumatic Brain Injury manages the program and its support
In Transition offers:
  --Each member has a one-on-one Transitional Support Coach, available 
        by phone, who is a master's-level, licensed behavioral health 
        clinician
  --Support for members' mental health and wellness through the use of 
        motivational interviewing, readiness, and action planning to 
        identify and address challenges
  --Information for members about their mental healthcare and how to 
        successfully change providers at the time of transfer or 
        discharge
  --Assistance with referrals to and follow- up with new providers to 
        ensure effective continuity of care for members
  --Information about local community resources, support groups, 
        healthy lifestyle options, benefit enrollment and other health 
        resources
    Question. Active Guard Reserve (AGR) fulltime manning supports 
administrative, training, supply/maintenance, medical, and recruiting 
functions necessary for the Hawaii National Guard to achieve 
established unit readiness and deployment standards. The inability to 
meet established readiness standards results in a failure to meet 
mobilization and deployment requirements. The National Guard Bureau is 
reducing the Hawaii Army Guard AGR fulltime manning even while the 
Hawaii Army Guard continues to grow in force structure, and there could 
be implications for the Guard's ability to meet readiness standards to 
support the Active Component, as well as to support State Civil Defense 
needs. The Hawaii Army Guard's AGR workforce shrunk from 280 to 276 
between fiscal year 2014 and 2015, while the total force structure grew 
from 2,925 to 3,172 during that same time. I am concerned that the 
National Guard Bureau is not meeting the Hawaii Army Guard's Active 
Guard Reserve fulltime manning requirements to support the increasing 
force structure in the state. I would strongly urge you to fully 
support the Hawaii National Guard's AGR manning requirement given its 
growing force structure. In a geographically isolated State like Hawaii 
where we cannot just reach over the border to get additional support, 
we need our Guard to be at the highest readiness level and these AGR 
are critical to that.
    Why is NGB considering further reductions in AGR fulltime manning 
while our force structure is increasing given the damage it could do to 
readiness?
    Answer. The Department of Army's fiscal year 2015 budget submission 
provided the resources necessary to achieve established unit readiness 
and deployment standards, although at increased levels of risk for some 
units relative to the planned funding levels in the fiscal year 2014 
budget. Sequestration-level cuts resulted in the programmed reduction 
of Army National Guard forces from 350.2K to a total force of 315K. 
Based upon the programmed reduction of ARNG end strength, the fiscal 
year 2015 budget submission reduced the ARNG AGR authorization level by 
675 with an additional reduction of 2,252 AGR and over 2,800 technician 
authorizations through fiscal year 2019.
    In order to reduce turbulence associated with Full-Time Support 
(FTS) reductions across the country, a ``no-growth constraint'' 
methodology was applied to the distribution of fiscal year 2015 
authorizations. No State or territory was allowed to increase AGR end 
strength, regardless of force structure gains, in order to ensure the 
ARNG would not exceed the NDAA ceiling of 31,385 AGRs by the end of 
fiscal year 2015. Without the implementation of the ``no-growth 
constraint'', States with the largest percentages of loss would not 
have been able to meet their respective end strength limitation within 
the fiscal year, thereby causing the ARNG to exceed the end strength 
ceiling set forth in the NDAA.
                                 ______
                                 
  Questions Submitted to Lieutenant General Stanley E. Clarke III and 
                         General Frank J. Grass
                Question Submitted by Senator Roy Blunt
    Question. LTG Clarke stated during the hearing that Rosecrans Air 
National Guard Base (ANGB) would receive two new C-130 simulators. 
However, I was under the assumption that the simulator would be a full-
motion simulator, which would meet the needs of Rosecrans ANGB. A full-
motion simulator would enable Rosecrans to more effectively meet their 
training mission requirements and the requirements of the partner 
nations who train at Rosecrans, at a fraction of the cost of flying 
actual C-130 aircraft. While the Multi-Mission Crew Trainer (MMCT) 
scheduled to arrive at Rosecrans by the end of calendar year 2015, with 
another following in early 2016, is a good first step in providing 
simulator capability, the MMCT still falls short of meeting the 
comprehensive needs of Rosecrans ANGB. When is it likely a full-motion 
simulator will arrive at Rosecrans ANGB and does the provision of these 
two MMCTs delay the arrival of a full-motion simulator? What is the 
installation priority of fielding for full-motion simulators in the Air 
National Guard?
    Answer. We currently do not have a projected date for arrival of a 
full motion simulator at Rosecrans Air National Guard Base. Air 
Mobility Command is the lead command for fielding the C-130 Weapons 
System Trainers (full motion simulator). The C-130H Weapons System 
Trainers locations are based on the needs of Formal Training Units 
(schoolhouse units with the initial aircrew training mission) and to 
those locations situated to serve multiple units (RegAf, AFRC and ANG) 
cost-effectively. Existing facilities, infrastructure, and access are 
additional considerations.
    The Multi Mission Crew Trainer (MMCT) is an initiative funded 
through the National Guard and Reserve Equipment Account to provide 
crews with a platform to practice some, not all, procedures needed for 
aircrew training. As you noted, it is not a full motion simulator and 
was not intended to replace the need for that capability. The two MMCTs 
at Rosecrans will not impact the decision or delay the arrival of a 
full motion simulator.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. In my view, the National Guard State Partnership Program 
is key to putting the Asia-Pacific rebalance into practice. Vice 
Admiral Frank Craig Pandolfe, Director of Strategic Plans and Policy 
for the Joint Staff, noted that ``the vision for the State Partnership 
Program in the Asia Pacific is to reassure our allies through increased 
presence at nominal cost...helping build our partners' capabilities and 
capacity to respond to natural and man-made disasters and to strengthen 
collaboration on regional security interests.'' In the face of emerging 
threats in the region and budget constraints that demand that the U.S. 
military be able to do more with less, the State Partnership Program 
makes sense.
    In your judgment, what capabilities can the National Guard help our 
partners and allies in the Asia-Pacific region develop to support our 
shared regional security goals?
    Answer. Our capabilities cut across the entire military spectrum. 
Additionally, the National Guard offers a whole-of-government 
capability. Merging our T10 mission-ready war-fighting skills along 
with our State response skill sets, the National Guard can assist our 
partners and allies in the Asia-Pacific region as they face emerging 
regional threats and disaster preparedness and response. Specifically, 
our expertise in civil support combined with humanitarian assistance 
and disaster relief is a core capability readily found in every State's 
National Guard.
    In the face of emerging threats and the clear understanding that 
interoperable partners have a greater capacity to share in regional 
security goals, we need to pinpoint the areas where the National Guard 
can assist in meeting the CCMD's desired end states. With an expansion 
in authority, the National Guard could participate in Foreign Military 
Finance. This would offer immediate, tactical expertise as well as 
long-term assessment given our sustained presence.
    The Asia-Pacific region could directly benefit by expanding 
authorities for the National Guard to be more effective in the whole-
of-government process overseas. If we broaden the scope of partnering, 
we can expand the number of countries where we can engage. The concept 
of a traditional SPP does not fit many larger countries, particularly 
near-peers. An expanded scope of partnering could establish mil-to-mil 
and mil-to-civ events, primarily within the National Guard core 
competencies, aimed at assisting the CCMDs emerging theater security 
cooperation requirements.
    Question. What challenges do the Army and Air Guard face with 
investing more in the State Partnership Program and growing the 
capacity to support engagements in the Asia Pacific?
    Answer. The Army and Air National Guard face challenges trying to 
balance the needs of a trained and ready force with worldwide security 
cooperation demands.
    The funding process relies on the Army and Air Force to potentially 
decrease force readiness in order to maintain or increase security 
cooperation funding. The SPP budget has been substantially reduced in 
past fiscal years and faces continued pressure from both services in 
future years.
    Centralized funding directly from OSD will establish a direct 
priorities and effects relationship. Focused solely on security 
cooperation, the priorities would focus on theater security objectives 
established by the GCC rather than an emphasis on training. Centralized 
funding would be budgeted for current partnerships plus planned growth.
    Question. There has been a general decline in funding for the State 
Partnership Program. In fiscal year 2014 the program received $18.78 
million. In fiscal year 2015 it received $9.138 million. I was glad to 
see that funding increased this year to $12.9 million. One of the 
challenges that I have seen is uneven investment from the military 
services. The general trend has been a decrease in the overall Army 
funding of the State Partnership Program. The Air Force funding has 
remained consistent at $3.7 million. I wonder if you might both speak 
to those funding trends.
    Answer. Security Cooperation is all about relationships, and the 
most important result of a mature relationship is trust. Inconsistent 
funding and activities lead to unkept promises which ultimately 
undermine trust, particularly in countries where the cultural 
``memory'' is longer than ours. Funding should be consistent and 
sustainable to ensure a robust calendar of engagements and activities 
each year that foster and preserve the relationship.
    Understandably, security cooperation funding does not compete well 
against training activities. The funding process relies on the Army and 
Air Force to potentially decrease force readiness in order to maintain 
or increase security cooperation funding. The SPP budget has been 
substantially reduced in past fiscal years and faces continued pressure 
from both services in future years.
    To ensure stability and establish a consistent and sustainable 
budget, the SPP budget needs to be centrally funded through OSD, not 
the Services. While the Services might plus-up SPP, OSD needs to 
provide the baseline budget through the Program Objective Memorandum 
process. It should also account for overhead and administrative costs, 
essentially the total cost of the program plus planned partnership 
growth. Security cooperation activities should not center on training 
like the Services, but should focus on regional security stability and 
the security cooperation effects that need to be achieved.
    With the proper programming and funding, we could allocate and 
assign appropriate manpower to meet CCMD objectives and requirements. 
This would include a Bilateral Affairs Officer assigned to each 
Partnership overseas, a State Partnership Coordinator for each 
partnership in the State, and the administration personnel at the 
National Guard Bureau, the Joint Staff, and Office of the Secretary of 
Defense.
    Security Cooperation is all about relationships, and the most 
important result of a mature relationship is trust. Inconsistent 
funding and activities lead to unkept promises which ultimately 
undermine trust, particularly in countries where the cultural 
``memory'' is longer than ours. Funding should be consistent and 
sustainable to ensure a robust calendar of engagements and activities 
each year that foster and preserve the relationship.
    The funding process relies on the Army and Air Force to potentially 
decrease force readiness in order to maintain or increase security 
cooperation funding. The SPP budget has been substantially reduced in 
past fiscal years and faces continued pressure from both services in 
future years.
    To ensure stability and establish a consistent and sustainable 
budget, the SPP budget needs to be centrally funded through OSD, not 
the Services. It should also account for overhead and administrative 
costs, essentially the total cost of the program plus planned 
partnership growth. Security cooperation activities should not center 
on training like the Services, but should focus on regional security 
stability and the security cooperation effects that need to be 
achieved.
    With the proper programming and funding, we could allocate and 
assign appropriate manpower to meet CCMD objectives and requirements. 
This would include a Bilateral Affairs Officer assigned to each 
Partnership overseas, a State Partnership Coordinator for each 
partnership in the State, and the administration personnel at the 
National Guard Bureau, the Joint Staff, and Office of the Secretary of 
Defense.
                                 ______
                                 
         Questions Submitted to Major General Timothy J. Kadavy
            Questions Submitted by Senator Richard J. Durbin
 aviation restructure initiative--guard and reserve as an operational 
                                 force
    Question. Earlier this week, the GAO released its analysis of the 
Army's Aviation Restructure Initiative, as well as the Guard 
counterproposal. Importantly, it found that either plan allowed the 
Army to accomplish its mission. But there was a continued disagreement 
over cost. The Army insists that the Guard proposal would require the 
purchase of 104 Apaches, at a total cost of $3.96 billion, and points 
to that cost as the primary reason for the ARI. But the Guard says 
those 104 Apaches aren't needed. Unfortunately, the GAO analysis 
documented the disagreement but did not solve it.
    Perhaps the Army Commission can solve the dispute over 104 Apaches. 
In the meantime, can you explain the Guard's position that these 104 
Apaches are not needed? In addition, I understand that the Army ARI 
proposal does not account for expenses that the Guard will incur, like 
having to retrain its old Apache pilots on Blackhawks. Could you 
provide the Subcommittee with some sense of these costs?
    Answer. The Army Aviation Restructure Initiative plan establishes a 
constrained operational Apache force while it builds a large ``spares'' 
(or float) account. The Aviation Restructure Initiative allocates 480 
Apaches for 20 manned, deployable Attack Reconnaissance Battalions and 
80 Apaches to the training base, which leaves 164 Apaches for spares, 
depot maintenance, and the AH-64E Boeing remanufacture line. On the 
other hand the National Guard proposal limits the size of the spares 
account to provide greater operational Apache capacity. The National 
Guard plan allocates 552 Apaches for 24 manned, deployable Attack 
Reconnaissance Battalions and 80 Apaches to the training base, which 
leaves 92 Apaches for spares, depot, and the remanufacture line. The 
Army projects the Apache fleet will be 724 aircraft in fiscal year 2019 
and has programmed a fleet of 690 AH-64Es in fiscal year 2025. The 
Guard plan would program a fleet of 701 AH-64Es in fiscal year 2025, 
requiring the conversions of 11 more AH-64Es for about $220 million. 
The Army insists that the Active Component must have 20 Attack 
Reconnaissance Battalions (not 18 as proposed in the National Guard 
plan) and must retain a large spares account in excess of 130 Apaches. 
This would require the Army to procure up to 104 additional Apaches.
    The Aviation Restructure Initiative plan does provide funding for 
Black Hawk requalification training of Army National Guard pilots and 
mechanics--except for fiscal year 2015. The Aviation Restructure 
Initiative plan does not fund the $2.6 million Guard requirement in 
fiscal year 2015 for school course costs, pay and allowances, and 
flying hour operational tempo. We are trying to work through fiscal 
year 2015 options with Army Headquarters, but at this point in the 
fiscal year it is unlikely that we will be able to meet the 
requirement. Likewise, the Aviation Restructure Initiative plan covers 
most of the transportation costs to move aircraft and equipment to and 
from the National Guard, but Guard pay and allowance costs 
(approximately $1 million) directly related to the inspection and 
movement of the aircraft and equipment are not covered by the ARI plan 
and must be diverted from other Army Guard tasks.
    Question. The President's fiscal year 2016 budget requests that the 
Army Guard be reduced by 8,200 soldiers. Such a reduction would likely 
require that one or more ground units in the Army National Guard be 
disassembled. In the past, Mississippi's 155th Armored Brigade Combat 
Team is one of the brigades that was identified for possible 
elimination. This unit was recently deployed, and is counted as one of 
the more modernized brigades in the National Guard--having fielded the 
M1A2 SEP Abrams Main Battle Tank, the M2A3 Bradley Fighting Vehicle, 
and the most up to date digital communications equipment. Its proximity 
to the Army Guard mobilization station, Camp Shelby, also allows the 
155th to quickly mobilize and deploy when needed.
    Given the highly modernized nature of the 155th ABCT and its close 
proximity to Camp Shelby, what specific characteristics about this unit 
lead the Army National Guard to consider eliminating it?
    Answer. No decision has been made to inactivate the 155th Armored 
Brigade Combat Team at this time. The National Guard Bureau was 
directed by the Army to plan for reduction of the Army National Guard 
force structure and end strength to 335,000 by fiscal year 2017, and 
315,000 by fiscal year 2019.
    Question. Are there other units with legacy or less modern 
equipment not being considered for elimination?
    Answer. The preliminary plan to inactivate units across the Army 
National Guard including brigade and Brigade Combat Team structure is 
based on analysis of multiple readiness factors over a 5 year period. 
While the 155th Armor Brigade Combat Team is one of two Armor Brigades 
in the Army National Guard with the most modern equipment, the unit 
scores low in the aggregate of readiness reporting over time.
    Question. If yes, What is the rationale for eliminating a unit such 
as the 155th ABCT in which heavy modernization investment has occurred, 
rather than units that require further investment to achieve the same 
level of manning, equipping, and training?
    Answer. When any unit inactivates, the equipment is redirected to 
continue modernization throughout the Army National Guard. In the end, 
the decision on the number and type of Brigade Combat Teams that the 
Army National Guard inactivates is completely dependent on the scope of 
sequestration. Under current budget restrictions the Army National 
Guard will be reduced to 335,000 personnel with two Brigade Combat 
Teams inactivating. Full sequestration, by fiscal year 2019, would 
cause the Army National Guard to further reduce to 315,000 personnel 
which may require the inactivation of two additional Brigade Combat 
Teams.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. While I support maintaining the attack aviation mission 
in the National Guard because it is clear the Nation needs a reserve in 
case our planning assumptions about the shortness of the next war are 
wrong, as they often are, the reality is that the National Guard does 
have a dual mission and also provides a first response capability to 
governor's in times of need. What does an attack aviation unit provide 
to the governor to meet his needs?
    Answer. The National Guard is very proud of its unique dual mission 
as an operational combat force and first military responder at home. 
Like all Army Guard units, such as artillery and tank battalions, 
Attack Reconnaissance Battalions do offer more than just 400 Soldiers 
capable of providing mission command and control capability, a chain of 
command, and operational and maintenance facilities to provide disaster 
response or security and protection. The Attack Reconnaissance 
Battalion dual-use equipment includes approximately 140 trucks and 
trailers, more than 100 radios, 21 generators, chemical and radiation 
monitoring equipment, individual and crew weapons, limited medical 
capabilities, limited feeding capabilities, and refueling systems. The 
governors rely on these Guardsmen and this equipment to support State 
response requirements and our citizens. More importantly, retention of 
the Attack Reconnaissance Battalions in the Army National Guard also 
provide the capability to ensure fully integrated readiness training 
for ground force commanders and unit leaders-a training requirement for 
ARNG BCTs.
                                 ______
                                 
              Questions Submitted by Senator Brain Schatz
    Question. In my view, the National Guard State Partnership Program 
is key to putting the Asia-Pacific rebalance into practice. Vice 
Admiral Frank Craig Pandolfe, Director of Strategic Plans and Policy 
for the Joint Staff, noted that ``the vision for the State Partnership 
Program in the Asia Pacific is to reassure our allies through increased 
presence at nominal cost...helping build our partners' capabilities and 
capacity to respond to natural and man-made disasters and to strengthen 
collaboration on regional security interests.'' In the face of emerging 
threats in the region and budget constraints that demand that the U.S. 
military be able to do more with less, the State Partnership Program 
makes sense.
    In your judgment, what capabilities can the National Guard help our 
partners and allies in the Asia-Pacific region develop to support our 
shared regional security goals?
    Answer. Our capabilities cut across the entire military spectrum. 
Additionally, the National Guard offers a whole-of-government 
capability. Merging our T10 mission-ready war-fighting skills along 
with our State response skill sets, the National Guard can assist our 
partners and allies in the Asia-Pacific region as they face emerging 
regional threats and disaster preparedness and response. Specifically, 
our expertise in civil support combined with humanitarian assistance 
and disaster relief is a core capability readily found in every State's 
National Guard.
    In the face of emerging threats and the clear understanding that 
interoperable partners have a greater capacity to share in regional 
security goals, we need to pinpoint the areas where the National Guard 
can assist in meeting the CCMD's desired end states. With an expansion 
in authority, the National Guard could participate in Foreign Military 
Finance. This would offer immediate, tactical expertise as well as 
long-term assessment given our sustained presence.
    The Asia-Pacific region could directly benefit by expanding 
authorities for the National Guard to be more effective in the whole-
of-government process overseas. If we broaden the scope of partnering, 
we can expand the number of countries where we can engage. The concept 
of a traditional SPP does not fit many larger countries, particularly 
near-peers. An expanded scope of partnering could establish mil-to-mil 
and mil-to-civ events, primarily within the National Guard core 
competencies, aimed at assisting the CCMDs emerging theater security 
cooperation requirements.
    Question. What challenges do the Army and Air Guard face with 
investing more in the State Partnership Program and growing the 
capacity to support engagements in the Asia Pacific?
    Answer. The Army and Air National Guard face challenges trying to 
balance the needs of a trained and ready force with worldwide security 
cooperation demands.
    The funding process relies on the Army and Air Force to potentially 
decrease force readiness in order to maintain or increase security 
cooperation funding. The SPP budget has been substantially reduced in 
past fiscal years and faces continued pressure from both services in 
future years.
    Centralized funding directly from OSD will establish a direct 
priorities and effects relationship. Focused solely on security 
cooperation, the priorities would focus on theater security objectives 
established by the GCC rather than an emphasis on training. Centralized 
funding would be budgeted for current partnerships plus planned growth.
    Question. There has been a general decline in funding for the State 
Partnership Program. In fiscal year 2014 the program received $18.78 
million. In fiscal year 2015 it received $9.138 million. I was glad to 
see that funding increased this year to $12.9 million. One of the 
challenges that I have seen is uneven investment from the military 
services. The general trend has been a decrease in the overall Army 
funding of the State Partnership Program. The Air Force funding has 
remained consistent at $3.7 million. I wonder if you might both speak 
to those funding trends.
    Answer. Security Cooperation is all about relationships, and the 
most important result of a mature relationship is trust. Inconsistent 
funding and activities lead to unkept promises which ultimately 
undermine trust, particularly in countries where the cultural 
``memory'' is longer than ours. Funding should be consistent and 
sustainable to ensure a robust calendar of engagements and activities 
each year that foster and preserve the relationship.
    The funding process relies on the Army and Air Force to potentially 
decrease force readiness in order to maintain or increase security 
cooperation funding. The SPP budget has been substantially reduced in 
past fiscal years and faces continued pressure from both services in 
future years.
    To ensure stability and establish a consistent and sustainable 
budget, the SPP budget needs to be centrally funded through OSD, not 
the Services. It should also account for overhead and administrative 
costs, essentially the total cost of the program plus planned 
partnership growth. Security cooperation activities should not center 
on training like the Services, but should focus on regional security 
stability and the security cooperation effects that need to be 
achieved.
    With the proper programming and funding, we could allocate and 
assign appropriate manpower to meet CCMD objectives and requirements. 
This would include a Bilateral Affairs Officer assigned to each 
Partnership overseas, a State Partnership Coordinator for each 
partnership in the State, and the administration personnel at the 
National Guard Bureau, the Joint Staff, and Office of the Secretary of 
Defense.
                                 ______
                                 
      Questions Submitted to Lieutenant General Jeffrey W. Talley
             Question Submitted by Senator Patrick J. Leahy
    Question. This year the U.S. Army Reserve created a cyber public 
private partnership initiative with universities and employers. What is 
the value of such partnerships and what is your vision for what role 
the Reserve Components, particularly the Army Reserve, can play in the 
cyber domain?
    Answer. The Army Reserve Cyber Public Private Partnership (Cyber 
P3) was created to enhance USAR Cyber Individual, Leader and Unit 
Readiness through academic cyber networks, employment networks, 
community outreach, collective cyber training and education research 
and strategic communications. The value of Cyber P3 is leveraging 
academic partnerships to build cyber development programs for our 
Soldiers and units. These partnerships are designed to enhance cyber 
Soldier skills by identifying equivalent cyber training and education 
requirements in standing and developing cyber curriculum that meet 
joint and Army training standards. These efforts serve USAR Soldiers in 
their military and civilian careers and are mutually beneficial and 
recognized.
    Employment networks for the Cyber P3 effort are providing regional, 
national and local employment opportunities for USAR cyber skilled 
Soldiers at the entry, novice, journeyman and master level with an 
expanding number of industry partners. The USAR and our Industry 
partners have the same critical requirements for personnel with 
advanced cyber skills and hiring USAR cyber Soldiers provide well 
qualified employers with the added benefit of leadership skills, 
military experience and in many cases security clearances.
    Overall, the USAR Cyber P3 value is its innovative, effective way 
to integrate public and private partnerships to recruit, train, 
educate, develop and retain critical cyber skills at the Soldier, 
leader and unit through partner collaboration, information sharing and 
training together to enable and support the USAR and Army operational 
cyber force.
    The Army Reserve is fully engaged in the cyber domain. The USAR is 
heavily engaged in developing 10 Cyber Protection Teams under the Army 
Reserve Cyber Operations Group (ARCOG) at locations around the United 
States in support of DOD and Army cyber mission requirements. Today, 
the ARCOG has 396 Soldiers assigned (with the intent to grow total 
strength to 469) and supports an annual rotational force of 
approximately 22 Soldiers to perform cyber defensive operations for 
United States Army Central (USARCENT) out of Camp Arifjan, Kuwait. It 
has fulfilled this mission continuously since 2007. The ARCOG also 
trains and participates in a number of cyber exercises, to include: 
USCYBERCOM Cyber Guard and Cyber Flag, USAR Cyber Endeavour and Cyber 
X-Games, and ARNG Cyber Shield.
    The USAR will continue to grow and evolve the cyber force through 
structure, training, equipment and partnerships across the DOD and 
civilian workplace. Ultimately, the Army Reserve will leverage cyber 
skills and resources gained in from the civilian sector to build the 
world's most formidable cyber force.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                      force structure of the army
    Question. General Grass, Major General Kadavy, Lieutenant General 
Clarke, Lieutenant General Jackson, and Lieutenant General Talley: I 
have supported plans for a comprehensive review of the Army's force 
structure to determine how important capabilities can be maintained in 
these tough budget times. What are the factors that you have considered 
in determining the appropriate size of the total force and the mix of 
active duty and reserve forces? What is the cost difference between the 
active duty and reserve forces?
    What are the factors that you have considered in determining the 
appropriate size of the total force and the mix of active duty and 
reserve forces?
    Answer. Total Army Analysis (TAA) is the recognized Army process 
that links strategy to force structure and serves as the bridge between 
OSD/JS guidance and the Army's planning and program building processes, 
balancing the Army's force structure requirements against available and 
planned resources. TAA is a collaborative process involving all 
components of the Army, the Active (Compo 1), the Army Reserve (USAR) 
and the Army National Guard (ARNG) to help shape the future composition 
of the Army. This interaction is representative of the incorporation of 
the Army's Total Force Policy (ATFP) when allocating force structure 
across the Army. Our strategic plan focuses on the Army Total Force 
Policy and is informed by lessons learned during the last 13 years of 
war. We considered Combatant Commander warplan requirements, 
operational commitments, future requirements, costs, and necessary 
readiness levels. The result is a plan that recognizes the unique 
attributes, responsibilities, and complementary nature of our force 
structure to the joint fight. Previous programming decisions eliminated 
or shifted significant portions of Active Component (AC) sustainment 
structure into the U.S. Army Reserve (USAR). The USAR is resourced 
heavily with Maneuver Support and Sustainment Support capabilities 
complimentary to the Total Army's mission requirements. Recent AC/
Reserve Component (RC) force mix studies concluded that cost and 
capability of force output are the two most significant considerations 
impacting force mix. Formations that are complex and high cost are more 
heavily sourced in the AC, while less complex and lower cost formations 
are more often resourced in the RC.
    Question. What is the cost difference between the active duty and 
reserve forces?
    Answer. The Army has struggled with the question on cost 
differences between active duty and reserve forces. There have been 
multiple studies on this issue with varying results depending on the 
perspective of the questioner. First, it must be recognized that there 
are certain activities that the AC performs which benefit the RC, but 
the costs are not applied to the RC. For example; the AC conducts 
Research, Development, Test, and Evaluation (RDTE) activities for the 
Army regardless of component. For the most part, the AC procures 
equipment for the Army regardless of component. Furthermore, the RCs 
benefit from the use of AC installations, ranges and facilities.
    Perspective 1: Comparing the cost difference between two like 
units, one in the AC the other in the Army Reserve. The obvious 
difference is Soldier pay (Base, Basic Allowance for Housing and Basic 
Allowance for Subsistence): An Active Component Soldier is paid for 365 
days a year, whereas the average Army Reserve Drilling Soldier is paid 
for approximately 52 days (AT, IDT and ADOS-RC). However, there are 
other differences which must be considered. For example, AC Soldiers 
require barracks and military housing; AC units conduct much more 
training than RC units, thereby using more fuel/POL products, 
ammunition, spare parts, second destination transportation and OPTEMPO 
funding; AC Soldiers, being on duty 24/7/365, consume more food, 
travel, medical, religious, and morale support activities; and many 
Professional Development Education (PDE) course have been compressed or 
converted to distance education for RC Soldiers.
    Perspective 2: Comparing the Boots On Ground (BOG) cost of an AC 
capability to an RC capability. DODI 1235.12, Accessing the Reserve 
Components, limits RC mobilizations to 12 months, which only affords RC 
BOG time of approximately 9 months on average. AC units operate on a 12 
month BOG schedule. Furthermore, the goal of BOG-to-dwell ratio of RC 
units is ``1 to 4'' (1 year mobilized to 4 years at home station). The 
AC works on a BOG-to-dwell ratio of 1 to 2 (1 year mobilized to 2 years 
at home station). For AC units to provide consistent Boots On Ground 
capability over a prolonged period, three units of that capability 
would be required. Over a prolonged period of time, it would require 
six RC units of that capability due to 9 months of actual BOG time. In 
this type of comparison the cost difference between the active duty and 
reserve forces is reduced.
    There are virtues and variables to each perspective; however I 
submit to you, the cost difference between the AC and RC is only one of 
the considerations for determining the optimal mix of Active Component 
and Reserve Component forces. Within the Army's constrained resources, 
there is no one answer that fits all capabilities. We use a codified 
process to determine the appropriate force size and mix in order to 
meet National Defense Strategy goals and timelines.
                                 ______
                                 
           Questions Submitted to Vice Admiral Robin R. Braun
             Question Submitted by Senator Susan M. Collins
    Question. VADM Braun, last year personnel reductions of 11 percent 
created risk in reserve mission capacity and capability. This is 
especially true of surge or emergency relief missions. Can you provide 
information about how additional cuts to personnel end strength will 
affect your ability to execute such missions in the future?
    Answer. The Navy has increasingly emphasized Active-Reserve 
Integration over the last decade to enhance warfighting capability. As 
a result of these purposeful design efforts, the Navy's Active and 
Reserve Components have become inexorably linked and the impact of any 
potential future Reserve Component personnel cuts would have to be 
evaluated holistically within the context of the operational and fiscal 
environments facing the Total Force at that time. Although it is true 
we experienced another end strength adjustment last year, the Navy 
Reserve was able to meet all assigned surge and emergency relief 
missions. In general, it is fair to say that Reserve Component 
personnel cuts directly erode the overall capacity and support of the 
Total Force.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. The Navy Reserves is responsible for the Navy's worldwide 
intra-theater medium lift, supporting rapid response logistics of cargo 
and people across the world. The unit that supports that mission in the 
Pacific is Fleet Logistics Support Squadron FIVE ONE--VR-51, more 
commonly known as the ``Windjammers.'' And they are truly logisticians. 
They are not transporting CODELS around the pacific. In fiscal year 
2015, VR-51 averaged less than 3 percent of their flights as VIP 
missions. They are hauling cargo for the Navy's theatre missions. 
Unfortunately, this unit has been operating aging C-20G aircraft that 
have been flown extensively the past decade. The C-20G average 23 years 
old and has surpassed its service life of 20,000 flight hours. At some 
point, this unit will need recapitalization to ensure that they can 
continue to effectively execute their mission in the Pacific, 
particularly as we continue to rebalance to this part of the world.
    Can you please discuss the importance of the role of VR-51 to the 
Navy's airlift capabilities in the Pacific?
    Answer. VR-51 is a Navy Unique Fleet Essential Airlift (NUFEA) 
squadron based at Marine Corps Air station (MCAS) Kaneohe Bay, HI. The 
squadron operates C-20Gs, a cargo-modified derivative of the Gulfstream 
G-IV aircraft--it is not configured for VIP requirements. U.S. Code 
Title 10 specifically authorizes NUFEA assets, which are used to 
provide organic air transportation that is essential to Navy's unique 
operational peacetime and wartime requirements. NUFEA aircraft 
primarily support the logistics requirements of the fleet with 
flexible, short-notice airlift of personnel and cargo. NUFEA assets 
fulfill an important and high demand operational role by providing 
intratheater lift to Navy airheads for interface with Carrier Onboard 
Delivery and Vertical Onboard Delivery and combat logistics force 
ships. Due to the expeditionary nature of Navy operations and the 
unpredictable schedules of deployed units, effective air logistics 
support often requires the posture and flexibility to respond to short 
notice tasking in isolated areas not serviced by Air Mobility Command 
(AMC) channel, AMC Special Assignments Airlift Mission (SAAM) or 
commercial flights.
    VR-51 is the only NUFEA squadron homeported in the Pacific Area of 
Responsibility (AOR), enabling the Pacific Fleet to respond to 
unpredictable, high priority, short-notice logistics demands thereby 
enabling Combatant Commanders to counter emerging threats.
    Question. In its fiscal year 2016 unfunded priority list, the Navy 
requested two C-40A aircraft to support the Navy's ``minimum wartime 
requirement'' for unique airlift.
    Could you discuss the benefits of the C-40A, and would those C-40A 
aircraft be allocated to VR-51 to replace its aging fleet?
    Answer. The C-40A is the designated replacement for legacy cargo/
passenger C-9B and C-20G Navy-Unique Fleet Essential Aircraft (NUFEA). 
The C-40A is not configured for VIP requirements; rather it is a cargo/
passenger variant of the Boeing 737. This aircraft offers increased 
range, payload, reliability, cost effectiveness and the unique 
capability of carrying hazardous cargo and passengers simultaneously. 
The Navy retired the last C-9B from the inventory on June 30, 2014. Two 
legacy C-20G aircraft are operated by VR-51 at MCAS Kaneohe, Hawaii. 
The two C-40A aircraft on the CNO's Unfunded Priority List (UPL) would 
replace the C-20G aircraft, which are currently 23 years old and 
operating on a Maintenance Life Extension.
    The capability provided by a NUFEA C-40A was exemplified during a 
recent PACOM mission. The C-40A was tasked with transporting ammunition 
and explosives for a forward deployed Naval Special Warfare Unit. 
During this first mission, the C-40A was additionally tasked to 
evacuate U.S. Navy personnel ahead of a super-typhoon from the 
Philippines to Kadena Air Base, Japan. Immediately after completing the 
first mission, the C-40A crew began the second mission. The time from 
receiving the original mission tasking to completion of the second 
mission was less than 24 hours.
    Navy C-40As continue to be the responsive, flexible, cost-effective 
air transport capability needed to meet dynamic fleet operational 
schedules and critical war fighter requirements.
                                 ______
                                 
        Questions Submitted to Lieutenant General James Jackson
           Question Submitted by Senator Barbara A. Mikulski
                      force structure of the army
    Question. General Grass, Major General Kadavy, Lieutenant General 
Clarke, Lieutenant General Jackson, and Lieutenant General Talley: I 
have supported plans for a comprehensive review of the Army's force 
structure to determine how important capabilities can be maintained in 
these tough budget times. What are the factors that you have considered 
in determining the appropriate size of the total force and the mix of 
active duty and reserve forces? What is the cost difference between the 
active duty and reserve forces?
    Answer. In January 2013, the Secretary of the Air Force and Chief 
of Staff of the Air Force established the Total Force Task Force (TF2) 
to conduct a comprehensive review of the Total Force to balance the 
strengths of each component and develop strategic options on the 
appropriate Total Force capabilities mix to meet current and future Air 
Force requirements. This effort transitioned to the Total Force 
Continuum (TFC) in October 2013, to continue the TF2 efforts and refine 
the analytic tools used to analyze each mission area. The TFC office is 
conducting ``Balance'' analyses across the Air Force. Each analysis is 
used to identify options that optimize the mix between Active Component 
and Reserve Component (AC/RC) forces within a particular Air Force 
mission set or platform. To identify, analyze, and recommend these AC/
RC mix options, the TFC office designed the High Velocity Analysis 
(HVA) model which builds on the Directorate for Studies, Analyses and 
Assessments (AF/A9) Decision Support Tool (DST) and Deputy Chief of 
Staff for Manpower, Personnel, and Service (AF/A1) Personnel Readiness 
Review (PRR) results.
    The HVAs accomplished to date demonstrate that, relative to the 
OSD's approved Integrated Security Construct (ISC) planning 
requirements, the Air Force is already taking substantial risk in 
almost all of the analyzed mission areas due to insufficient capacity 
in the total force. To reduce risk without stressing the force beyond 
the SECDEF-approved deploy-to-dwell (1:2 for AC forces) and 
mobilization-to-dwell (1:5 for RC forces) ratios, the Air Force must 
either grow per Congressional authorization to increase the supply of 
manpower/aircraft available to meet the demand, or reduce the demand 
placed on the force by the OSD-directed ISC requirements. Growth in the 
Air Force Reserve provides an immediate, effective, and affordable 
option to reduce risk and meet near-term demand.
    The HVA model combines quantitative and qualitative analyses to 
derive force mix options of varying organizational efficiency. By 
evaluating the ability of total force capacity and capability to meet 
demand during surge and rotational operations, the HVA provides various 
AC/RC mix options and associated cost comparisons.
    Additionally, the Air Force Reserve utilizes a High Confidence 
Model (HCM) to measure mission area execution effectiveness and 
prioritize mission areas where Air Force Reserve forces have the 
greatest comparative advantage over AC forces in cost and competency. 
Thus, the HCM specifies the mission areas where Air Force Reserve 
forces add the most value to the total force.
    The cost advantages found in the Air Force Reserve can be 
attributed to the fact that over 75 percent of Air Force Reserve 
Citizen Airmen serve part-time, making the Air Force Reserve an 
exceedingly cost-efficient force. This is especially true when 
factoring in the intrinsic value derived from the dual-experience 
gained from a civilian and military career. Traditional Reserve 
officers cost about 23 percent of AC officers annually and Traditional 
Reserve enlisted Airmen cost about 30 percent of AC enlisted Airmen 
annually.
    Comparative annual cost of Airmen:

----------------------------------------------------------------------------------------------------------------
                                                                                               Air       Active
                                                                     Active   Traditional    Reserve   Guard and
                                                                   Component   Reservist   Technician   Reserve
----------------------------------------------------------------------------------------------------------------
Officer..........................................................      $160K        $36K        $153K      $201K
Enlisted.........................................................       $76K        $23K         $76K      $107K
----------------------------------------------------------------------------------------------------------------

    Recently, the Air Force developed and employed the Individual Cost 
Assessment Model (ICAM) that provides high-fidelity estimates of 
individual Active Duty, Air National Guard, and Air Force Reserve 
Airmen pay, benefits, and compensation costs. ICAM models Airmen 
through their careers from accession to end-of-life and calculates the 
annual and burdened life-cycle manpower cost. ICAM analysis shows that 
an Air Force Reserve Traditional Reservist costs approximately 42 
percent for officers and 40 percent for enlisted compared to their 
Active Duty counterparts on average over the entire life cycle of the 
Airmen. This comparison includes pay and benefits over both the career 
and retirement. Applying ICAM estimates at the unit level, analysis 
shows that the home station operations and maintenance manpower costs 
for a 24-ship Air Force Reserve F-35 squadron ($23.5 million) are 
approximately 59 percent the cost of an equivalently manned AC squadron 
($40.1 million). This is attributed to the significantly lower costs 
associated with the part-time traditional reserve workforce
    Today 92 percent of Air Force Reserve manpower is available for 
deployable operational support. This leaves only 8 percent dedicated to 
foundational requirements such as training, test, and BOS. In raw 
numbers this equates to having 65,000 of the 70,000 Reservists 
available to deploy today. Considering the Air Force Reserve annual 
budget is approximately $4.3 billion, or roughly 4 percent of the total 
AF budget, Air Force Reserve forces provide a significant comparative 
cost advantage over AC forces.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The subcommittee will reconvene on 
Wednesday, May 6, at 10:30 a.m., to receive testimony from the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff.
    Until then, the subcommittee will stand in recess.
    [Whereupon, at 10:24 a.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, May 6.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
